<html>
<title> - REAUTHORIZATION OF THE MAGNUSON-STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT: OVERSIGHT OF FISHERIES MANAGEMENT SUCCESSES AND CHALLENGES (PART 2)</title>
<body><pre>[Senate Hearing 115-432]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-432
 
                REAUTHORIZATION OF THE MAGNUSON-STEVENS
                FISHERY CONSERVATION AND MANAGEMENT ACT:
  OVERSIGHT OF FISHERIES MANAGEMENT SUCCESSES AND CHALLENGES (PART 2)

=======================================================================

                             FIELD HEARING

                               before the

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 23, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
    
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
                             


                Available online: http://www.govinfo.gov
                
                
                
                           _______________

                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
34-304 PDF                 WASHINGTON : 2019                     
                
                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

DAN SULLIVAN, Alaska, Chairman       GARY PETERS, Michigan, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JAMES INHOFE, Oklahoma               BRIAN SCHATZ, Hawaii
MIKE LEE, Utah                       EDWARD MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CORY BOOKER, New Jersey
CORY GARDNER, Colorado               TAMMY BALDWIN, Wisconsin
TODD YOUNG, Indiana

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 23, 2017..................................     1
Statement of Senator Sullivan....................................     1

                               Witnesses

Dan Hull, Chairman, North Pacific Fishery Management Council.....     4
    Prepared statement...........................................     6
Sam Cotten, Commissioner, Alaska Department of Fish and Game.....    15
    Prepared statement...........................................    16
Reed Morisky, Member, Alaska Board of Fisheries..................    18
    Prepared statement...........................................    19
A.G. ``Spud'' Woodward, Director, Coastal Resources Division, 
  Georgia Department of Natural Resources........................    21
    Prepared statement...........................................    22
Glenn Reed, President, Pacific Seafood Processors Association....    36
    Prepared statement...........................................    39
Ben Speciale, President, Yamaha Marine Group, Yamaha Motor 
  Corporation, USA...............................................    40
    Prepared statement...........................................    42
Linda Behnken, President, Halibut Coalition; and Executive 
  Director, Alaska Longline Fishermen's Association..............    57
    Prepared statement...........................................    58
Ragnar Alstrom, Executive Director, Yukon Delta Fisheries 
  Development Association........................................    63
    Prepared statement...........................................    64
Ben Stevens, Director, Hunting and Fishing Task Force, Tanana 
  Chiefs Conference..............................................    67
    Prepared statement...........................................    68
Shannon Carroll, Deputy Director, Alaska Marine Conservation 
  Council........................................................    96
    Prepared statement...........................................    98
Julie Bonney, Executive Director, Alaska Groundfish Data Bank....   102
    Prepared statement...........................................   103
Lori Swanson, Executive Director, Marine Conservation Alliance...   104
    Prepared statement...........................................   106
Duncan Fields, Gulf of Alaska Coastal Communities Coalition......   107
    Prepared statement...........................................   109
Liz Ogilvie, Chief Marketing Officer, American Sportfishing 
  Association....................................................   113
    Prepared statement...........................................   114

                                Appendix

Rebecca Skinner, Executive Director, Alaska Whitefish Trawlers 
  Association, prepared statement................................   127
Ernest Weiss, Natural Resource Director, Aleutians East Borough, 
  prepared statement.............................................   128
Ryan P. Mulvey, Counsel, Cause of Action Institute, prepared 
  statement......................................................   128
A.G. ``Spud'' Woodward, Director, Coastal Resources Division, 
  Georgia Department of Natural Resources, prepared statement....   133
Letter dated March 15, 2017 to Members of the 115th Congress from 
  the MSA Working Group..........................................   134
Letter dated August 22, 2017 to Hon. Dan Sullivan from Kevin R. 
  Wheeler, Executive Director, Seafood Harvesters of America.....   147
Response to written questions submitted by Hon. Roger F. Wicker 
  to Elizabeth Ogilvie...........................................   148



                    REAUTHORIZATION OF THE MAGNUSON-
                    STEVENS FISHERY CONSERVATION AND
                      MANAGEMENT ACT: OVERSIGHT OF
                     FISHERIES MANAGEMENT SUCCESSES
                        AND CHALLENGES (PART 2)

                              ----------                              


                       WEDNESDAY, AUGUST 23, 2017

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                      Soldotna, AK.
    The Subcommittee met, pursuant to notice, at 1:03 p.m. in 
Room 102, Kenai Peninsula College, Hon. Dan Sullivan, Chairman 
of the Subcommittee, presiding.
    Present: Senator Dan Sullivan [presiding].

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Well, good afternoon, everybody.
    The Committee on Commerce, Science, and Transportation will 
now come to order.
    You may have seen that the title of today's hearing is the 
``Reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act: Oversight of Fisheries Management Successes 
and Challenges.''
    I am Senator Dan Sullivan. I want to thank everybody for 
being here.
    I had the good fortune of being named, at the beginning of 
this most recent Congress, the Chairman of the Senate's 
Commerce Committee's Subcommittee on Oceans, Atmosphere, 
Fisheries, and the Coast Guard, which has jurisdiction over our 
Nation's fisheries and Federal waters. This is the first field 
hearing that the Subcommittee is doing anywhere in the United 
States. And, of course, you are not surprised that we are doing 
it here in Alaska.
    With me today, I have two professional staff members from 
the Senate Commerce Committee, Emily Patrolia and Cindy 
Qualley; along with staff members in my office, Tom Mansour, 
who is a Coast Guard officer on detail to my office; Scott 
Leathard, who is the Staff Director of the Subcommittee; Elaina 
Spraker, who many of you know from my Kenai office.
    My Chief of Staff in Washington, D.C., Joe Balash, who some 
of you may know on a very different, but important topic to the 
State of Alaska, has recently been named by the President to be 
the Assistant Secretary of Interior in charge of all oil, gas, 
minerals, onshore, and offshore; not only for Alaska, but the 
entire country.
    So Joe will be going through his confirmation hearing in 
the Senate Energy and Natural Resources Committee chaired by 
Senator Murkowski in a couple of weeks. So we will be losing 
Joe, but America and Alaska will be gaining a strong advocate 
for our state and the country on some very, very important 
issues that we are not going to be talking about today, but I 
just wanted you to know that.
    Today's hearing is the second in a series of hearings that 
I am chairing, which focuses on the long overdue 
reauthorization of the Magnuson-Stevens Fisheries Conservation 
and Management Act--we short-handedly refer to it as the MSA--
to examine this law's impact on managing our Nation's 
fisheries, its successes, of which there are many, and areas of 
improvement.
    Again, I first want to start by thanking our hosts. Gary, 
thank you, and the Kenai Peninsula College. I also want to 
thank the Kenai River Sporting Association for their help in 
organizing this important event.
    This year, the Kenai River Classic celebrates 25 years of 
raising funds for conservation, education, and other projects 
in South Central Alaska, and I wish the organizers another very 
successful event week.
    I also want to thank everybody for being here today. We 
have an all-star list of witnesses who are going to be 
testifying on three different panels today. This is an 
important hearing.
    I know that many of you traveled throughout parts of Alaska 
to be here and some of you have traveled, literally, thousands 
of miles from the Lower 48, to be here. I want to personally 
thank everybody for the travel, sacrificing their time, even 
sacrificing their time out on the water to fish.
    Earlier this month, I chaired a hearing in Washington, D.C. 
that solicited testimony from the Regional Fisheries Management 
Councils and NOAA. Today, our intention is to have the 
opportunity to broaden the amount of testimony, and witnesses, 
and different points of view dramatically from all kinds of 
different stakeholders in our fisheries.
    One of the things that I just want to emphasize: this is an 
area where I see significant bipartisan opportunities. One 
thing when I am back home, I try to talk about what is going on 
in Washington and you often only hear about the conflict and 
where things are not working. There are also a lot of things 
that are working from a bipartisan perspective. I will just 
mention one that relates to fisheries.
    We had a bill called the Save Our Seas Act that recently 
passed the Senate. That came out of the Committee that I chair. 
It was a bill that I authored, but it had numerous Democrats 
and Republicans dealing with a really important issue that 
relates to this topic and that is the issue of ocean pollution, 
ocean debris. You cannot help but see that throughout our 
state. So there is progress there.
    We want to make sure that as we look at reauthorizing this 
bill that we hear from as many impacted stakeholders as 
possible, to make sure that we can build consensus, and to make 
sure that the next generation of young men and women in our 
fisheries, whether in Alaska or throughout the country, have 
opportunities for strong, sustainable fisheries and strong bi-
run coastal communities.
    So when you look at the witness list, it literally covers 
the Pacific Northwest, the southeast United States, and every 
corner of Alaska from southeast, to the interior and Kodiak, 
and everywhere in between.
    We are fortunate today to host a robust group of witnesses 
representing both geographic diversity and, importantly, a 
diversity of experiences and perspectives.
    In addition, I am eager to hear from our State and regional 
Federal managers to gain their views on management successes, 
challenges, and how Congress can provide additional direction 
or tools to further their mission and enhance State and Federal 
coordination, which is so, so critical with regard to our 
fisheries to enable them to thrive for the next generation, 
whether they are commercial, recreational, charter, or 
subsistence.
    The MSA has successfully Americanized our fisheries and 
built the fishing industry into Alaska's largest private 
employer--a lot of people, even in Alaska, do not realize 
that--more than any other industry. As I constantly and perhaps 
annoyingly remind my Senate colleagues back in Washington, D.C. 
Alaska's fisheries are, by far, the largest in the Nation 
accounting for well over 50 percent of all total domestic 
landings in the country.
    We literally are the super power of seafood and probably 
considered the best managed fishery--certainly not without its 
challenges--but the best managed fishery in the United States 
and probably in the world.
    At the same time, we know that we have challenges, and we 
know that we have opportunities and see them. Even this summer, 
like most Alaskans, I have been out doing my fair share of 
fishing this summer. I was on the Yukon River where my wife's 
family has had a subsistence fish camp for generations. I saw a 
strong run there. I was out fishing in Seward and saw a lot of 
opportunities out there. And just yesterday, I was in King Cove 
and saw a strong fishery there.
    In 2017, we saw a near record sockeye run in Bristol Bay. 
Meanwhile, southeast Alaska is experiencing unprecedented 
closure of sport and commercial king salmon fisheries, and the 
sport king fishery in the Upper Copper River was closed this 
year. As I noted, the Yukon River saw the best king fishery 
since 2003, while the Kuskokwim saw few kings, but an abundance 
of reds and chums. The Gulf of Alaska saw an early closure for 
some groundfish species.
    These are just a few observations, some challenges related 
to management, while others are a function of biology. And I 
think our witnesses are going to help us understand these 
better.
    The key is providing the greatest overall benefit to the 
U.S., the entire country, to recreational opportunity and 
seafood harvest without jeopardizing conservation. And that is 
the greatest responsibility that Congress has assigned to our 
fishery managers through the MSA.
    This requirement is often a strained balancing act and we 
recognize that, and it forces tough choices between competing 
interests. But again, I think what we are trying to do here is 
look at ways to achieve consensus.
    At a recent hearing in Washington, Chris Oliver, the newly 
appointed Assistant Administrator for NOAA Fisheries, the 
Director of the National Marine Fishery Service, NMFS, and I am 
proud to say the first-ever Alaskan to permanently hold that 
position, testified as follows: ``I believe there are 
opportunities to have it both ways. To maximize our domestic 
harvest potential without compromising the long term 
sustainability of the resources we manage.''
    So for many Alaskans and their families, fishing is a way 
of life. As Congress considers the reauthorization of the MSA, 
we are focused on seeking the sort of solutions that Chris 
Oliver has confidence exists. I hope today's hearing will 
further guide us toward that goal.
    I am committed to ensuring that our Nation's fisheries 
management system supports a stable food supply, recreational 
subsistence opportunities, and plentiful fishing and processing 
jobs that provide for vibrant coastal communities here in 
Alaska, but also across the United States.
    And with that, I would like to get started and turn to our 
first panel, which consists mostly of State and Federal 
officials in the public management bodies that make decisions 
with regard to our fisheries.
    I want to welcome our witnesses, Dan Hull, who is the Chair 
of the North Pacific Fishery Management Council.
    Commissioner Sam Cotten, who is the Commissioner of the 
Alaska Department of Fish and Game.
    Reed Morisky, Member of the Alaska Board of Fisheries.
    And Spud Woodward, Director of the Coastal Resources 
Division, Georgia Department of Natural Resources. Dr. 
Woodward, I think you might get the award for traveling the 
furthest. So we want to thank you for being here as well.
    Each of you will have 5 minutes to deliver an oral 
statement. A longer, written statement will be included in the 
record for this hearing, if you so wish.
    That also reminds me, this hearing will be open in terms of 
the record for 2 weeks and we would encourage any and all--we 
will leave the contact information for additional testimony 
from any members of the audience--who would like to submit 
written testimony that we will look at and read, I promise you, 
and consider as part of this hearing, even though you were not 
able to testify as one of the witnesses today.
    So each of you, as I mentioned, will have 5 minutes. We 
look forward to an interesting discussion and again, I want to 
thank all of the witnesses for being here.
    Dan, can you please kick it off?

    STATEMENT OF DAN HULL, CHAIRMAN, NORTH PACIFIC FISHERY 
                       MANAGEMENT COUNCIL

    Mr. Hull. Good afternoon, Chairman Sullivan, Ranking Member 
Peters, and members of the Committee.
    First, thank you for holding this field hearing in Alaska 
and for the opportunity to testify on the reauthorization of 
the Magnuson-Stevens Fishery Conservation and Management Act, 
or MSA, as we say in shorthand.
    My name is Dan Hull and I am Chairman of the North Pacific 
Fishery Management Council.
    Fisheries are extremely important to the economies, coastal 
communities, and cultures in Alaska and the Pacific Northwest. 
And we have developed a sustainable fisheries management 
program in Alaska over the last 40 years.
    Thus, the North Pacific Council believes that the current 
MSA and the ten national standards already provide a very 
successful framework for the conservation and management of our 
Nation's fisheries resources.
    Nevertheless, we also recognize the potential benefits of 
increased flexibility in some circumstances to allow regional 
councils the opportunity to optimize their management programs 
with the appropriate cautionary notes.
    We agree with, and support, the Council Coordinating 
Committee's consensus positions on MSA reauthorization provided 
by Dr. John Quinn recently, and I encourage the Committee to 
take advantage of the collective wisdom of the CCC as work on 
reauthorization moves ahead.
    I want to highlight several issues in particular, beginning 
with modifications to the ACL requirements, which we believe 
are the cornerstone of sustainable fisheries management.
    The process for setting ACLs through the Council's 
scientific and statistical committees includes accounting for 
uncertainty, articulating policies for acceptable risk, and 
establishing necessary precautionary buffers. We continue to 
believe that the SSCs are the appropriate gatekeepers for 
making those determinations.
    Any changes to the law providing additional flexibility 
must continue to ensure that fundamental conservation and 
management principles are upheld, and should not create 
incentives or justifications to overlook them for the sake of 
preserving all economic activity over the short term.
    Second, more specific to the North Pacific region, we 
believe an amendment to remove the August 1, 1996 date from MSA 
section 306(a)(3)(C) is essential to effective management and 
enforcement of the fisheries. This would ensure that the 
delegation of salmon management in the EEZ to the State of 
Alaska would include vessels not registered with the state.
    Mr. Chairman, I also want to correct my written statement 
on the recusal issue to reflect that continuation of the full 
attribution policy is a NOAA agency decision and not a decision 
by NOAA G.C. alone.
    Next, incorporating the national Environmental Protection 
Act requirements into the MSA to achieve a single guiding 
statute for fisheries management is consistent with the 
longstanding views of our Council and the CCC.
    However, we are concerned that the ultimate result will be 
contingent upon implementing regulations, and realized benefits 
could be marginal relative to the creation of new complexities 
and costs. In our view, this issue certainly deserves closer 
scrutiny.
    Last, we concur with the CCC's concerns regarding the 
challenges that councils face to meet important new national 
policy directives and the adequacy of funding to continue at-
sea surveys and stock assessments.
    In the North Pacific, the high quality and coverage levels 
of fishery surveys and stock assessments have been essential in 
achieving sustainable fisheries for so long. With reductions in 
surveys and stock assessments, it becomes harder to achieve 
optimum yield in the fisheries as defined in National Standard 
1.
    Greater uncertainty in estimates of abundance typically 
results in more conservative approaches to management and lower 
harvest levels to buffer against the potential for error and 
maintain conservation goals.
    My written testimony also includes four examples of 
successful fisheries management in the North Pacific under the 
existing MSA: Chinook salmon bycatch management in the Bering 
Sea, the Observer Program and development of electronic 
monitoring, the management of halibut allocations between the 
commercial and charter sectors, and the development of 
ecosystem based fisheries management.
    No management program is perfect upon implementation and 
all of them require review and revision over time. But all of 
these actions have been possible under the existing structure 
of the law, and there are several important underlying themes 
in all of them.
    First, the significance of a well-structured national 
policy framework that provides broad objectives with sound 
guidance, recognizing regional differences in allowing for the 
development of regionally based solutions.
    Second, is the critical importance of science and analysis, 
stock surveys, assessments, fisheries dependent data collection 
and monitoring, and research including social and economic 
research.
    And finally, ensuring accountability in all that we do 
through monitoring and data collection in the fisheries, review 
of catch share and other management programs, and broad 
stakeholder participation.
    Chairman Sullivan, thank you again for the opportunity to 
testify. That concludes my remarks and I will do my best to 
answer any questions you may have.
    [The prepared statement of Mr. Hull follows:]

               Prepared Statement of Dan Hull, Chairman, 
                North Pacific Fishery Management Council
    Good afternoon Chairman Sullivan, ranking member Peters, and 
members of the Committee. Thank you for the opportunity to testify on 
reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act (Magnuson-Stevens Act, or MSA). My name is Dan Hull, and 
I am the Chairman of the North Pacific Fishery Management Council. I 
have served as one of Alaska's representatives on the Council for eight 
years and as Chairman for the last three, and I am honored to 
participate in this hearing and offer our perspectives on 
reauthorization.
    Because the North Pacific Council has not met in session since 
receiving the invitation to testify and to provide suggestions for 
improving the MSA, my comments are confined primarily to previous 
discussions we've had about issues raised in current and prior draft 
legislation. My comments also include examples that highlight important 
elements of the MSA and illustrate the success of the law in the North 
Pacific as written. As this subcommittee and Congress work to 
reauthorize the law and request further review and comment from us, we 
stand ready to share our perspectives independently and in concert with 
the other Regional Fishery Management Councils to improve and 
strengthen the MSA.
Fisheries in the North Pacific
    The North Pacific Fishery Management Council, through its 
partnerships with NOAA Fisheries (NMFS) and other agencies, develops 
regulations for groundfish in the Gulf of Alaska, Bering Sea, and 
Aleutian Islands. Groundfish include cod, pollock, flatfish, Atka 
mackerel, sablefish, and rockfish species harvested by trawl, longline, 
jig, and pot gear. The Council also makes domestic allocation decisions 
and establishes domestic management programs for halibut, as part of 
our coordinated management of the halibut resource with the 
International Pacific Halibut Commission, which sets directed fishery 
catch limits and season dates, and manages biological aspects of the 
resource for U.S.-Canada waters. Other large Alaska fisheries such as 
salmon, crab, scallops and herring are managed jointly with the State 
of Alaska.
    Fisheries are extremely important to the economies, coastal 
communities and cultures in Alaska and the Pacific Northwest. More than 
50 percent of the seafood harvested in the United States comes from 
Alaska. The fisheries provide tens of thousands of jobs for commercial 
fishermen, processing workers, sport fishing guides, gear suppliers and 
other support industries. There are over 1,500 vessels fishing 
commercially in the federally managed groundfish fisheries, hundreds of 
other vessels participating in State managed commercial fisheries, 
another 1,000 or so charter vessels participating in the halibut sport 
fishery, and a large number of privately owned boats that participate 
in recreational fisheries for halibut, groundfish, and salmon. The 
commercial fisheries annually catch is about 3 million metric tons of 
fish off Alaska, which generates approximately $2 billion in ex-vessel 
revenue (the amount paid to fishermen at delivery, prior to value added 
processing). The groundfish fisheries account for a majority of the 
catch and value, but the halibut, salmon and crab fisheries also 
contribute substantially.
    The Council recognizes that its management of marine resources in 
the North Pacific is also critical to subsistence uses of fish, 
shellfish and marine mammals throughout Alaska's coastal communities, 
whether directly or indirectly.
    We have developed a very successful fisheries management program in 
the North Pacific, resulting in profitable and sustainable fisheries. 
For the past 40 years, annual groundfish catches have ranged from 3 to 
5 billion pounds, with no stocks overfished or undergoing overfishing. 
There is no question that sustainable, science based conservation and 
management of the living marine resources in the North Pacific is 
critically important to the economies and communities in our region.
Views on MSA Reauthorization
    The North Pacific Council believes that the current MSA already 
provides a very successful framework for sustainable fisheries 
management, and major changes are not necessary at this time. 
Nevertheless, we also recognize the potential benefits of increased 
flexibility in some circumstances, and amending the Act to provide for 
such flexibility could provide all the regional councils additional 
opportunities to optimize their fishery management programs, with 
appropriate cautionary notes. In short, any changes to the law 
providing additional flexibility must continue to ensure that 
fundamental conservation and management tenets are upheld, and should 
not create incentives or justifications to overlook them.
    We agree with and support the Council Coordinating Committee's 
consensus positions on issues, which were detailed in the testimony 
provided by John Quinn at the hearing earlier this month. As your 
subcommittee and Congress works to reauthorize the MSA, we encourage 
you to take advantage of the collective wisdom of the Council 
Coordination Committee, as well as individual Councils, to assess how 
best to navigate challenging issues. We believe that the CCC is well 
positioned to review and understand regional differences and 
complexities in management, and if requested, offer guidance as well 
potential solutions to new challenges and proposed changes to the MSA. 
The following are the North Pacific Council's views and comments on 
some specific issues and provisions raised in various proposed 
amendments to the MSA, and in separate discussions with NMFS.
Modifications to the ACL requirement
    Regarding annual catch limits (ACLs), ACLs have been used in the 
North Pacific for the past 40 years, and we believe that such limits 
are a cornerstone of sustainable fisheries management. We also believe 
there are situations where some flexibility in the establishment of 
ACLs is warranted, particularly in the case of data poor stocks. 
Consideration of the economic needs of fishing communities is critical 
in the ACL setting process, and while the current MSA allows for such 
consideration, we recognize the desire for a more explicit allowance 
for these considerations. We must be careful however, not to jeopardize 
long term fisheries sustainability, and associated community vitality 
and resiliency, for the sake of short term preservation of all economic 
activity associated with a fishery. Accounting for uncertainty, 
articulating policies for acceptable risk, and establishing the 
necessary precautionary buffers, are all explicit outcomes of the ACL 
process, and we believe that the Councils' Scientific and Statistical 
Committees (SSCs) are the appropriate gatekeepers to establish the 
upper limits of `safe' fishing mortality, which we believe to be at the 
Acceptable Biological Catch level. We also believe that authorization 
for multi-species stock complexes and multiyear ACLs, as well as the 
provisions regarding ecosystem component species, will also provide the 
Councils greater flexibility to apply ACLs consistent with other 
aspects of management for a given species.
    Alternative management measures for recreational fisheries (or 
other fisheries, such as subsistence) such as extraction rates, 
mortality targets, and harvest control rules could provide additional 
tools and flexibility to fisheries managers in all U.S. regions. It is 
unclear, however, whether such alternative measures are intended to be 
in lieu of ACL requirements, or in some other context. This is one 
example where maintaining accountability to scientific principles is 
appropriate, and I believe the CCC's comments to this Subcommittee 
reflect this, stating ``ideally such exceptions would be codified in 
the MSA along with guidance regarding applicable circumstances in 
National Standard guidelines''.
Stock Assessment Science
    Stock assessments provide the fundamental information necessary to 
successfully manage sustainable fisheries. As such, the Council 
believes the requirements for the Secretary to develop plans and 
schedules for stock assessment will enhance fisheries management 
nationally. However, we have some serious concerns with the provision 
to incorporate information from a wide variety of non-governmental 
sources, and potentially require that information to be considered 
`best information available'. In the North Pacific Council the public 
has opportunity to provide input into the science and scientific peer 
review of all issues through testimony and discussions at the SSC and 
Plan Team meetings, and these bodies regularly hear the views of 
stakeholder groups, oftentimes in detailed data-based presentations. 
And we are working to incorporate traditional knowledge into our 
understanding of the ecosystem. We are concerned that complying with 
this provision will increase burdens on our staff and our Scientific 
and Statistical Committee, and invite potential litigation. This makes 
it especially difficult for the Council to fulfill its responsibilities 
under MSA. The implementing guidelines for when such information would 
be utilized will be critical to its veracity and usefulness to 
managers.
Rebuilding Plans
    Regarding potential changes and increased flexibility for stock 
rebuilding plans, our Council believes that further flexibility, 
particularly in cases where the 10-year rule does not make sense due to 
the particular aspects of the stock in question, would appropriately 
increase the ability to maximize harvest opportunities while still 
effecting rebuilding of fish stocks. In some cases, the somewhat 
arbitrary 10-year requirement can result in overly restrictive 
management measures, with unnecessary, negative economic impacts, with 
little or no conservation gain. Allowing for rebuilding to occur in as 
short a time as ``practicable'', as opposed to as short a time as 
``possible'', appears to be an appropriate mechanism for additional 
flexibility. The use of alternative rebuilding strategies such as 
harvest control rules and fishing mortality targets is consistent with 
this increased flexibility. Finally, allowing the Councils' SSCs to 
determine whether a rebuilding plan is no longer necessary seems an 
appropriate role for the SSCs.
Distinguishing between overfished and depleted
    When a fish stock abundance drops below a certain threshold, it is 
deemed `overfished', regardless of whether or not fishing caused the 
change in abundance. In the North Pacific the example of Pribilof 
Island Blue King Crab, a fishery for which there has been no allowable 
fishing for decades, and a species which is only occasionally taken as 
bycatch in other fisheries, highlights the need to differentiate stocks 
for which an ``overfished'' status has no relation to fishing 
activities. Replacing the term ``overfished'' with the term 
``depleted'' may be an effective way to address this problem. 
Additionally, legislation should consider exempting depleted fisheries 
from development of a rebuilding plan in cases where fishery management 
actions would not effect, or substantially affect, stock rebuilding.
Transparency
    All decisions made by the Council and its advisory bodies are done 
through a transparent, open public process. Meeting materials, agenda 
and schedule, and public comment letters are all posted in advance of 
the meeting on a ``live agenda'' on the Council website. During the 
meeting, this ``live agenda'' is continuously updated with minutes that 
are drafted by the SSC, AP and Committees, motions on which the Council 
has acted, and new material that is pertinent to the agenda items.
    Regarding the requirements to provide website access to audio, 
video, or written transcripts of all Council and SSC meetings, this is 
already provided for meetings of the Council, including live webcast 
(to the extent possible) and full searchable audio transcripts. While 
SSC meetings are not live webcast or recorded, they are open to all the 
public and very detailed meeting minutes are developed and are 
accessible on our website. Requiring live webcast or full audio 
transcriptions of SSC meetings would impose added costs to the Council, 
with both monetary and personnel commitments, with minimal benefit to 
the public. Additionally, our Council meetings are sometimes held in 
remote Alaska coastal communities that may have less than ideal 
Internet connectivity necessary for audio (or video) webcasting. The 
Council agrees with the Council Coordinating Committee recommendation 
to require the use of webcasts ``to the extent practicable'' will 
achieve greater transparency within budget and operational constraints.
    In addition to openness and transparency, it is worth noting the 
evolution of representation on the North Pacific Council and its 
subsidiary bodies over time. As new challenges arise, management 
programs become more complex and intertwined, and stakeholder interests 
broaden, the composition of the North Pacific Council and its 
subsidiary bodies has arguably become more representative of the 
diverse commercial, subsistence and recreational fisheries, 
communities, environmental and other stakeholder interests than in the 
past.
NEPA Compliance
    Incorporating the National Environmental Protection Act (NEPA) 
requirements into the Magnuson-Stevens Act, and realizing a single 
guiding statute for fishery management actions, is consistent with 
long-standing intent of the Council and the Council Coordinating 
Committee generally. However, we are concerned that the ultimate result 
will be contingent upon implementing regulations, and the realized 
benefit could be marginal relative to creation of new complexities and 
challenges. These new complexities and challenges include the 
development of potentially complex and contentious regulations, and 
creation of a new body of litigation relative to fishery management 
actions. Our specific concerns are as follows:

  <bullet> Proposed new requirements would not alter the current 
        breadth and scope of environmental, economic, and social impact 
        analysis requirements, so we would not anticipate any decrease 
        in the overall resources necessary to satisfy the new 
        requirements.

  <bullet> Councils, subject to approval by the Secretary, would be 
        required to ``prepare procedures'' to comply with the new 
        fishery impact statement requirements--as with many recent MSA 
        amendments, this means development of potentially complex, 
        controversial, interpretive regulations, or at least 
        `guidelines', which would in essence be subject to approval by 
        NMFS and NOAA GC.

  <bullet> Presently the onus for completion of NEPA requirements 
        technically lies with NMFS (even though our current process 
        attempts to incorporate most of that within the Council 
        process). Under a revised process all of the onus for 
        compliance with the new provisions will lie with the Councils 
        under the MSA process, except for NMFS' final review and 
        approval authority. Shifting this responsibility could require 
        substantial realignment of resources.

  <bullet> We have become quite proficient at the NEPA process (albeit 
        cumbersome), and we have an established track record with 
        regard to litigation of fisheries actions under NEPA. While 
        this section could streamline the process in the longer term, 
        it could also create grounds for a new body of litigation and 
        case law on fisheries management actions, based on an as-yet-
        unwritten set of implementing regulations, and/or attempting to 
        extend previous NEPA case law to the new MSA process.

  <bullet> To the extent Councils are experiencing timing/delay issues 
        between the time of final Council action and actual transmittal 
        of the package for Secretarial review, incorporating NEPA 
        requirements into the MSA will not directly address or rectify 
        that problem; i.e., the determination of `adequacy' of the 
        amendment package for transmittal will still be determined by 
        the agency.
Catch Share Programs
    The North Pacific Council has several catch share programs. 
Programs for some fisheries were mandated by Congress (American 
Fisheries Act pollock cooperatives, BSAI Crab fisheries cooperatives) 
and others were developed and implemented by the Council (Halibut and 
Sablefish IFQ program, Gulf of Alaska Rockfish Cooperative Program, 
BSAI Amendment 80 groundfish trawl cooperative program). These programs 
were aimed at eliminating the race for fish and minimizing the 
associated negative impacts to fisheries resources, as well as to the 
social and economic well-being of the industry and fishing communities. 
The objectives originally established for all catch share and IFQ 
programs are largely being met (reduced bycatch and waste, extended the 
fishing seasons, increased efficiency, increased utilization, improved 
safety at sea, etc.).
    Full program performance reviews for all catch share and IFQ 
programs are conducted on a regular periodic basis (every 7 years). The 
Council also annually reviews the performance of the cooperatives, and 
considers adjustments to the programs as needed to better meet program 
objectives. As these catch share programs mature and the original 
social and economic contexts change, these full performance reviews and 
annual cooperative reports provide the Council with the assessments 
needed to address new problems and challenges that may not have been 
initially anticipated, as well as improve our understanding of how 
additional catch share programs might be structured. This continues to 
be an area of ongoing work by the Council.
Exempted Fishing Permits
    The North Pacific fisheries management program has greatly 
benefited from the use of exempted fishing permits (EFPs), including 
multi-year EFPs, to test (under field conditions) solutions to 
management problems. In recent years, for example, fishermen have 
successfully tested different trawl gear configurations to allow 
escapement of salmon in the pollock fishery, tested and quantified 
reductions in mortality of halibut sorted on deck and discarded alive 
from vessels trawling for flatfish, and tested the efficiency and 
effectiveness of different electronic monitoring devices on longline 
vessels. Each EFP proposal undergoes scientific peer review by the 
Alaska Fisheries Science Center and the Council's SSC to ensure that it 
is scientifically sound, and each proposal is also evaluated by the 
Council prior to approval by NMFS. A multi-year EFP allows testing 
across seasons to evaluate inter-and intra-annual impacts. A NEPA 
Categorical Exclusion may be issued in cases where no additional 
catches are requested. The Council is concerned that language requiring 
EFP applications to provide information on the economic effects of the 
EFP ``in dollars'' and in terms of lost fishing opportunities for all 
sectors would elevate the analysis to a full Environmental Analysis 
just to examine the effects on all sectors. This would greatly reduce 
the industry's ability to get EFPs developed and approved in a timely 
manner. The Council also believes that multi-year EFPs can be critical 
to testing some solutions to fishery management problems.
    The current EFP process is working well for the Council, with a 
minimum of paperwork and process requirements, and the Council does not 
see a need for changes or new requirements. If there are problems with 
the current EFP process in particular regions of the country, then 
proposed legislation should be applicable only to those regions.
    In addition, it is worth noting significant voluntary efforts by 
the fishing industry to improve management outside the formal EFP 
process. These include efforts by the fixed gear pot fleet to conduct 
EM pilot projects; projects by the GOA trawl fleet and shore-side 
processors to account for incidentally caught Chinook salmon for 
sampling by NMFS/AFSC to improve stock of origin data collection and 
analysis; and halibut bycatch reduction efforts by the Amendment 80 
trawl cooperatives to increase harvest levels by the directed longline 
fleets in the BSAI.
Alaska-Specific Issues
North Pacific Management Clarification
    MSA Section 306(a)(3)(C) contains provisions related to State 
jurisdiction to manage fishing activity in the absence of a Federal 
fishery management plan. Removal of the August 1, 1996 date in this 
paragraph would ensure that the delegation of salmon in EEZ to the 
State of Alaska would include vessels not registered with the State of 
Alaska. The Council strongly believes this change, thereby allowing 
regulation of fishing in these areas by the State of Alaska, would 
better align the Council with its management authorities and 
responsibilities under MSA and is essential to the responsible and 
effective management and enforcement of these fisheries.
Limitation on harvest in North Pacific Pollock Fishery
    Proposed legislation in the House (HR 200) would provide allowance 
for the Council to change the pollock harvest cap as stipulated in the 
American Fisheries Act (currently 17.5 percent), but not to exceed 24 
percent. NMFS has raised the issue of whether the Council or NMFS might 
already have the authority under the American Fisheries Act to revisit 
the harvest cap. The Council has taken no position on this provision at 
this time, but may in the future upon a better understanding of the 
intent, need, and potential impacts of such action.
Subsistence fishing
    The Council believes that providing a definition for subsistence 
fishing is a proper addition to the MSA to reflect the full range of 
marine resource uses in the EEZ. Additionally, adding subsistence as an 
appointment qualification for Council membership is a beneficial 
clarification to the MSA, with the understanding that it would not 
require or direct the appointment of a subsistence representative as a 
Council member.
Arctic Community Development Quota
    Proposed legislation in the House (HR200) would require that if the 
Council establishes annual catch limits for Arctic fishing, a minimum 
of 10 percent Community Development Quota to be available for coastal 
villages north and east of the Bering Strait. The Council has no 
opinion on this issue, but notes that it may be useful to the Council 
if Congress provided more specificity with regard to eligible villages.
Council member recusal determinations
    An area of concern to the North Pacific Council that we bring to 
your attention, but that has not been discussed in draft legislation to 
reauthorize MSA, is the process that NOAA General Counsel employs to 
determine whether Council members have a financial conflict of interest 
on a particular action and must therefore recuse themselves. We have 
communicated with NOAA over various aspects of this process in recent 
years, and have resolved some issues, but question whether the specific 
interpretations are consistent with the intent of conflict of interest 
statute and regulations. The current interpretations make it 
challenging for the Council to fully exercise its collective voice as 
intended under the MSA.
    The MSA was designed to allow people who actively participate in 
the fisheries to be voting members of regional fishery management 
councils. To address concerns about members voting to improve their own 
financial situation, the MSA has long required Council members to 
disclose financial interests. Prior to 1996, as long as council members 
disclosed their financial interests, there was no prohibition on voting 
on any matter. In 1996, Congress added the recusal provision, which 
required not only disclosure but also that an affected individual not 
be allowed to vote on council decisions that would have a significant 
and predictable effect on a member's financial interest. The MSA 
language left the issues of significant and predictable effect open for 
interpretation, so NMFS developed a regulation that set a 10 percent 
threshold for a significant effect, which is the basis for determining 
whether a recusal is required. The primary problem is the way in which 
NOAA General Counsel (NOAA GC) calculates a member's financial 
interests in determining whether the 10 percent thresholds are 
exceeded. The NMFS policy is to attribute all fishing activities of a 
company--even partially owned by an associated company--in calculating 
an individual Council member's interests. The North Pacific Council 
believes that this attribution policy is inconsistent with the intent 
of the conflict of interest statute and regulations.
    The following example helps to explain this issue: Joe Councilman 
works for Fishing Company A, which owns 50 percent of Fishing Company 
B, which in turn owns 3 percent of Fishing Company C. NOAA GC uses ALL 
harvesting and processing activity by ALL three of these companies in 
determining whether Joe Councilman exceeds any of the 10 percent 
thresholds. The North Pacific Council believes that this is an unfair 
and illogical interpretation of the recusal regulations, and results in 
unintended recusals of Council members. The North Pacific Council 
believes that NOAA GC should use only the amount of harvesting or 
processing activity equivalent to the Council member's percentage of 
ownership. Using this proportional share approach, NOAA GC would use 
100 percent of the harvesting and processing activity of Fishing 
Company A, 50 percent of the harvesting and processing activity of 
Fishing Company B, and 1.5 percent of the harvesting and processing 
activity of Fishing Company C to determine whether Joe Councilman 
exceeds any of the thresholds. At our request, NOAA GC revisited the 
attribution policy, but declined to make changes.
    The full attribution policy causes particular problems for the 
North Pacific council members who represent the Community Development 
Quota groups because they have been prohibited from voting on many very 
critically important management issues. The MSA established the CDQ 
program to allocate up to 10.7 percent of fish quotas to the groups, 
with the intent the groups invest broadly in the fishery. These CDQ 
groups have been very successful over the past 25 years, and have 
become full or partial owners of many fishing companies, and 
participate in virtually all of the Bering Sea groundfish, halibut, and 
crab fisheries and sectors. Hence a CDQ representative is very 
knowledgeable about the fisheries, so their input and vote is extremely 
important for a fully effective and participatory fishery management 
program as envisioned by the MSA. Under the full attribution policy 
however, all of the various ownership structures are additively 
applied, resulting in NOAA GC determining that the CDQ representative 
is recused from voting. The CDQ representative on our Council has been 
recused far more frequently in the last two years than any other 
Council member, resulting in what we believe is a frustration of 
Congressional intent for this program.
    We have not decided on a specific fix through MSA to suggest and 
will continue to review the recusal determination process with NOAA 
General Counsel.
Council Resources
    We agree wholeheartedly with the CCC's comments regarding the 
challenges that Councils face to meet important new NMFS policy 
directives without adequate resources, and CCC concern over adequate 
funding to continue at-sea surveys and stock assessments. In the North 
Pacific, the high quality and coverage levels of fishery independent 
trawl surveys and stock assessments have been essential to achieving 
sustainable fisheries for so long. The Alaska Fishery Science Center 
(AFSC) recently alerted the Council that reductions to the Gulf Of 
Alaska groundfish survey efforts are planned for 2017, and possibly for 
the Eastern Bering Sea Slope survey in 2018 as a result of budgetary 
concerns (``Implications of reducing and eliminating AFSC groundfish 
survey effort in 2017 and 2018'', AFSC, April 7, 2017). Reductions in 
groundfish surveys increase the uncertainty in stock assessment 
estimates, diminishes the quantity and quality of data needed to track 
changing environmental conditions in the ocean and the effects on 
species abundance and distribution, and affects the quality of 
information in a variety of documents critical to the Council process, 
such as EA and EIS documents, Biological Opinions and Fishery Ecosystem 
Plans. For the Council, a very direct consequence is that it becomes 
harder to achieve Optimum Yield in the fisheries as defined under 
National Standard 1, during the annual process of setting harvest 
specifications. It also introduces greater uncertainty and variability 
from year to year. Greater uncertainty in the estimates of stock 
abundance typically result in more conservative approaches to 
management and lower harvest levels to buffer against the potential for 
error. There is the potential for real and direct economic losses to 
the fishing fleets and communities associated with survey reductions 
over time.
Examples of Management Actions and Programs Relevant to the Success of 
        the MSA
    We understand that there are several contentious management issues 
in other regions that have initiated development of draft legislation 
to revise MSA. It is our hope that any modifications to the MSA would 
avoid across the board mandates, designed to address a problem in 
another region that could negatively affect the successful management 
program in the North Pacific.
    Below is a description of several management programs and actions 
that illustrate how we have addressed some of these major contentious 
issues (bycatch, observer monitoring, commercial/sport allocations, and 
ecosystem-based management) using the existing authorities already 
provided by the MSA.
Minimizing Bycatch
    The Council has worked diligently to minimize bycatch in the 
groundfish fisheries. With implementation of catch share programs in 
the Bering Sea, the percent of catch discarded was reduced from 14 
percent in 1999 to only 3 percent in 2016. The Council has also made 
great strides in minimizing the bycatch of halibut and salmon, which 
are important species taken as subsistence, recreational, and directed 
commercial fisheries. Halibut bycatch limits for most gear types were 
recently reduced in the Gulf of Alaska by 15 percent and in the Bering 
Sea by 25 percent. The Council is currently evaluating ways to index 
the annual bycatch limits in the Bering Sea and Aleutian Islands based 
on halibut abundance. Chinook salmon bycatch, which primarily occurs in 
the pollock fishery, has been greatly reduced since the early 2000s. In 
the Bering Sea and Aleutian Islands, overall limits and performance 
standards have been established which provides incentives for each 
pollock fishery cooperative to minimize its salmon bycatch at all 
levels of salmon abundance. Limits are further reduced when salmon 
returns are projected to be low, based on an index of 3-rivers in 
Western Alaska that support critical subsistence and commercial 
fisheries for rural coastal communities. Individual vessels and Pollock 
cooperatives are accountable for maintaining low bycatch levels through 
Incentive Plan Agreements developed in accordance with objectives 
established by the Council. The pollock fleet works cooperatively to 
avoid salmon by establishing short term closure areas in hotspot areas, 
and developing and using pollock excluders in the trawl nets.
    Amendment 91 which established the Chinook salmon bycatch 
management program for the pollock fleet in the BSAI is an excellent 
example of the successful management that is possible through MSA, when 
the Council, fishing industry, agencies, and other affected 
stakeholders work together using sound science in an open and 
transparent process. While reducing Chinook salmon bycatch is the 
primary goal and the most visible outcome to the public, it is 
important to highlight other key elements and factors that make this a 
successful program. It includes a census and strict monitoring of all 
salmon taken as bycatch in the Pollock fishery. It includes sampling of 
those salmon by fisheries observers on the Pollock vessels to conduct a 
genetic stock identification of the composition of bycatch and thus 
determine the river drainage of origin. It entails assessments of the 
impact of that bycatch on Chinook populations and on the subsistence 
and small commercial fisheries in rural western Alaska communities, for 
whom Chinook salmon is a corner stone of culture and a source of much 
needed income in a region of very limited economic opportunities. And 
it requires detailed annual reporting by the Pollock cooperatives on 
the performance of the IPAs and the effectiveness of incentive measures 
in terms of Chinook avoided as well as the harvest of Pollock. The 
Pollock industry's willingness to explore an innovative approach that 
provides some delegation of accountability and responsibility under 
strict Council and NMFS guidance, and to effectively apply the 
Experimental Fishing Permit process (EFP) to test salmon excluders in 
the field is notable. All of this has been possible under the policy 
framework of MSA and guidance under the ten National Standards. None of 
this is possible without the cooperative efforts and trust required 
from diverse interests in the Council process, including scientists, 
managers, policy makers, the pollock industry and the subsistence and 
commercial salmon fishermen. And none of this is possible without 
adequate funding for the science and research and analyses conducted by 
the many outstanding members of the AFSC, the ADF&G, Council staff, and 
other partners in our Council process.
Observer Program
    In Alaska, the at-sea observer program is almost entirely funded 
directly by industry, and for the majority of groundfish fishing 
activity in Alaska, an observer is onboard the vessel at all times. In 
2016, 89 percent of the total groundfish and halibut catch of almost 
2.3 million mt was caught on vessels with an observer onboard. In the 
Gulf of Alaska, there are vessels that are subject to partial coverage 
observer requirements to accommodate the challenges of deploying 
observers on thousands of smaller vessels. In 2013, the Council and 
NMFS restructured this component of the observer program to address 
sampling issues associated with non-random observer deployment on some 
vessels and fisheries, and cost inequality among fishery participants. 
The scientific sampling plans implemented since 2013 result in better 
spatial and temporal distribution of observer coverage across all 
fisheries, greatly improving the quality of data collected in Federal 
fisheries off Alaska and NMFS' ability to estimate catch and bycatch, 
and to evaluate and improve catch estimation procedures. The Council, 
with input from the Observer Advisory Committee, continues to work with 
the NMFS Observer Program to maintain robust coverage levels for all 
sectors and gear types at a time when fishing industry revenues and 
thus observer fee funds collected for the partial coverage fleet have 
decreased. In addition, Observer Program fees collected from industry 
have also been subject to annual sequestration, which makes achievement 
of coverage levels more problematic.
    In addition, the Alaska fisheries incorporate extensive electronic 
reporting, and in some fisheries, electronic monitoring (EM) for 
compliance. The Council and NMFS have also just recently implemented a 
groundbreaking amendment to allow use of electronic monitoring as an 
alternative tool for the fixed gear groundfish and halibut fisheries, 
in which there are operational and logistical challenges deploying 
human observers on smaller vessels. In these fisheries, the EM data 
will be used instead of human observers to collect catch and discard 
information that is critical in accounting for total removals of each 
species under ACLs and for the purpose of conducting stock assessments. 
The development of EM for the fixed gear halibut and groundfish 
fisheries is another excellent example of the collaborative efforts of 
the fishing industry and agencies within the Council process to address 
challenging issues. The fixed gear longline and pot fleets in 
communities across the Gulf of Alaska have initiated pilot projects and 
secured funding over several years in cooperative research efforts with 
NMFS Observer Program and EM providers to develop a data collection and 
fishery monitoring program that is a model for other regions in the 
Nation.
Allocation of Commercial and Charter Halibut
    Halibut is a very important target species for commercial and 
recreational fisheries. Following a decade of efforts to control catch 
of halibut taken by the charter fleet, the Council established a 
limited entry permit program for charter vessels and established a 
catch sharing plan. The catch sharing plan defines an annual process 
for allocating halibut between the charter and commercial halibut 
fisheries in IPHC regulatory Areas 2C and 3A (Eastern and Central GOA), 
and establishes sector allocations that vary in proportion with 
changing levels of annual halibut abundance and that balance the 
differing needs of the charter and commercial halibut fisheries over a 
wide range of halibut abundance. The catch sharing plan describes a 
public process by which the Council develops recommendations for 
charter angler harvest restrictions (annual management measures) that 
are intended to limit harvest to the annual charter halibut fishery 
catch limit in each area. Charter permit holders can also lease 
commercial halibut annual fishing quotas for use by anglers on their 
boat, thereby compensating the commercial sector for increased harvest 
in the charter sector. The Council recently approved a Recreational 
Quota Entity (RQE) program to allow purchase of commercial halibut 
quota share to increase the entire charter allowance in each area. 
Under this market-based approach, a Recreational Quota Entity is 
authorized to purchase and hold a limited amount of commercial halibut 
quota share on behalf of guided recreational halibut anglers that may 
result in less restrictive annual harvest measures for guided 
recreational anglers in times of low halibut abundance. The Council is 
currently evaluating refinements to the charter halibut permit program.
Ecosystem-based Fishery Management
    The North Pacific Council has utilized an ecosystem approach to 
fisheries management for many years. The Council considers the impacts 
of its actions to the ecosystem by establishing conservative catch 
limits; establishing sweeping closures to protect habitat, considering 
the impacts of fisheries on marine mammals and seabirds, minimizing 
bycatch, and precluding fishing on forage fish populations that support 
many species. These ecosystem-based fishery management protections are 
built into the fishery management plans and periodically evaluated and 
updated. The Council has articulated an ecosystem vision statement and 
comprehensive ecosystem-based goals and objectives for the groundfish 
fishery management plans. These ecosystem considerations are taken into 
account annually during harvest specifications, and the Council 
pioneered one of the first Fishery Ecosystem Plans in 2007 for the 
Aleutian Islands, and is currently developing a Fishery Ecosystem Plan 
for the Bering Sea that builds on the lessons learned from the first 
plans and other national experience.
    These examples illustrate the variety of successful management 
programs and approaches that the North Pacific Council has taken to 
manage fisheries resources within the existing structure of the MSA. 
This is not to suggest that development of these programs has been easy 
or non-controversial; on the contrary, each one has gone through 
periods of contention and controversy. No management program is perfect 
upon implementation, and all of them require review and revision over 
time; that is the nature of marine resource management. But they are 
all working successfully or poised to become effective additions to the 
North Pacific management system. And I want to highlight several 
important underlying themes in all of these examples for Congress to 
keep in mind as it works to reauthorize MSA and considers possible 
changes:

  <bullet> A well-structured national policy framework that provides 
        broad objectives with sound guidance, recognizing regional 
        differences and allowing for the development of regionally 
        based solutions.

  <bullet> The critical importance of science and analysis--in stock 
        surveys, assessments, fisheries dependent data collection and 
        monitoring, research and other aspects--conducted by the many 
        members of the NMFS/AFSC, ADF&G and other partner agencies to 
        conserve and manage marine resources and to provide for 
        sustainable fisheries.

  <bullet> Ensuring accountability through monitoring and data 
        collection in the fisheries, catch share and other management 
        program reviews, and broad stakeholder participation.

  <bullet> A process that fosters and encourages the cooperative 
        efforts of diverse and often contentious interests that exist 
        in the North Pacific, as in every region.
General comments
    Finally, I would like to reiterate the Council Coordinating 
Committee's general thoughts regarding the reauthorization process, 
which were presented to the Senate Commerce Subcommittee by John Quinn 
three weeks ago on behalf of all of the regional councils. These 
represent some general tenets that we believe should be considered 
relative to any change in the MSA:

  <bullet> Avoid across the board mandates which could negatively 
        affect one region in order to address a problem in another 
        region. Ensure that we have the ability to develop regional 
        solutions to regional problems. Make provisions region-specific 
        where necessary, or couch them as optional tools in the 
        management toolbox rather than mandates.

  <bullet> Legislation should allow for flexibility in achieving 
        conservation objectives, but be specific enough to avoid 
        lengthy, complex implementing regulations or ``guidelines''.

  <bullet> Legislation should be in the form of intended outcomes, 
        rather than prescriptive management or scientific parameters.

  <bullet> Legislation should avoid unrealistic/expensive analytical 
        mandates relative to implementing fishery closures or other 
        management actions.

  <bullet> Legislation should avoid constraints that limit the 
        flexibility of Councils and NMFS to respond to changing 
        climates and shifting ecosystems.

  <bullet> Avoid unfunded mandates, and/or ensure that Councils and 
        NMFS have the resources to respond to provisions of 
        legislation.

  <bullet> Preservation and enhancement of stock assessments and 
        surveys should be among the highest priorities when considering 
        any changes to the Act.

    Once again, thank you for the opportunity to provide these comments 
on behalf of the North Pacific Fishery Management Council, and I look 
forward to our continued dialogue on reauthorization of the Magnuson-
Stevens Fisheries Conservation and Management Act that is so vitally 
important for our Nation's marine resources and to the people and 
communities that depend on them.

    Senator Sullivan. Great. Thank you, Dan.
    Commissioner Cotten.

            STATEMENT OF SAM COTTEN, COMMISSIONER, 
               ALASKA DEPARTMENT OF FISH AND GAME

    Mr. Cotten. Thank you, Senator, and thank you to you for 
holding the hearing here in Alaska. My welcome to the folks 
here who are visiting.
    I will supplement my written comments too, and I will note 
that, and I am sure you are well aware, that the seafood 
industry is extremely important to our State's economy, and 
especially to the economies of our fishing communities.
    Magnuson has worked well here in Alaska for the most part, 
and we would ask your Committee, and the U.S. Congress, to 
avoid imposing programs here in Alaska outside the Council 
process, neither this or other legislation that could result in 
promoting consolidation, restricting competition in the 
processing industry, making access to fisheries more difficult 
for our resident fishermen, or generally having a negative 
impact on our fishing communities' economies.
    We would ask you to seek the support of the state and our 
fishing communities before creating any new programs for 
Alaska.
    On the subject of State management of salmon, Tanner crab, 
ling cod, and some rockfish species in the economic zone. A 
recent court decision has caused us some concern, and the State 
of Alaska has appealed a Ninth Circuit Court decision that 
would require Federal intervention in the management of Alaska 
salmon fisheries.
    One key point in the case is when a Federal plan is 
required. Both Alaska and NMFS feel the interpretation of the 
law suggests that a Federal intervention is not needed as the 
fish are currently managed by the state. Both Alaska and the 
Council, and the National Marine Fisheries Service, currently 
feel that State management of salmon is satisfactory and meets 
all national standards.
    The court interpreted the statute to suggest that you 
always need a Federal plan if you are in the EEZ. So that is 
the difference of opinion there.
    We think it is not only important here in Alaska for 
salmon, but as I mentioned, the state also manages Tanner crab 
in the EEZ, ling cod, and two different species of rockfish. I 
am told that other states would face similar potential 
problems--specifically pink shrimp on the West Coast of the 
U.S. are managed by the states, but occur in the EEZ--and could 
also be subject to a challenge as we have seen in the salmon 
here.
    Just generally, Cook Inlet salmon management is fairly 
complicated, always controversial, and difficult to satisfy all 
10 or 12 different interest groups in those fish. To add the 
U.S. Government as a player in that, on that scene, I do not 
think would be helpful or a positive addition.
    On the recusal question my written comments, I think, cover 
the comments I wanted to make. I am led to believe that it is 
really a matter of NOAA policy guidance that is guiding those 
decisions on when members have to be recused. It got a little 
bit ridiculous at this last meeting when one of the members was 
required to be recused on an FMP that had to do with essential 
fish habitat that in no way would have benefited either him or 
his company personally.
    So we think that needs a stronger look and I am not sure if 
it needs legislation, but I would encourage you and your 
Committee to work with NOAA on that question.
    And finally, not on the subject of Magnuson itself, but on 
a related topic as far as the Council is concerned. We are 
looking at some money problems with observer coverage. A lot of 
programs in State Government and Federal Government, money is 
an issue.
    But it is really important, we feel, to improve and 
increase the observer coverage, especially in the Gulf of 
Alaska. Not just because we could get better information, but 
we would also improve the confidence that people would have in 
the statistics that we now see as a result of a very low level 
of coverage in some of our fisheries there.
    So I know it is a tough time for everybody as far as money 
is concerned, but this is a really important one. I wanted to 
highlight that one area that we could really use some help with 
funding.
    So with that, I will just say that, just on that subject. 
The Pacific States Marine Fisheries Commission just finished 
their meeting today and they passed a resolution, supported 
unanimously by all five states, to also encourage additional 
funding for observer programs.
    So thank you again for being here and thank you.
    [The prepared statement of Mr. Cotten follows:]

            Prepared Statement of Sam Cotton, Commissioner, 
                   Alaska Department of Fish and Game
    Good afternoon Senator Sullivan and thank you for the opportunity 
to provide comments on the Magnuson Stevens Fishery Conservation and 
Management Act (MSA). I am Sam Cotten and am the Commissioner of the 
Alaska Department of Fish and Game, and am a member of the North 
Pacific Fishery Management Council. I'd first like to thank you for 
holding a hearing here in Alaska. While the MSA is the signature piece 
of legislation governing Federal fisheries throughout the Nation, I'd 
like to start my comments today by focusing on its connection to the 
Alaskans who participate in these fisheries here in our local 
communities. While the Council and the MSA are focused on Federal 
fisheries, which are managed by National Marine Fisheries Service 
(NMFS), many of the actions taken by the Council and the provisions 
within the MSA have a significant impact on Alaskans throughout the 
State. Here in Alaska it is well known that the commercial fishing 
industry is the largest private employer in the state. Nearly every 
coastal community in Alaska, and many inland communities, have some 
level of participation in Federal fisheries. In addition to the actual 
boots on deck, there are thousands more Alaskans working in processing 
plants, gear and net shops, welding shops, and many others businesses 
that support these fisheries. These same permit holders, crew, and 
support facilities help Alaska have the Nation's top three ports by 
volume, and three of the Nation's top five ports by value. These 
statistics are in large part due to the success of the MSA, the 
Regional Council process, and underscore the importance of maintaining 
the core structure of the Act.
    However, as we dig into the statistics it becomes apparent that 
while many Alaskans participate in and enjoy economic benefits from the 
seafood industry, the vast majority of the groundfish catch volume (83 
percent) was made by vessels with primary owners that were not Alaska 
residents, (economic SAFE report 2016).\1\ Alaska waters, state and 
federal, are open to all U.S. fishermen, as it should be. One of our 
goals here in Alaska is to enhance opportunity for our resident 
fishermen and improve the economies of our fishing communities. We 
would ask that any changes to MSA are given consideration as to the 
impacts on our fishing families and communities.
---------------------------------------------------------------------------
    \1\ https://www.afsc.noaa.gov/REFM/Docs/2016/economic.pdf
---------------------------------------------------------------------------
Federal v. State Management of Fisheries in the EEZ
    Several species of fish and tanner crab are harvested in the 
Exclusive Economic Zone (EEZ) while being managed by the State of 
Alaska. These fisheries have been effectively managed by the State of 
Alaska; this practice should continue. A recent decision by the 9th 
Circuit Court of Appeals (now under appeal to the U.S. Supreme Court) 
would require a Fishery Management Plan (FMP) for salmon management and 
could have implications for other species as well. The state agreed 
with the NMFS that an FMP is not needed either legally or for proper 
management of salmon. The result would be a lengthy, difficult, and we 
feel unnecessary burden for the North Pacific Council. We have concern 
that the precedent for requiring a FMP may have implications for Tanner 
crab, ling cod, and some rockfish species.
    There is also some concern about unintended consequences such as 
closures that would not have otherwise occurred. We would ask that the 
MSA reauthorization provide the North Pacific Council the discretion to 
develop an FMP for fisheries in the EEZ that are currently managed by 
the State of Alaska.
Council Recusal Process
    Finally, the State of Alaska encourages this committee to examine 
the recusal process for Council members. Currently, MSA generically 
outlines when and why a Council member should not vote;\2\ however, 
there is not accompanying guidance as to how National Oceanic and 
Atmospheric Administration (NOAA) should determine that a Council 
member should be recused. Due to this lack of specific direction, NOAA 
has implemented policy guidance that not only the State of Alaska 
questions, but that the North Pacific Council recently requested NOAA 
review.\3\ The policy relies on an attribution method that attributes 
all fishing activities of a company, or partially owned companies, to a 
Council member when considering whether recusal thresholds have been 
exceeded. The problem with this approach is that it results in recusals 
that have no logical connection to the directives in MSA. For example, 
recently a North Pacific Council member was recused from voting on an 
action to re-designate essential fish (EFH) habitat in the Bering Sea/
Aleutian Islands. Re-designating EFH does not change the total amount, 
timing, or location of harvest, or the distribution of harvest among 
participants. Given that, it is inconceivable how this action would 
have a significant and predictable effect on the financial interest of 
the Council member, as MSA states as a cause for recusal. This current 
NOAA policy guidance is particularly troubling, not only due to the 
apparent lack of linkage to MSA, but also because it weakens the 
Council process by unnecessarily recusing Council members from voting. 
Given these issues, the State of Alaska encourages this Committee to 
work with NOAA to ensure that a thorough review of the conflict of 
interest regulations, and any subsequent policy interpretations of 
those regulations, takes place prior to MSA reauthorization.
---------------------------------------------------------------------------
    \2\ MSA Section 302(j)(7)
    \3\ https://www.npfmc.org/wp-content/PDFdocuments/CM/2017/071017/
0620_Recusalletter
.pdf
---------------------------------------------------------------------------
    In conclusion, the State of Alaska supports Congressional 
reauthorization efforts, and encourages this committee to maintain the 
core structure of the MSA, while ensuring modifications don't harm or 
unnecessarily burden existing programs in Alaska.

    Senator Sullivan. Well, thank you, Commissioner Cotten.
    Mr. Morisky.

              STATEMENT OF REED MORISKY, MEMBER, 
                   ALASKA BOARD OF FISHERIES

    Mr. Morisky. Thank you, Senator and good afternoon, 
everyone.
    Thank you for this opportunity to provide testimony 
regarding potential improvements to the Magnuson-Stevens Act.
    For introduction, my name is Reed Morisky. I am one of 
seven members of the Alaska Board of Fisheries. I live in 
Fairbanks, Alaska where I have operated a sport fishing guide 
service for 34 years. I live almost 400 miles from the nearest 
saltwater. That makes some people happy; others it gives them 
concern.
    I have a close family member who has been involved in the 
commercial fishing industry in Alaska for several decades.
    The reauthorization of the Magnuson-Stevens Fishery 
Conservation Act offers an opportunity to address issues that 
affect Alaskans and others that depend on our fisheries 
resources.
    Questions relating to possible suggestions for how the 
current management of the MSA could be improved include: will 
this reauthorization process incorporate provisions for 
flexibility in the management of the sport fishery?
    There is concern that the current management structure is 
too rigid and does not allow for variables that the industry 
has requested, while accommodating conservation principles.
    Will there be an improvement in conducting comprehensive 
stock assessments to include real time sport fish catch 
reporting?
    There is consensus in the sport fleet that the initial 
allocations in many fisheries did not adequately reflect what 
was being taken by the sport fleets, nor did it account for 
competition between user groups.
    Currently, every region collects different levels of 
information differently and giving answers is typically 
voluntary. The provided information is not easily accessible to 
the average fisherman. Will this be addressed?
    Will the current data collection program that would assist 
in resolving these concerns receive adequate funding?
    A great deal of additional information is needed by all 
user groups in the waters covered by the MSA. Will this 
reauthorization process address the need for better catch data 
and the economic value of the sport fisheries, both direct and 
indirect?
    There is a concern that future allocations and dedications 
of budget, personnel, and management efforts should be made 
with this economic information available.
    If the Federal Government takes over management of the EEZ 
that--since statehood--has been managed under State law, are 
they ready to determine the harvest limits for each sector?
    How would the differing management standards be 
coordinated? How would Federal management mesh the national 
standards with State management? Should the national standards 
reflect the significant presence of sport fishing and other 
users?
    The National Marine Fisheries Service has found that the 
Magnuson-Stevens Act's concept of optimum yield is equivalent 
to the State's sustained yield principle. The State of Alaska 
mandates the fisheries resources are for the maximum benefit of 
people. Should the MSA be amended to accommodate multiple 
users?
    Coupled with this issue, should the MSA provide for 
research for freshwater fisheries? Should the MSA National 
Standards incorporate the State of Alaska's escapement goal 
management strategy?
    In summary, although they have similar economic impacts, 
recreational and commercial fishing are fundamentally different 
activities. Recognizing that the commercial fishing industry is 
economically important to the U.S. economy, there are over 11 
million Americans who enjoy saltwater recreational fishing. The 
sport contributes over $63 billion to the Nation's economy 
annually and supports over 439,000 American jobs.
    Thank you again for this opportunity to testify on these 
important reauthorization issues.
    [The prepared statement of Mr. Morisky follows:]

 Prepared Statement of Reed Morisky, Member, Alaska Board of Fisheries
    Good afternoon everyone. Thank you for this opportunity to provide 
testimony regarding potential improvements to the Magnuson-Stevens Act.
    For introduction--my name is Reed Morisky. I am one of seven 
members of the Alaska Board of Fisheries. I live in Fairbanks, Alaska 
where I have operated a sport fishing guide service for 34 years. I 
live almost 400 miles from the nearest saltwater. That makes some 
people happy, others, it gives them concern. I have a close family 
member that has been involved in commercial fishing in Alaska for 
several decades.
    The reauthorization of the Magnuson Stevens Fishery Conservation 
Act offers an opportunity to address issues that affect Alaskans and 
others that depend on our fisheries resources.
    Questions relating to possible suggestions for how the current 
management of the MSA could be improved, include:

  <bullet> Will this reauthorization process incorporate provisions for 
        flexibility in the management of the sport fishery? There is 
        concern that the current management structure is too rigid and 
        does not allow for variables the industry has requested, while 
        accommodating conservation principles.

  <bullet> Will there be an improvement in conducting comprehensive 
        stock assessments, to include real time sport fish catch 
        reporting? There is consensus in the sport fleet that the 
        initial allocations in many fisheries did not adequately 
        reflect what was being taken by the sport fleets, nor did it 
        account for competition between user groups. Currently, every 
        region collects different levels of information differently 
        (and giving answers is typically voluntary). The provided 
        information isn't easily accessible to the average fisherman. 
        Will this be addressed?

  <bullet> Will the current data collection program, (that would assist 
        in resolving these concerns), receive adequate funding?

  <bullet> Much needed, additional information is needed by all user 
        groups in the waters covered by the MSA. Will this 
        reauthorization process address the need for better catch data 
        and the economic value of the sport fisheries, both direct and 
        indirect? There is a concern that future allocations/
        dedications of budget, personnel, and management efforts should 
        be made with this economic information available.

  <bullet> If the Federal Government takes over management of the EEZ 
        that since state hood has been managed under state law, are 
        they ready to determine the harvest limits for each sector? How 
        would the differing management standards be coordinated? How 
        would Federal management mesh the national standards with state 
        management? Should the national standards reflect the 
        significant presence of sport fishing and personal use users?

  <bullet> The National Marine Fisheries Service has found that the 
        Magnusun-Stevens Act's concept of optimum yield is equivalent 
        to the State's sustained yield principle. The state of Alaska 
        mandates the fisheries resources are for the maximum benefit of 
        people. Should the MSA be amended to accommodate multiple 
        users? Coupled with this issue, should the MSA provide for 
        research for freshwater fisheries? Should the MSA National 
        Standards incorporate the state of Alaska's escapement goal 
        management strategy?

  <bullet> Recreational fisheries are open access. Because of this, it 
        is not possible to manage the annual catch down to the last 
        pound caught each year. It is virtually impossible to predict 
        how many anglers will participate in these fisheries in 
        advance. The current management structure that results in rigid 
        catch limits, often based on limited stock assessments, can 
        artificially restrict the sustainability of sport fishing-
        related businesses and limit the public's access to public 
        trust resources. Will these issues be addressed in the 
        reauthorization process?

  <bullet> MSA was originally designed to address commercial fishing 
        and has been effective in rebuilding many stocks.

  <bullet> However, there is a concern that MSA has never properly 
        addressed the importance of other fishing sectors; 
        specifically, the Alaska centric sectors of Subsistence, 
        Personal Use and Sport/Recreational fishing. There is a concern 
        that this has, or will, lead to shortened or even cancelled 
        seasons, reduced bag limits, and unnecessary restrictions.

  <bullet> Recreational fishing and commercial fishing are two 
        fundamentally different activities needing distinctly different 
        management tools.

  <bullet> Management strategies are in desperate need of an update and 
        more emphasis needs to be put on recreational fishing.

  <bullet> Some potential changes to consider when amending the MSA 
        are:

  <bullet> Require allocation reviews on a regular basis (3-5 years). 
        Develop clear, objective criteria for those reviews to allow 
        the process to be less controversial.

  <bullet> Allow for the use of alternative management approaches for 
        non-commercial fishing, similar to state-based models that 
        better align with the nature of non-commercial fishing and 
        available data.

  <bullet> Poundage-based quotas are difficult to implement with 
        anglers and harvesting MSY is not their goal.

  <bullet> Provide flexibility in rebuilding timelines that are 
        applicable to the biology of the stock and incorporate the 
        needs of the fisheries-rebuilding schedules are not ``one size 
        fits all'' as is currently mandated with the 10-year timeline.

  <bullet> Improve recreational fisheries data by considering; 
        supporting and incorporating data from qualified third-party 
        data collection systems, including modern sources such as from 
        smartphones, to provide for improved accuracy and timeliness of 
        harvest information. The time lag in data submission makes 
        timely management decisions difficult.

  <bullet> In summary . . .

  <bullet> Although they have a similar economic impact, recreational 
        and commercial fishing are fundamentally different activities.

  <bullet> Recognizing that the commercial fishing industry is 
        economically important to the U.S. economy, over 11 million 
        Americans enjoy saltwater recreational fishing. The sport 
        contributes $63.4 billion to the Nation's economy annually and 
        supports 439,242 American jobs.

  <bullet> Thank you again for this opportunity to testify on these 
        important reauthorization issues.

    Senator Sullivan. Thank you.
    Dr. Woodward.

    STATEMENT OF A.G. ``SPUD'' WOODWARD, DIRECTOR, COASTAL 
  RESOURCES DIVISION, GEORGIA DEPARTMENT OF NATURAL RESOURCES

    Dr. Woodward. Thank you, Chairman Sullivan.
    I appreciate the opportunity to be here and it was a long 
trip, but a pleasant one. Thank you.
    I have worked in the field of fisheries management at the 
State level for 30 years. I have served on the South Atlantic 
Fishery Management Council and I am currently Georgia's 
Administrative Commissioner to the Atlantic States Marine 
Fisheries Commission.
    While our state is the largest east of the Mississippi, we 
have a relatively small coastline, about 100 miles, but it is 
one rich in natural treasures largely thanks to the visionary 
leadership of State lawmakers who passed laws in the 1970s to 
protect our estuaries and our barrier islands.
    I would like to comment from a State perspective about 
another landmark law of the 1970s, the Magnuson-Stevens Act.
    I will start by stating the obvious. The Act has 
accomplished its original intended purpose very well, which was 
to protect our ocean resources from foreign fishing fleets and 
unregulated domestic fishing. Amendments in 1996 and 2006 were 
intended to keep pace with changes in domestic fishing and 
advances in fishery science and management. As a whole, those 
changes were positive and there have been notable and 
measurable successes in the South Atlantic: Black Sea bass, red 
porgy, king and Spanish mackerel, and protection of long-lived 
and slow growing deepwater corals.
    However, the prescriptive nature of the Act has also 
created unintended consequences in the southeast. Five years of 
a red snapper harvest moratorium and a total of 17 days of 
allowable harvest since 2010 have left our citizens who fish 
the south Atlantic totally dismayed.
    The same can be said for the thousands of Georgians who 
fish the Gulf of Mexico for red snapper when they learned the 
Federal waters were only going to be opened for three days in 
2017. Fortunately, State and Federal authorities reached an 
agreement to extend that season.
    However as of today, the south Atlantic remains closed to 
the harvest of red snapper despite a marked increase to the 
point that discards and now not-harvest is actually the 
management challenge. Estimates of dead discards, albeit 
imprecise, have actually exceeded the annual catch limit and 
perpetuated closures leading to lost fishing opportunities.
    Adding to our frustrations, NOAA fisheries closed Federal 
waters in the south Atlantic to the recreational harvest of 
Atlantic migratory group cobia this year. This decision was 
made as a precautionary measure to prevent the recreational 
harvest from exceeding the annual catch limit of 620,000 
pounds. It is important to know that cobia are not overfished.
    The cobia fishery in Georgia is almost exclusively in 
Federal waters and accounts for about 15 percent of the annual 
recreational catch. By comparison, over 80 percent of the 
recreational catch of the Atlantic migratory group occurs in 
the State waters of North Carolina and Virginia, which remained 
open to harvest.
    So the closure through the Magnuson Act was, in essence, a 
de facto allocation of cobia to those states made in full 
recognition of the uncertainty associated with recreational 
catch estimates. So our anglers lost a fishing opportunity 
without there being a commensurate conservation benefit or 
need.
    The Act, as currently applied, has made it difficult for 
the regional councils in the southeast to adapt fishery 
management to the needs of a very diverse recreational fishery. 
We deal with dozens and dozens of species and mixed 
populations. Council members need flexibility and alternative 
management measures in their toolbox.
    I predict that you will hear from some that flexibility and 
alternative management measures are simply ways to avoid making 
difficult, but necessary, management decisions. I disagree. I 
think they are necessary tools.
    Council members and staff also need more assessments that 
are both timely and suitable as a basis for management 
decisions. Stock assessments are the backbone of good fishery 
management, but it is important to point out that there is one 
NOAA fishery science center supporting three councils, ICAT, 
and highly migratory species in the southeast.
    Finally, it is time for a realistic acknowledgement that 
for many species, the Marine Recreational Information Program 
simply lacks the temporal and special resolution, accuracy, and 
precision needed for sophisticated stock assessment models and 
for recreational quota monitoring. We need more advanced tools.
    Congress has an opportunity to amend the Act to improve the 
ability of regional councils to manage the Nation's marine 
recreational fisheries. We know that you, and your colleagues, 
have many issues competing for your time and attention. And we 
very much appreciate those who have introduced and sponsored 
bills to amend the Magnuson-Stevens Act.
    We look forward to working with Congress to see them to 
fruition.
    Thank you for the opportunity to be here.
    [The prepared statement of Dr. Woodward follows:]

    Prepared Statement of A.G. ``Spud'' Woodward, Director, Coastal 
      Resources Division, Georgia Department of Natural Resources
    Good afternoon, Chairman Sullivan and Members of the Subcommittee. 
My name is A. G. ``Spud'' Woodward, and I am the director of the 
Coastal Resources Division of the Georgia Department of Natural 
Resources. I have served in this position since 2009 following eight 
years as chief of marine fisheries management and fourteen years as a 
marine fisheries biologist. I am a past member of the South Atlantic 
Fishery Management Council (SAFMC) and currently serve as Georgia's 
administrative commissioner on the Atlantic States Marines Fisheries 
Commission. I appreciate the opportunity to provide testimony about the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA) and how 
it has affected the citizens of the State of Georgia.
    While it is the largest state east of the Mississippi River, 
Georgia has a small coastline--100 miles--but one rich in natural 
treasures. For centuries, the occupants of this area have depended on 
the estuaries and adjacent Atlantic Ocean for their sustenance. Today, 
recreational and commercial fishing are economically and socially 
important aspects of life along our coast generating a half billion 
dollars of economic impact to the region and contributing to a $2 
billion tourist economy. While the monetary value of our saltwater 
fishing is small compared to that of our neighbor Florida and certainly 
when compared to the Pacific Northwest, I think it important to 
consider that the true value of recreational saltwater fishing cannot 
be measured solely in dollars and cents. Instead, the true value must 
be measured in the currency of fishing stories told and retold, 
photographs of memorable catches, the fresh seafood meal shared with 
family and friends, and the excitement that comes with anticipation of 
a day on the water. This value arises from opportunity and access to 
public trust waters and resources.
    Yet, when we do look at the dollars and cents for our state, they 
are significant. Recent statistics released by the Outdoor Industry 
Association indicate that 58 percent of Georgians participate in 
outdoor recreation each year and that Georgia residents are more likely 
to participate in fishing than the average American. Outdoor recreation 
attracts millions of visitors to our state and many come for the 
fishing opportunities. Ultimately, outdoor recreation accounts for 
$27.3 billion in consumer spending, $8.1 billion in wages and salaries, 
and $1.8 billion in state and local revenue. Anything that eliminates 
or degrades these outdoor recreational opportunities adversely affects 
both the economy of Georgia and the quality of life of Georgians.
    The Georgia Department of Natural Resources (DNR) is the state 
agency responsible for managing saltwater fishing as part of its 
mission to promote wise and sustainable human use of living marine 
resources and their habitats. The citizens of Georgia through their 
elected officials have done an exemplary job of protecting our coastal 
environment from the habitat loss and degradation that has occurred in 
many other Southeastern states. We are proud to say that we have one 
third of the saltmarsh remaining along the Atlantic Coast. Thanks to 
this abundance of habitat and proactive conservation measures, our 
tidal waters provide diverse and satisfying angling opportunities. We 
currently manage 30 species or species groups of saltwater fishes 
through state law using a flexible system that allows timely decision 
making based on sound science and public input. While our fishers are 
not always happy with the decisions made by our state legislature and 
board of natural resources, they are more willing to accept them as 
valid since they understand the process and have easy access to the DNR 
staff who are collecting and analyzing the data and making the 
recommendations.
    Conversely, our anglers are very frustrated with Federal fishery 
management. Five years of a red snapper harvest moratorium and this 
year's unprecedented closure of Federal waters to the harvest of 
Atlantic migratory group cobia have left those who fish the South 
Atlantic totally dismayed. Ditto the thousands of Georgians who fish 
the Gulf of Mexico for red snapper. To them, Federal fishery management 
has become nonsensical and overly legalistic. Sometimes it seems that 
way to those of us who work in marine fishery management at the state 
level. I do not fault the employees of the regional fishery management 
councils and the NOAA Fisheries as they are charged with managing a 
multitude of species over wide geographic areas in a fishery management 
system that is highly prescriptive and appears to put fish ahead of 
people.
    As the committee is well aware, previous efforts to address the 
unintended consequences of the 2007 revision of the MSA have been 
unsuccessful. Thus, regional council members and NOAA Fisheries 
employees remain unable to exhibit the flexibility needed to ensure 
management decisions properly balance fish stock health and the needs 
of humans. I would like to offer two specific examples of why the MSA 
must be amended.
South Atlantic Red Snapper
    In the South Atlantic region, the red snapper is an iconic species 
prized by seafood lovers and targeted by anglers and commercial 
fishers. For many years, the species was managed through a combination 
of size and creel limits, and the stock was considered to be in a 
healthy condition. However, in 2008, an assessment conducted through 
the Southeastern Data Assessment and Review (SEDAR) process indicated 
that overfishing was occurring. Reductions in harvest were necessary to 
end overfishing despite evidence that the stock status was improving in 
the most recent years of the data series used in the assessment. 
Management options to reduce fishing effort and rebuild the stock while 
allowing some level of harvest were identified. However, those options 
were not available to the SAFMC because they would have resulted in 
continued overfishing beyond the date mandated by the requirements of 
the revised MSA. Recreational and commercial fishers vehemently 
challenged the validity of the stock status determination and the 
necessity of a total harvest moratorium and possible large-scale area 
closure of the Atlantic Ocean to all bottom fishing.
    A South Atlantic red snapper stock assessment conducted in 2010 
confirmed that biomass was increasing due to a strong year class 
entering the population. The SAFMC was able to avoid the large-scale 
area closures but still had to reduce harvest with draconian measures 
in order to comply with the MSA. From 2010 to 2016, NOAA Fisheries 
allowed 17 days of recreational harvest of red snapper from the South 
Atlantic with all harvest of red snapper prohibited in 2010, 2011, 
2015, and 2016.
    A 2016 assessment of South Atlantic red snapper was conducted 
through the SEDAR process in an effort to update the status of the 
stock. Council members and fishers were hopeful the assessment would 
reveal an improvement in stock status and fishing opportunities could 
be restored. The analytical model used to assess the red snapper stock 
relied on estimates of recreational fishing catch and effort--surveys 
of saltwater fishing guides and head boats and surveys of private 
recreational anglers through the Marine Recreational Information 
Program (MRIP). Yet, there had been no legal harvest of red snapper in 
the South Atlantic since 2014 and minimal harvest since 2010. So, 
recreational fishing data available as model input was extremely sparse 
including the estimates of red snapper discards. Yet, these data were 
used. Although the assessment was impaired by acknowledged data 
deficiencies it was considered ``the best scientific data available'' 
leading to the conclusion that the status of the stock was unchanged--
overfished and undergoing overfishing. In fact, the estimates of dead 
discards were considered to have exceeded the annual catch limit. Thus, 
NOAA Fisheries prohibited the harvest of South Atlantic red snapper 
again in 2017 exacerbating the already existing problem of data 
deficiencies and denying fishing opportunities to the citizens of 
Georgia for another year.
    Since red snapper occur as part of a mixed-species fishery, it is 
impossible for anglers to avoid incidental catches especially when 
abundance of the species is increasing. Anglers are perplexed that 
despite all indications that the South Atlantic red snapper stock has 
rebounded they still cannot harvest a fish. Rather, they have two 
choices--discontinue fishing for bottom fish in habitats where red 
snapper occur or continue to discard an increasing number of 
incidentally-caught red snapper, a percentage of which will be 
considered as dead and counted against the annual catch limit. To their 
credit, an increasing number of anglers are voluntarily using 
descending devices to reduce the mortality of incidentally-caught red 
snapper. In fact, the marine industry and management are working 
collaboratively to increase descending device use and to insure the 
benefits of those devices are considered during the red snapper stock 
assessment process. However, these efforts will be for naught as long 
as we remain trapped in a situation where the SAFMC and NOAA Fisheries 
are bound by the rigid requirements of the MSA.
    If these rigid requirements, especially timelines for ending 
overfishing and stock rebuilding, had not been in place in 2008, the 
SAFMC could have recommended a management approach to reduce fishing 
mortality and start the South Atlantic red snapper stock on the pathway 
to a more sustainable condition while still allowing some harvest. 
Instead, they were faced with difficult decisions that have resulted in 
unnecessary socio-economic costs, an increase in dead discards and 
associated waste of this valuable public resource, and a loss of 
confidence in Federal fishery management. The ultimate solution to the 
South Atlantic red snapper conundrum is a change in the MSA to allow 
alternative management options for saltwater recreational fishing 
coupled with a realistic acceptance of the limitations of the data 
sources available for stock status determinations.
Atlantic Migratory Group Cobia
    The cobia is a pelagic migratory species prized for its tenacity 
when hooked and as table fare. Found along the Atlantic Coast and 
throughout the Gulf of Mexico, the species is managed cooperatively by 
the Gulf of Mexico Fishery Management Council and SAFMC. The dividing 
line between the Gulf migratory group and the Atlantic migratory group 
is the Georgia/Florida boundary. New York is the northern boundary of 
the stock. In 2014, an annual catch limit of 620,000 pounds for the 
recreational sector was established for the Atlantic migratory group. 
The annual catch limit for the commercial sector is 50,000 pounds. This 
stock is not considered overfished or undergoing overfishing.
    In recent years, MRIP recreational catch estimates for Atlantic 
migratory group cobia have been increasing and exceeded the annual 
catch limit in 2015 and 2016 by a wide margin. However, it must be 
stated that these catch estimates are imprecise due to the fact that 
cobia are encountered rarely by dockside survey clerks. For example, 
during the most recent 10-year period DNR creel survey clerks 
encountered a total of 49 cobia. Harvest estimates for the period 
ranged from 0 to over 250,000 pounds. Further confounding the situation 
is the fact that from 2011 through 2015, over 80 percent of the 
estimated recreational harvest of Atlantic migratory group cobia 
occurred in the state waters of North Carolina and Virginia.
    In 2016, responding to concerns about cobia harvest in state 
waters, the Atlantic States Marine Fisheries Commission initiated 
development of an interstate fishery management plan for cobia pursuant 
to the Atlantic Coastal Fisheries Cooperative Management Act. As a 
proactive measure, the states of North Carolina and Virginia took 
measures to reduce harvest during the 2017. Yet, NOAA Fisheries made a 
determination that predicted levels of recreational harvest during 2017 
would again exceed the annual catch limit. NOAA Fishery Bulletin 17-
004, Atlantic Cobia (Georgia to New York) Recreational Fishing Season 
is Closed in Federal Waters, was issued January 25, 2017. This decision 
was made in full recognition of the high degree of uncertainty 
associated with the MRIP estimates.
    Unlike the states of North Carolina and Virginia, cobia fishing in 
Georgia is prosecuted almost exclusively in Federal waters. Cobia occur 
only sporadically in state waters and when caught are typically smaller 
than the state-law-mandated 33-inch minimum-length limit. Over the past 
10 years, Georgia has accounted for 15 percent of the estimated 
Atlantic migratory group harvest by number, 13 percent by weight and 5 
percent of the trips reported to have caught cobia. The Federal fishery 
management plan for Atlantic migratory group cobia was not intended to 
allocate the cobia resource in favor of one state over another. 
However, the 2017 closure did just that in direct conflict with the 
language of National Standard 4 of the MSA. It is the position of DNR 
that closing Federal waters was a de facto allocation of the annual 
catch limit to North Carolina and Virginia where anglers would still be 
able to catch and harvest cobia from their respective state waters 
during 2017.
    It is also the position of DNR that the closure conflicted with MSA 
National Standard 8 by creating unnecessary negative economic impacts 
to the for-hire sector who rely on cobia fishing as a significant 
portion of their income during late spring. Furthermore, it can be 
argued that not allowing the harvest of cobia will increase regulatory 
discard mortality in conflict with National Standard 9 and would 
thereby ``increase substantially the uncertainty concerning total 
fishing-related mortality.'' As the National Standard Guidelines 
suggest, increasing bycatch mortality ``makes it more difficult to 
assess the status of stocks, to set the appropriate OY and define 
overfishing levels, and to ensure that OYs are attained and overfishing 
levels are not exceeded.''
    DNR and the Georgia House of Representatives requested NOAA 
Fisheries reconsider the closure based on aforementioned information. 
These requests were refused, and Georgia anglers were denied an 
opportunity to harvest cobia without a commensurate conservation 
necessity or benefit. The Georgia General Assembly recognizes that 
fishing is a valued part of our heritage and plays an essential role in 
the state's economy. Fishing is so highly valued that the citizens' 
right to fish is protected under state law (Official Code of Georgia, 
Annotated 27-1-1). By closing Federal waters to Georgia fishermen, the 
actions of NOAA Fisheries violated the rights of Georgia fishermen.
    The situation with Atlantic migratory group cobia is illustrative 
of the fact that annual catch limits for recreational fisheries are 
impractical. It also illustrates how it is inappropriate to use 
estimated recreational catches with questionable accuracy and precision 
to determine compliance with annual catch limits. As this testimony is 
being prepared, the Atlantic States Marine Fisheries Commission has 
approved a draft interstate fishery management plan for cobia for 
public comment. As originally conceived, the intent was for this plan 
to compliment the Federal plan. However, the commission is now 
requesting that NOAA Fisheries transfer management authority for 
Atlantic migratory group cobia to the commission by removing it from 
the SAFMC Coastal Migratory Pelagics Fishery Management Plan. The 
commission is requesting this because it realizes that as long as 
Atlantic migratory group cobia are managed through the MSA as currently 
written and interpreted there will be the threat of a Federal waters 
closure when recreational catch estimates exceed the annual catch 
limit. Given the historic variability of recreational catch estimates, 
this is likely to occur despite the efforts of states to control 
harvest. If this transfer were to happen, it would be the 
responsibility of the commission and not NOAA Fisheries to ensure that 
state regulations are such that the Atlantic migratory group is 
harvested at a sustainable level. This is similar to the approach taken 
for Atlantic-coast red drum, which was formerly managed under the MSA.
Recommendations
    Despite our frustrations and those of our citizens, DNR 
acknowledges that we are better off with the Magnuson-Stevens Act (MSA) 
than without it. There are notable and measurable successes in the 
South Atlantic--black sea bass, red porgy, king and Spanish mackerel, 
and protection of long-lived and slow-growing deep-water corals. There 
are others where it is difficult to determine success such as the 
creation of marine protected areas and spawning special management 
zones. However, in terms of management of recreational fishing, 
especially red snapper and cobia, we see the MSA as a failure. It is 
the position of DNR that changes must be made to improve management of 
marine recreational fishing through the MSA. I offer some 
recommendations from a state perspective.
Restoring Flexibility
    As evidenced by the examples I have presented, the 2007 MSA 
reauthorization has made it very difficult and in some cases impossible 
for the regional councils and NOAA Fisheries to apply the principle of 
adaptive management in managing fisheries. It has also forced them to 
set unrealistic goals such as ending overfishing within two years and 
rebuilding depleted stocks within 10 years. While it is admirable to 
set goals that are uniform across all federally-managed fisheries, the 
``one size fits all'' approach to managing marine species with widely 
varying life cycles, habitat requirements, and vulnerability to fishing 
mortality cannot work when applied from the Western Pacific to the 
South Atlantic. Rather than set prescriptive goals, the MSA should 
allow the decision makers to use their best judgement to determine how 
best to eliminate overfishing and rebuild stocks without eliminating 
all opportunities for access to the fish. When created by the original 
MSA, the regional councils were designed for that very purpose. 
However, under the current version of MSA they cannot fulfill that 
purpose.
Annual Catch Limits
    In theory, annual catch limits are a reasonable way of preventing 
overfishing and rebuilding stocks that are overfished. However, we now 
know that using annual catch limits in recreational fisheries is not 
the best approach. As previously mentioned, MRIP has been improved but 
still lacks the temporal and spatial resolution and accuracy and 
precision needed for recreational quota monitoring. MRIP and its 
predecessor, the Marine Recreational Fisheries Statistics Survey were 
designed to produce high-level trend information, not data with the 
resolution needed to monitor harvest with state or regional specificity 
to the pound and day of catch. Yet, since MRIP is often considered 
``the best scientific information available'' it is used to determine 
compliance with annual catch limits. We find ourselves in a situation 
where a fishery may be open one year and severely restricted or closed 
the next due to wide swings in recreational catch estimates. This is 
very frustrating to state resource managers and to fishers, especially 
the commercial and for-hire sectors who depend on predictability when 
making their business plans. A change in the MSA is needed so 
alternative management approaches are available that are better suited 
for managing recreational fisheries.
Stock Assessments
    I think we all can agree that fishery management plans should be 
based upon the best scientific information available. We have a system 
where sophisticated stock assessments are the benchmark for ``best''. 
However, this ``best'' is sometimes woefully inadequate when decisions 
are being made that affect livelihoods and fishing communities. While 
great strides have been made to improve recreational catch-and-effort 
data collection, there are still deficiencies that cannot be mitigated 
by the sophisticated modeling approaches currently favored for stock 
status determinations in the Southeast. A three-prong approach is 
needed--continued improvement in recreational data collection through 
increased funding and methodological advances, more reliance on 
fishery-independent data sources, and acceptance that sophisticated 
modeling approaches are not a panacea.
    Currently, 75 species are managed by the SAFMC, with 55 in the 
snapper-grouper complex. However, stock assessment capacity in the 
Southeast through the SEDAR process is been low when compared to other 
parts of the country. In fact, there is one NOAA Fisheries Science 
Center to serve three regional councils in the Southeast--Gulf of 
Mexico, South Atlantic, and Caribbean. In 2017, only three assessments 
of SAFMC-managed stocks are scheduled to be completed under the SEDAR 
process. If we continue using a fishery management system that depends 
on stock assessment results as a measure of success or failure, then 
stock assessment capacity in the Southeast must be improved. DNR has 
one staff person out of the twenty working in marine fisheries 
management who is knowledgeable about modern fish stock assessment 
methods. The priority for this person is not to actually do stock 
assessments but rather to represent Georgia when interstate and Federal 
fishery management stock assessments are being conducted to ensure that 
our data and perspectives are considered during the process.
Effecting Change
    DNR is encouraged by the efforts of Congress to amend the MSA so 
that we can manage marine fisheries in a manner that places equal value 
on people and fish. We commend Congressman Don Young (R-AK) for 
sponsoring H.R. 200, Strengthening Fishing Communities and Increasing 
Flexibility in Fisheries Management Act, which offers the following 
improvements which are considered priorities by DNR:

  <bullet> Basing fish stock rebuilding timeframes on biology rather 
        than on an arbitrary, one-size-fits all deadline;

  <bullet> Providing flexibility in ceasing a rebuilding plan when it 
        is determined to no longer be necessary;

  <bullet> Giving regional management councils the flexibility to use 
        ecosystem changes and economic needs of fishing communities 
        when setting annual catch limits;

  <bullet> Exempting certain stocks where annual catch limits may not 
        be appropriate, such as spiny lobster and dolphin;

  <bullet> Providing flexibility in the management of recreational 
        fisheries, such as fishing mortality rate targets and 
        alternative rebuilding strategies;

  <bullet> Repealing Section 407(d) because this section is outdated 
        and should be removed given it addresses creation of an 
        Individual Fishing Quota (IFQ) program and catch limits for red 
        snapper. Gulf red snapper has an IFQ program, and catch limits 
        are now addressed elsewhere in the Magnuson Stevens Act. 
        Removal of this section also would allow the Council to 
        consider needed modifications to the red snapper IFQ program 
        without always needing a referendum.

  <bullet> Increasing public involvement and transparency when 
        scientific data are developed;

  <bullet> Prioritizing improvements to data collection and stock 
        assessments, particularly in the Southeast;

  <bullet> Forming a federal-state partnership program to improve data 
        collection for recreational anglers; and

  <bullet> Adding a definition for ``depleted'' and requesting NOAA to 
        indicate why a species is depleted, which might not be related 
        to fishing.

    In addition to H.R. 200, H.R. 2023, the Modernizing Recreational 
Fisheries Management Act, has been introduced by Congressmen Graves (R-
LA), Green (D-TX), Webster (R-FL), and Wittman (R-VA). The companion S. 
1520 has been introduced by Senators Wicker (R-MS), Nelson (D-FL), 
Blunt (R-MO), Schatz (D-HI), Kennedy (R-LA) and Manchin (D-WV). These 
include the following reforms of importance to DNR:

  <bullet> Repealing Section 407(d) of Magnuson and giving Councils the 
        authority to use alternative fishery management measures for 
        recreational fisheries;

  <bullet> Instituting a moratorium on LAPP for mixed-use fisheries in 
        the Gulf of Mexico and South Atlantic. Basing rebuilding time 
        frames on biology, stock status, and the needs of fishing 
        communities;

  <bullet> Giving regional fishery councils the flexibility to consider 
        changes in ecosystem and economic needs of communities when 
        setting annual catch limits and removing annual catch limit 
        requirements for certain criteria.

  <bullet> Including affected states in review of proposed exempted 
        fishing permits to ensure the proposed activity is consistent 
        with management and conservation objectives, and that social 
        and economic impacts are minimal;

  <bullet> Creating best practices for state-administered recreational 
        data collection programs and providing funding for improvement 
        of state data collection programs;

  <bullet> Facilitating greater incorporation of data, analysis, stock 
        assessments, and surveys from state agencies and non-
        governmental sources and following through with recommendations 
        of the NAS for evaluation of whether MRIP use is compatible 
        with current management; and

  <bullet> Within 90 days of enactment, Secretary of Commerce must 
        enter into agreement with NAS to review if MRIP is compatible 
        with the needs of in-season management of annual catch limits, 
        including whether in-season management of annual catch limits 
        is appropriate for all recreational fisheries.
Conclusion
    Throughout my career as a manager of public trust resources, I have 
tried to adhere to the ethical doctrine of the medical profession, 
``first, do no harm''. Just as physicians have discovered that, when 
taken literally, this is an impossible task, so I have discovered that 
it is impossible to manage a fishery without harm, either perceived or 
real, to someone. This harm may come in the form of lost wages for a 
commercial fisher or disappointment on a child's face when they can't 
keep the first fish they catch because of harvest regulations. However, 
like my peers, I believe that the harm is far outweighed by the 
ultimate benefit of sustainable fisheries and fishing opportunities in 
perpetuity.
    DNR believes that the MSA has done more good than harm for the 
citizens of Georgia and the United States. However, as with all things 
in life we must learn from our mistakes and make changes. It is our 
sincere hope that these changes will better align the letter of the law 
with the spirit of the law and set a new course for managing the 
Nation's fisheries through the Magnuson-Stevens Act. Mr. Chairman, 
thank you again for the opportunity to testify.

    Senator Sullivan. Great. Well, thank you again, Dr. 
Woodward for traveling all the way from Georgia. I hope you get 
a little opportunity to go out fishing on the Kenai here.
    Dr. Woodward. At 5:30 in the morning, I hope.
    Senator Sullivan. There we go. Good, good.
    Well, listen, let me begin with just a very open-ended 
question, but in many ways, it is the key issue that we are 
looking at in this hearing. I will just open it up to any or 
all of the witnesses to begin with.
    What do you hope to see in an MSA reauthorization? What 
issues, in particular, would you see as your top priorities 
with regard to an MSA reauthorization?
    We have heard from different user groups saying, ``It is 
working well. Do no harm.'' Others have had a very different 
view in terms of what they want out of this.
    So I just really want to open that up to begin with for all 
the witnesses here today. And again, I want to thank the 
witnesses for their testimony, and we want to continue to work 
with all of you as we move forward in this process.
    Dr. Woodward. I think one of the primary concerns we have 
is the prescriptive nature in terms of ending overfishing and 
rebuilding.
    The Act, when it was amended in 2006 and reauthorized in 
2007, had very good intentions to set measurable goals.
    The problem is we are applying those goals across very 
diverse fish species and fish populations. Sometimes it is 
simply impossible to rebuild some of these stocks back, 
especially if they are long-lived species in the period of time 
allocated and mandated by the law.
    And to do that, if it is even feasible, oftentimes comes 
with socioeconomic costs that are devastating and you still 
cannot necessarily accomplish your goal, but you are inflicting 
great harm. And so, I think that is where the flexibility comes 
in.
    Regional councils were created to be a composite body of 
informed decisionmakers, and they do need flexibility in their 
ability to do that. I think the Act, for all of its good 
intentions, has taken away some of that flexibility and keeps 
them from being able to do the best job they can.
    Senator Sullivan. So your focus is on more flexibility to 
the Council in terms of decisionmaking that relates to specific 
quota allocations?
    Dr. Woodward. Let us remove annual catch limits when they 
are not necessarily the appropriate tool. And let us give 
flexibility to build stocks back over longer periods of time to 
properly balance the socioeconomic cost with rebuilding.
    And then we also need better information. I mean, you have 
heard from Mr. Cotten about funding. We have one fishery 
science center and the states in the southeast have various 
levels of funding.
    We do not have the capacity, necessarily, to produce those 
kinds of stock assessments, but they are the currency of modern 
fishery management. So we have got to have that too.
    Senator Sullivan. Great. Others want to comment on the 
first question? Dan.
    Mr. Hull. Thank you, Senator.
    I did touch on one specific issue in my oral comments on 
the North Pacific Management and clarification related to 
provisions over State jurisdiction to manage fishing activity 
in the absence of an official fishery management plan.
    We, as a Council, have not met since the invitation to this 
hearing. So my oral and written comments are based on our 
previous discussions of Magnuson issues generally, and we have 
not taken the opportunity to more specifically identify changes 
that we would offer.
    With respect to flexibility and rebuilding plans, we do 
identify the need to look into that in such a way that, again 
as I said in my oral testimony, we can provide the regional 
councils with some of the flexibility that they need to rebuild 
stocks and to meet the scientific principles surrounding ACLs, 
but also the social and economic objectives that each region 
experiences differently. And we have heard that and seen that 
from other councils with respect to fisheries.
    Again, we are noting some caution about how those might be 
changed. Those are issues generally that we see are worth 
exploring.
    Senator Sullivan. Great. Commissioner Cotten.
    Mr. Cotten. Thank you, Senator.
    I think I am probably in the camp of working well and do no 
harm as reflected in a lot of my testimony. But I will take 
this opportunity to do another pitch on budget items.
    In the State of Alaska, as I am sure everybody is aware, we 
are facing some constraints on revenues and, as a result, all 
budgets are under close scrutiny. I think the legislature this 
year has treated our budget fairly well and have come to the 
recognition that in order for us to do our job, we do need 
those financial resources. As you take them away, we are less 
able to do a good job, and the same is true here. And I think 
the gentleman from Georgia pointed out a similar concern from 
that part of the country.
    So again, appreciate the strong attention to the budget. I 
know there is a push to make reductions in the Department of 
Commerce and that will affect us.
    So I know you are aware of this, but I just wanted to echo 
and emphasize our concern for certainly the potential for 
reductions and, at least in one case, we are interested in 
additional resources.
    Thank you.
    Senator Sullivan. Well, I can assure you that, at least 
from my perspective, full funding for NOAA and NMFS and 
particularly the research and data collection component of what 
they are doing for our fisheries has been something that I have 
been advocating for since I got to the Senate.
    As you all know, you cannot manage a fishery well if you do 
not have accurate and robust data. And so, I will continue to 
press for that, but I appreciate you raising it here.
    Mr. Morisky, do you have any issues, again, with regard to 
a broader hope to see in an MSA reauthorization and from your 
perspective, what would be most important?
    Mr. Morisky. I will also confirm budgetary issues in regard 
to what I am seeing. That on the State level, and hearing also 
about the Federal level, the lack of funding for science and 
research, in particular on fish runs, will equate to less 
accurate management and default to a more conservative 
management regime. So I am concerned about that as well.
    Senator Sullivan. Let me turn to another issue that, Mr. 
Hull, you mentioned, and Commissioner Cotten, you touched on, 
but there has been a notable uptick on the North Pacific 
Council's decisionmaking with regard to recusals.
    Can you just give the Committee, and others, a sense of how 
that complicates the work of the Council? You both touched on 
it. Do you believe that is a NOAA regulatory approach that 
could address that or is that something you think we need to 
look at from a legislative perspective, if you think it is a 
problem at all? We have been hearing, of course, a number of 
concerns about that.
    Mr. Hull. Thank you, Senator.
    Yes, there does seem to have been an increase in the 
recusals specifically, or especially, for the CEQ 
representatives on our Council.
    Senator Sullivan. Is it not a bit ironic? Because is it not 
part of the reason to have the Council put together that you 
want to choose members who actually are involved in the 
industry, and involved in fisheries issues, and know a lot 
about it, which raises the issue of recusal even though it also 
raises the issue of knowledge?
    Mr. Hull. That is correct, Senator. They have been 
successful over the past 25 years getting involved in all the 
fisheries. Therefore, they do bring a perspective that is both 
unique and very broad for the Council. And not allowing them to 
add their voice to our collective decision making frustrates, 
we believe, the congressional intent for the program.
    Senator Sullivan. Yes, Commissioner Cotten.
    Mr. Cotten. Thank you. Yes, I think I really appreciate the 
fact that you are asking a question on that. It suggests that 
you are aware of the problems here.
    In the past, there have been other people that have been 
told that they would be required to be recused. What they did 
to fix that was they shuffled their employment status, removed 
themselves as an employee, and became a consultant or some 
other method. It is the same person sitting there with the same 
financial interests, and they were able to avoid it.
    Senator Sullivan. And that worked previously?
    Mr. Cotten. That did work.
    Senator Sullivan. OK.
    Mr. Cotten. And I apologize if I am paraphrasing in a way 
that might have missed a couple of important points there, but 
that was my observation at the very least.
    CEQ organizations do not have a designated seat on the 
Council, but somebody from a CEQ organization typically sits on 
the Council. It is a very important part of the economy in 
Alaska, and especially to western Alaska.
    So that is the person that has most often been recused and 
it is possible that whoever sits there representing CEQ groups 
would face the same kind of problem. So it is a very important 
seat.
    Parochially, the original design of the Magnuson Act gave 
Alaska six votes.
    Senator Sullivan. Yes.
    Mr. Cotten. Recognizing that out of the 11 votes, that 
gives Alaska a majority if we all decide to vote the same way 
that is, but it does not always work out that way.
    But by having the CEQ member be the one that is typically 
recused that threatens Alaska's ability to have a strong voice 
on these issues.
    Senator Sullivan. So you certainly want us to look at it, 
but you think that it is something we should explore whether 
that be regulatory, or talk to NOAA, or is it something that we 
need to define more clearly in the statute?
    Mr. Cotten. My recommendation, Senator, would be to 
continue to push for a NOAA policy guidance change. If that is 
not successful, then certainly we would support a change to the 
statute.
    Senator Sullivan. Thank you.
    Let me ask, and this again, could go to either Mr. Hull or 
Commissioner Cotten. You mentioned western Alaska. I was out in 
Shishmaref the other day and we did a town hall meeting there.
    One of the questions that came up was the broader issue of 
the closure, or non-fishing, of the Arctic waters that extends 
north of where they are. And yet, from their perspective, some 
of the people asked the question, just seeing more migration, 
more fish. I get this question asked a lot. I am sure all of 
you do at the Council.
    But what kind of data, what kind of information, what kind 
of process do you need as you continually evaluate more 
northern waters in Alaska in terms of what the Council would 
recommend in terms of opportunities or maybe not enough data to 
understand the ecosystem there in terms of fishing there?
    I got a couple of questions on that just two days ago, and 
I told them I would have the opportunity to ask the experts and 
that I would pitch the question to you. So over to both of you 
for that question which, at least for me, comes up quite a lot 
when I am talking to Alaskans.
    Mr. Hull. Thank you, Senator. I will take a crack at it.
    I cannot recall offhand what kind of surveys are currently 
being done in those Arctic waters that are currently closed 
under our Arctic FMP to better understand what the status of 
stocks is, what is the abundance, how it has been changing.
    Senator Sullivan. And they are closed primarily because we 
just do not think we have the information to make intelligent 
decisions on any kind of management regime?
    Mr. Hull. In essence, yes. And so, until we have that 
information, and are better able to structure some kind of 
management program that would satisfy the provisions of 
Magnuson, the decision has been not to open.
    Senator Sullivan. But are we not seeing a migration of fish 
stocks north, or is that just anecdotal?
    Mr. Hull. Senator, I apologize. I am not able to answer 
that specifically.
    I would add, however, that the North Pacific Research 
Board, of which I am Chairman as well, it has initiated an 
integrated ecosystem research plan for the Arctic waters. Not 
specifically to address the issue of what is the stock 
composition and abundance in the Arctic waters, but to 
understand the process for the production of resources in that 
region that are particularly important to the people in that 
area.
    So that is a three-year-plus endeavor. It has just begun 
this year, but that is an example of some of the work that I am 
aware of that is going on.
    Senator Sullivan. Commissioner Cotten, do you have any 
views on this?
    Mr. Cotten. Thank you very much, Senator.
    It was a relatively easy decision to close the Arctic. For 
one reason, nobody was fishing there. So we really did not take 
anything away from anybody.
    But we did say that it could be opened under certain 
conditions and we would have to show healthy stocks that could 
be harvested.
    One thing about the fishing industry in Alaska is they are 
seldom shy about advancing proposals, ideas, and applications 
for experimental fishing permits. So I would expect to hear 
from industry as far as interest.
    They would contribute to the research and do the 
exploration, I think, if they were allowed and if they had the 
interest. If there was a good thought that there might be some 
money to be made in the Arctic.
    Senator Sullivan. OK. Thank you. Let me ask, Commissioner, 
one other question.
    Are there any changes in the MSA that could benefit the 
relationship, and Dr. Woodward, this would be to you as well, 
between State fish and game regulators, and organizations, and 
NMFS, and NOAA? Do you see that relationship as working well? 
Do you see any kind of structural issues that might be 
addressed in the MSA to make that more of a cooperative 
relationship?
    Dr. Woodward. Thank you, sir. That is a very good question, 
Senator, and one that is fundamental to the effectiveness of 
our fishery management.
    As you are aware, there have been efforts in the southeast 
to extend State jurisdictions out to manage resources in the 
EEZ with the belief being that the State agencies had a better 
understanding of those fisheries and an ability to collect the 
data. That is a slippery slope because that does put a burden 
back on the states to be able to collect that data.
    From a perspective of a state like Georgia, our territorial 
waters extend out to 3 miles. We have very little bottom fish 
habitat until you get 20 to 40 miles offshore.
    So if we were going to change that relationship to realign 
jurisdictions, it would be a pretty significant move that would 
have, obviously, far reaching ramifications for more than just 
fish.
    Senator Sullivan. Yes.
    Dr. Woodward. But at the same time, I can say that, 
especially in a situation like we are dealing with, with cobia, 
I have been encouraged that the southeast region has accepted 
that perhaps it is better for states to manage cobia given the 
preponderance of the catch that occurs in State waters than to 
keep it under a Federal system.
    And I think that is where the relationship really can 
benefit the most is a willingness for NOAA to divest itself of 
management responsibilities when there is a justification for 
it. We have done it in other species. We have reduced the 
number of species from being managed under Federal management, 
which is already stressed for resources, as I have already 
alluded to.
    I do not know that anything particular needs to be put in 
the Act other than maybe some language that encourages the 
councils to look critically at what is in their portfolio and 
to look for opportunities to pass that to the states.
    Senator Sullivan. Commissioner Cotten, do you have any 
views on that?
    Mr. Cotten. Just to say generally the State of Alaska has 
felt that we have worked very well with National Marine 
Fisheries Service and their representative in Alaska, and now 
anticipate even a stronger working relationship----
    Senator Sullivan. Yes, I agree with that.
    Mr. Cotten. With the leadership nationally.
    Senator Sullivan. Good news.
    Mr. Cotten. And thank you for your support on that.
    Senator Sullivan. Well, by the way, just so everybody 
knows, he was supported by every council and every region. So 
we had a strong Alaskan candidate and I am glad we got him in 
there.
    Mr. Cotten. And I think many of the other people that have 
held that office were certainly well-qualified and competent, 
but I think few have had the experience that Mr. Oliver has had 
directly, hands on with councils. And so, I think that is 
really going to be a benefit to not just our Council, but 
nationally.
    Senator Sullivan. Yes.
    Mr. Cotten. We have had some areas that we have not agreed 
on. Typically, with the ESA issues, marine mammals, for 
example, especially Steller sea lions, we have come to 
different conclusions on a regular basis on some of those 
issues. But I still feel overall, I would give high marks on 
the working relationship between State and National Marine 
Fisheries Service.
    Senator Sullivan. Let me ask Mr. Morisky a related question 
with regard to coordination that exists between the North 
Pacific Council and the Board of Fish.
    Are there ways that that coordination can be improved? I am 
kind of putting you and Mr. Hull on the spot here. I am sure 
you are going to say in the testimony that it is all going 
swimmingly. But if it is not, what would you recommend?
    Mr. Morisky. Well, perhaps more frequent interaction. I 
have been on the Board four years now and have not had an 
opportunity to have the Board officially interact with the 
North Council.
    Senator Sullivan. Well, I am glad we could bring you guys 
together today, yes.
    Mr. Morisky. Well, thank you for that. So perhaps a more 
frequent involvement would benefit both of us, especially with 
the issues that have been raised here and in other venues.
    Senator Sullivan. Do you think right now that the 
management tools the State and the Board of Fish possess are 
beneficial from the NMFS' and Councils' perspective to have in 
their toolbox to manage both the Federal and State fisheries?
    Obviously in Alaska, more than most states, there is an 
interaction. There is an overlap. Commissioner Cotten has 
mentioned a couple of areas where the State manages stocks in 
Federal waters. Obviously, you also mentioned the Kenai, which 
has its own very distinctive history in that regard.
    Do you think that there are enough proper authorities and 
tools to enable that relationship to work, particularly at the 
intersection?
    Mr. Morisky. Well, one of the comments that I have heard 
from my fellow Board members is that it is interesting that the 
North Council has their own staff back-up for information 
gathering, and research, and whatnot.
    The Board, although we have access to the Department, it 
would be nice--and this is not to criticize our state structure 
here, but I am just relaying something and I have also the same 
sentiment--that perhaps down the road if we could have more of 
a staff on the State side for things that we may research that 
are Board-centric.
    Senator Sullivan. OK. Good. Thank you.
    Let me close with just one final question. I quoted Chris 
Oliver in his hearing just last month in Washington, D.C. where 
he talks about, ``There are opportunities to have it both ways. 
Where for additional flexibility in how we apply annual catch 
limits, subsequent accountability measures, and in those 
rebuilding plans where we can achieve some flexibility that 
people are seeking without rolling back our conservation 
successes in having additional overfished stocks.''
    He thinks we can achieve that balance, as you mentioned, 
Commissioner, as someone who comes to that position with a lot 
of experience.
    Is that something that all of you would agree with the new 
Director of NMFS that we can hit that balance and sweet spot?
    I will open this. This is the final question for this 
panel. So if you want to answer it or have any other comments, 
please feel free to make them.
    Mr. Hull. If I might, first make the comment regarding the 
State Board of Fisheries and our Council interaction.
    Senator Sullivan. Sure.
    Mr. Hull. We do have a joint protocol committee between the 
Board of Fisheries and our Council, a subset of each body.
    We have not met for, I think, it has been close to seven or 
eight years now. So we have recognized on our side the need to 
interact at times, but have not followed through. I think that 
there is, given certain circumstances now, I think we have 
discussed that that warrants a joint meeting.
    Senator Sullivan. Well, maybe that can be one positive 
outcome of this hearing, since we have two of the key players, 
actually three of the key players, to do that.
    Mr. Hull. We also, our staff does brief the Board of Fish 
on issues that are going through our Council that are relevant 
to issues that they have taken up. So there is some interaction 
that goes on in between.
    But with respect to your question on Mr. Oliver's 
statement, I think that there are potential opportunities for 
improving that, perhaps the harvest side of the equation.
    I do want to say that it does require an increased 
monitoring of our fisheries, improvements in our stock 
assessment because the more information we have about the 
abundance of stocks, their distribution, their life history, 
the better able we are to make those decisions about harvest 
levels. The more monitoring we have of the fisheries, the 
better able we are to understand the consequences of harvest, 
or the impacts of harvest on those stocks.
    So yes, I think that there are some ways to do that, but it 
will not come easily, I can say that as well, so.
    Senator Sullivan. Thank you. Any other panelists want to 
comment on that final question that I posed that quotes the new 
Director of NMFS on what he thinks we can achieve?
    Dr. Woodward. I will. Thank you, Senator.
    I will, just for the record, let you know that Mr. Oliver's 
origins were in the southeast. He may be an Alaskan but.
    Senator Sullivan. Well, I think he claimed Texas initially, 
but we claim him now, so he has a lot of connections.
    Dr. Woodward. So we have a little pride of ownership of him 
too.
    Senator Sullivan. Good.
    Dr. Woodward. I do think what he has said is achievable. I 
think it is going to take a lot of work. I think it is more 
than just amending the Magnuson Act.
    I think it is leadership within NOAA. I think it starts at 
the regional level and how regional administrators guide their 
staffs to apply the Magnuson Act and how they interact with the 
regional fishery management councils. I mean, we see this quite 
often in our State-Federal agency interactions that, as you 
move geographically, oftentimes the code of Federal regulations 
is interpreted differently from place to place.
    Senator Sullivan. Right.
    Dr. Woodward. And sometimes that is good, and sometimes it 
is not so good. I think it is going to take both and it is 
going to take a commitment of resources.
    I mean, we are trying to do very advanced fisheries 
management in this country, and we have got to support it with 
the resources necessary to perpetuate the billions of dollars 
of benefit it brings.
    The legislation currently before the Senate and the House, 
the Modern Fish Act, they have great potential. Obviously, we 
have got to look at them with close scrutiny, but I do think it 
is achievable.
    I think if the Act is amended to show the states that the 
National Marine Fisheries Service is extending the olive 
branch, so to speak, to try to bridge the gap and correct some 
of these problems. So there is a willingness on both sides.
    Senator Sullivan. Good. Thank you.
    Commissioner Cotten.
    Mr. Cotten. Thank you, Senator.
    I just wanted to say I agree with Mr. Hull and Dr. Woodward 
that that statement reflects something that really is 
achievable. I think the big difference, and I already mentioned 
this, is the experience that our new Director has, the 
leadership and that service is so important.
    And while we certainly would not want anybody to abandon a 
cautionary approach to a lot of fisheries management 
challenges, that kind of knowledge and base would allow for, I 
think, a bolder advance on a lot of things that we are all very 
interested in.
    Senator Sullivan. Great. Thank you.
    Mr. Morisky, I will give you the wrap up, final word here.
    Mr. Morisky. Thank you for conducting this hearing today 
and giving us all this opportunity to speak. Thank you.
    Senator Sullivan. Great. Well, listen. How about a round of 
applause for our first panel?
    [Applause.]
    Senator Sullivan. I want to thank the witnesses again and 
ask our second panel to please come up to the dais. Thank you.
    [Pause.]
    Senator Sullivan. I really want to thank everybody for 
being here.
    I think the Committee, and people observing this hearing 
saw a distinguished first panel. Our next two panels are going 
to be just as distinguished, representing a wide group of 
stakeholders from different regions, different areas.
    And so again, I will ask each of our witnesses that will be 
recognized for 5 minutes to give an opening statement, and if 
you have a longer statement, we can submit that for the record. 
I would like to introduce our panel of witnesses.
    First, we have Glenn Reed who is the President of the 
Pacific Seafood Processors Association.
    Ben Speciale is the President of Yamaha Marine Group.
    Linda Behnken, who is the President of the Halibut 
Coalition and the Executive Director of Alaska Longline 
Fishermen's Association.
    Ragnar Alstrom, who is the Executive Director of the Yukon 
Delta Fisheries Development Association.
    And Ben Stevens, the Director of the Hunting and Fishing 
Task Force for the Tanana Chiefs Conference.
    Each of you will have 5 minutes.
    Mr. Reed, we will begin with you. Thank you.

              STATEMENT OF GLENN REED, PRESIDENT, 
             PACIFIC SEAFOOD PROCESSORS ASSOCIATION

    Mr. Reed. Thank you, Chairman Sullivan.
    On behalf of the member companies of the Pacific Seafood 
Processors Association, or PSPA as we call ourselves, I would 
thank you for convening today's hearing on reauthorization of 
the MSA.
    My name is Glenn Reed, and I serve as the President of 
PSPA. Our nonprofit trade association represents the shared 
policy interests of nine seafood processing companies active in 
all major commercial fisheries in Alaska.
    PSPA members collectively purchase and send to markets 
several hundred million pounds of fish landed in Alaska, 
including salmon, pollock, crab, cod, halibut, sablefish, and 
other fisheries that continue to achieve sustainable management 
under the MSA.
    To accomplish this, PSPA members have invested hundreds of 
millions of dollars in their operations, including 3 at-sea 
motherships, 31 shore-based facilities in 18 Alaska coastal 
communities, from Ketchikan to Dutch Harbor to Togiak. Our 
members support local economies, bolster the tax base of rural 
communities, and provide thousands of jobs and infrastructure 
in remote locations.
    I want to highlight the interdependencies between 
commercial harvesters and seafood processors, which define our 
role as key fisheries management stakeholders.
    The harvesting sector operates under management measures 
developed through the regional fishery management council 
process, and they must be able to sell their fish quickly. PSPA 
members and other processors develop markets, buy those fish, 
and turn them into value-added products. Yet, the value of the 
product largely depends on consumer demand in highly 
competitive seafood markets around the world.
    The influence of global seafood markets on primary 
processors, including their ability to invest in capacity and 
in equipment necessary to remain globally competitive, must be 
understood and considered in management decisions, in order to 
achieve optimum yield.
    Congress defined ``optimum yield'' as the harvest level 
that provides the greatest overall benefit to the Nation, and 
it remains the core tenet of the MSA.
    Congress also defined ``fishing communities'' to include 
harvesters and processors, and this relationship is critical to 
realizing the benefits of optimum yield, which are further 
distributed throughout coastal communities and the Nation.
    To sustain this system, PSPA members support management 
that ensures fisheries' harvests are sustainable. This is the 
purpose of the MSA and it has been remarkably effective. The 
mandate to utilize the best available science ensures that 
decisions are based on facts and evidence, which drives 
performance.
    Overall, the MSA is achieving its goals in the North 
Pacific and is not in need of reform. Of course, we recognize 
there are ways to further update, improve, or streamline the 
Act. We also recognize there are regional differences that must 
be addressed and potential benefits of increased flexibility in 
some circumstances. But any changes should preserve, and only 
build upon, what already works in the Act.
    As PSPA reviews and considers any changes to the Act, we 
are guided by the following principles and find that any 
changes should ensure the following.
    First, preservation and enhancement of stock assessments 
and surveys must be maintained or expanded. This serves as the 
basis for all fishery management plans.
    This requires the cooperation from congressional 
appropriators, and we find it absolutely necessary for 
realizing optimum yield in all fisheries and responding to 
changes in stocks and the environment.
    New mandates included in any reauthorization should not 
come at the expense of reduced funding for fundamental stock 
assessments and survey responsibilities.
    Second, data utilized in stock assessments and surveys can, 
and should, come from many different sources, but they must 
continue to meet the high scientific standards demanded in any 
rigorous, peer reviewed process.
    The Act, which already requires use of the best available 
science, should not allow lower quality data to receive the 
same use in management, because doing so would have the effect 
of increasing sources of error and uncertainty.
    Third, flexibility is necessary for councils to address the 
unique and changing circumstances that arise between stocks, 
sectors, economies, environments, fishing communities, and 
other regional needs. Managers benefit from having more tools 
in the toolbox and flexible, adaptable options for implementing 
them.
    The North Pacific has several examples of cooperative 
management programs that have benefited from flexibility, 
allowing for higher utilization, increased value, lower 
bycatch, reduced environmental impacts, and more responsive 
monitoring and management, largely driven by fishery 
participants in response to Council objectives.
    Sustainable fisheries should achieve optimum yield through 
flexible and adaptable performance-based management, not 
prescriptive regulation.
    Fourth, any rigid mandates directing how management must be 
conducted should target specific needs without setting broader 
precedent. Congress should avoid across the board mandates in 
order to solve a specific problem in one region.
    Fifth, management systems and regulatory processes should 
be streamlined to the greatest extent possible. Any unnecessary 
duplication of analyses or extra administrative steps that do 
not add value should be minimized.
    Sixth, council management systems should be transparent and 
promote accountability. Reasonable public access to, and fair 
representation by, participants that operate in fisheries 
regulated by the Council is vital for achieving more effective 
outcomes.
    Finally, we find that any changes to MSA should not erode 
the core tenet of ensuring sustainable harvests. Alaska's 
fisheries are certified as sustainable through various 
international benchmarking programs, due in large part to the 
governance systems at State and national levels.
    All U.S. fisheries that have achieved the goal of 
sustainability must not backtrack, because doing so would not 
only affect thousands of fishery-dependent businesses, but it 
would harm consumer confidence that is increasingly important 
to seafood buyers around the world.
    In closing, I am grateful for the opportunity to share our 
input with you. I applaud your efforts to ensure that the MSA 
remains the bedrock of sustainable fisheries management.
    I look forward to your questions.
    [The prepared statement of Mr. Reed follows:]

             Prepared Statement of Glenn Reed, President, 
                 Pacific Seafood Processors Association
    Chairman Sullivan, on behalf of member companies of the Pacific 
Seafood Processors Association, or ``PSPA,'' I thank you for convening 
today's hearing on reauthorization of the Magnuson-Stevens Act. My name 
is Glenn Reed, and I serve as President of PSPA. Our non-profit trade 
association represents the shared policy interests of nine seafood 
processing companies active in all major commercial fisheries in 
Alaska.
    As you know, Alaska's commercial fisheries harvest more than 60 
percent of all U.S. commercial fishery production. The U.S. economic 
output related to Alaska's seafood industry is about $14.6 billion, 
with $5.9 billion in economic activity in Alaska.
    PSPA members collectively purchase and send to markets several 
hundred million pounds of fish landed in Alaska, including salmon, 
pollock, crab, cod, halibut, sablefish, and other fisheries that 
continue to achieve sustainable management under the Magnuson-Stevens 
Act, or ``MSA.'' To do so, PSPA members have invested hundreds of 
millions of dollars in their operations, including 3 at-sea motherships 
and 31 shore-based facilities in 18 Alaskan coastal communities, from 
Ketchikan to Dutch Harbor. Our members support local economies, bolster 
the tax base of rural communities, and provide thousands of jobs and 
infrastructure in remote locations.
    As a representative of the seafood processing sector in Alaska, I 
want to highlight the interdependencies between commercial harvesters 
and seafood processors, which define our role as key fisheries 
management stakeholders. The harvesting sector operates under 
management measures developed through the regional fishery management 
council process, and they must be able to sell their fish quickly and 
at a profit. PSPA members and other processors develop markets, buy 
those fish, and turn them into value-added products, yet the value of 
the product largely depends on consumer demand in highly competitive 
seafood markets around the world. The influence of global seafood 
markets on primary processors, including their ability to invest in 
capacity and equipment necessary to remain globally competitive, must 
be understood and considered in management decisions, in order to 
achieve optimum yield. Congress defined ``optimum yield'' as the 
harvest level that provides the greatest overall benefit to the nation, 
and it remains a core tenet of the MSA. Congress also defined ``fishing 
communities'' to include harvesters and processors, and this 
relationship is critical to realizing the benefits of optimum yield, 
which are further distributed throughout coastal communities and the 
Nation.
    To sustain this system, which delivers healthy and affordable 
proteins to the world, PSPA members support management that ensures 
fisheries harvests are sustainable. This is the purpose of the MSA, and 
it has been remarkably effective. The council process promotes 
transparency, regionally-based decision-making, and inclusion of vital 
interests, which drives accountability. The mandate to utilize the best 
available science ensures that decisions are based on facts and 
evidence, which drives performance. Overall, the MSA is achieving its 
goals in the North Pacific and is not in need of reform. Of course, we 
recognize there are ways to further update, improve, or streamline the 
Act. We also recognize there are regional differences that must be 
addressed and potential benefits of increased flexibility in some 
circumstances. But any changes should preserve and only build upon what 
already works in the Act.
    As PSPA reviews and considers any changes to the Act, we are guided 
by the following principles and find that any changes should ensure the 
following:

  <bullet> First, preservation and enhancement of stock assessments and 
        surveys must be maintained or expanded. This serves as the 
        basis for all fishery management plans. While this requires 
        cooperation from Congressional appropriators, we find it is 
        absolutely necessary for realizing optimum yield in all 
        fisheries and responding to changes in stocks and the 
        environment. New mandates included in any reauthorization 
        should not come at the expense of reduced funding for 
        fundamental stock assessment and survey responsibilities.

  <bullet> Second, data utilized in stock assessments and surveys can 
        and should come from many different sources, but they must 
        continue to meet the high scientific standards demanded in any 
        rigorous, peer reviewed process. The Act--which already 
        requires use of the best available science--should not allow 
        lower quality data to receive the same use in management, 
        because doing so would have the effect of increasing sources of 
        error and uncertainty.

  <bullet> Third, flexibility is necessary for councils to address the 
        unique and changing circumstances that arise between stocks, 
        sectors, economies, environments, fishing communities, and 
        other regional needs. Managers benefit from having more tools 
        in the toolbox, and flexible, adaptable options for 
        implementing them. The North Pacific has several examples of 
        cooperative management programs that have benefitted from 
        flexibility, allowing for higher utilization, increased value, 
        lower bycatch, reduced environmental impacts, and more 
        responsive monitoring and management, largely driven by fishery 
        participants in response to Council objectives. Sustainable 
        fisheries should achieve optimum yield through flexible and 
        adaptable performance-based management, not prescriptive 
        regulation.

  <bullet> Fourth, any rigid mandates directing how management must be 
        conducted should target specific needs without setting broader 
        precedent. Congress should avoid across-the-board mandates in 
        order to solve a specific problem in one region.

  <bullet> Fifth, management systems and regulatory processes should be 
        streamlined to the greatest extent possible. Any unnecessary 
        duplication of analyses or extra administrative steps that do 
        not add value should be minimized. Sources of unnecessary cost, 
        delay, and uncertainty must be avoided.

  <bullet> Sixth, council management systems should be transparent and 
        promote accountability. Reasonable public access to and fair 
        representation by participants that operate in fisheries 
        regulated by the Council is vital for achieving more effective 
        outcomes, as well as maximizing stakeholder support of those 
        outcomes.

  <bullet> Finally--and by no means the least important--we find that 
        any changes to MSA should not erode the core tenet of ensuring 
        sustainable harvests. Almost all of Alaska's fisheries are 
        certified as sustainable through various international 
        benchmarking programs, due in large part to the governance 
        systems at state and national levels. All U.S. fisheries that 
        have achieved the goal of sustainability must not backtrack, 
        because doing so would not only affect thousands of fishery-
        dependent businesses, but it would harm consumer confidence 
        that is increasingly important to seafood buyers around the 
        world.

    In closing, I'm grateful for the opportunity to share our input 
with you, and I applaud your efforts to ensure that the MSA remains the 
bedrock of sustainable fisheries management. I look forward to your 
questions.

    Senator Sullivan. Great. Thank you, Mr. Reed.
    Mr. Speciale.

  STATEMENT OF BEN SPECIALE, PRESIDENT, YAMAHA MARINE GROUP, 
                 YAMAHA MOTOR CORPORATION, USA

    Mr. Speciale. Good afternoon and thank you so much for 
allowing us to talk today. We really appreciate the opportunity 
to share our insights.
    Again, my name is Ben Speciale. I am the President of the 
Yamaha Marine Group.
    My thousand team members are responsible for the outboard 
motor business, as well as five marine manufacturing facilities 
in the United States. We provide products and services to 120 
independent boat companies and 2,000 independent retail 
dealerships, 19 of which are here in the State of Alaska.
    I personally have been in this industry all my life. We 
bring a unique perspective to fishery conservation as our 
products are used in commercial, charter, as well as 
recreational fishing.
    Conservation is a key part of our mission as a company. It 
is also a true passion for us in the marine industry. We 
support, and are active members, in the American Sportfishing 
Association, the Coastal Conservation Association, the 
Recreational Fishing Alliance, the Theodore Roosevelt 
Conservation Partnership, as well as the Kenai River 
Sportfishing Association here in Alaska.
    Mr. Chairman, Yamaha and our customers continue to advocate 
for the bill that you and Senator Corey Booker introduced, the 
Save Our Seas Act. We support these and other initiatives 
because we want a lot of fish in the ocean, and we want to 
ensure healthy fish stocks for future generations of anglers 
and our children.
    Today, I would like to focus on the economic impact of 
recreational saltwater fishing, underscoring the need to amend 
the Magnuson-Stevens Act.
    According to the data provided by the National Marine 
Fisheries, in 2015 over 9 million saltwater recreational 
anglers took over 60 million fishing trips, spending over $28 
billion. These activities directly support 439,000 jobs and 
contribute $36 billion to the U.S. GDP.
    While impressive, these numbers do not begin to tell the 
complete story of the marine recreational saltwater economy and 
its national impact. It is not just coastal. It touches all 50 
states.
    I am going to give two examples.
    One, we operate a foundry in Indianapolis, Indiana where we 
have 130 Yamaha employees producing 60,000 stainless steel 
propellers per year, most of which are used in saltwater 
fishing boats. The waxes used in the investment casting process 
are supplied out of Cleveland, Ohio. The stainless steel is 
supplied out of Oil City, Pennsylvania. The minerals used in 
our alloys are mined in places like Climax, Colorado or Eagle 
Mine in Michigan's Upper Peninsula.
    At our Skeeter boat factory in Kilgore, Texas, we have 280 
Yamaha employees manufacturing fishing boats many of which are 
used in the Gulf of Mexico by recreational anglers for red 
snapper and other saltwater species.
    The gel coats that we use in our resins come out of Kansas 
City, Missouri. The fuel tanks and live wells that are used in 
our boats come out of Sparta, Tennessee. The aluminum 
components used in a boat comes from Lake Zurich, Illinois and 
the electronic components come out of Arkansas.
    The materials and subcomponents used in saltwater 
recreational fishing boats come from all over our great Nation. 
This is another reason why it is so important we properly amend 
MSA so it takes into account the full economic impact of the 
saltwater recreational fishing economy.
    Recreational and commercial fishing are simply two 
fundamentally different activities needing distinctively 
different management tools.
    The original MSA law was enacted to govern commercial 
fishing sectors. It has done well there. However, the current 
one-size-fits-all approach has led to many problems for 
saltwater anglers that are unnecessarily burdensome, have huge 
restrictions, and reduced economic output for our industry.
    Simply stated, you do not buy a fishing boat and tackle if 
you cannot go fishing.
    The management strategies are in desperate need of an 
update. Critical improvements in MSA are included in the Senate 
Bill 1520, the Modern Fish Act, and will allow Federal 
fisheries managers to use alternative management approaches for 
recreational fishing, similar to the State-based models that 
simply much better align with the nature of recreational 
fishing.
    We, all of us, are responsible for protecting the 
livelihoods of those who depend upon the recreational saltwater 
fishing economy. Our laws should be written for the good of the 
Nation, not necessarily the good of one, single industry.
    I hope I have shown that recreational fishing supports a 
large number of jobs in a wide variety of industries and 
states.
    I want to thank you again for the opportunity today and I 
really look forward to answering any questions that you may 
have.
    [The prepared statement of Mr. Speciale follows:]

  Prepared Statement of Ben Speciale, President, Yamaha Marine Group, 
                     Yamaha Motor Corporation, USA
Introduction
    Good afternoon, Chairman Sullivan and Members of the Subcommittee. 
I appreciate the opportunity to speak with you today about the 
Magnuson-Stevens Fishery Conservation and Management Act (Magnuson-
Stevens Act). My name is Ben Speciale, and I am the President of Yamaha 
Marine Group, a business unit of Yamaha Motor Corporation USA. The 
marine group is accountable for the management of five marine 
manufacturing facilities in the United States, and we have more than 
1,000 employees. Our company sells, markets, and services Yamaha 
outboard motors and related parts and accessories through a 
distribution network of 120 independent boat builders. Those boats, as 
well as individual motors, are retailed through 2,000 dealers in the 
United States; 19 dealers are here in Alaska. These individual small 
businesses in our distribution network employ anywhere from a handful 
of employees to hundreds, and they have a sizeable footprint in all 50 
states.
    Conservation is a key part of our mission as a company. We support 
and are very active with the leadership of the Center for Sportfishing 
Policy. We are members and supporters of the American Sportfishing 
Association, the Coastal Conservation Association, the Recreational 
Fishing Alliance, the Theodore Roosevelt Conservation Partnership and 
the Kenai River Sportfishing Association here in Alaska. Earlier this 
year, Yamaha was honored by the International Game Fish Association for 
our efforts in the area of conservation. Mr. Chairman, I also know you 
are aware that Yamaha supports and has asked its customers to advocate 
for the bill that you and Senator Corey Booker introduced, the Save Our 
Seas Act. Getting plastic debris out of our oceans is very important 
part of protecting our ocean resources. At Yamaha, we know that our 
business and the businesses of all boat builders and dealers, rely on a 
healthy and abundant resource. To summarize, we want a lot of fish in 
the sea, and we want to ensure healthy fish stocks are protected for 
generations to come.
    I believe I can bring a unique perspective to the fisheries 
management conversation because Yamaha Marine's products are used by 
commercial, charter, and recreational fishermen. With this in mind, we 
are focused on fair and equitable fisheries management policies that 
bring about the greatest benefit to the Nation.
    Today, I would like to focus on the economic impact of recreational 
salt water fishing and thereby underscore the need for amending the 
Magnuson-Stevens Act to allow for increased management flexibility for 
recreational fisheries.
The Impact from a Statistical view
    Recreational saltwater fishing contributes greatly to the economy. 
According to data provided by the National Marine Fisheries Service, 
the Nation's nine million saltwater recreational anglers took more than 
60 million fishing trips in 2015, spending $28.7 billion. $24 billion 
of that was spent on durable goods, such as what we and our boat 
builder customers produce. Totals sales impact was $63 billion, which 
supported 439,000 jobs, and contributed $36 billion to the U.S. gross 
domestic product. Using NMFS numbers, total contribution to the economy 
by recreational fishing is about equal to the impact of commercial 
fishing.
Economic Impact from a Manufacturer's View
    While impressive, these numbers don't begin to tell the whole story 
of the marine economy. There are two points that everyone gathered here 
may not know. The impact of saltwater fishing isn't just coastal, and 
it likely touches all fifty states. Let me give you a few examples.
    Yamaha owns and operates a foundry in Indianapolis, Indiana, which 
produces more than 60 thousand stainless steel propellers each year 
that are used on Yamaha and other outboard motors. More than a third of 
those props are used in saltwater boat applications despite the fact 
that they are manufactured in a landlocked state.
    We employ 130 hardworking Americans in Indianapolis. The employees 
there are skilled and proud of what they do. Many of the jobs involve 
precise, careful finish work. The propellers they make are of high 
quality and are in great demand. On average, our production employees 
make more than other manufacturing employees in the area. They have the 
very same benefits package and health care options that are available 
to all Yamaha employees. In short, these are good jobs in a good 
industry.
    However, the economic impact of our propeller plant doesn't end in 
Indianapolis. Let's take a look at the raw materials that go into those 
Yamaha propellers. The waxes used in the investment casting process are 
shipped to Indianapolis from factories in Muskegon, Michigan or 
Cleveland, Ohio. Stainless steel is shipped to Indianapolis as ingots 
from Oil City, Pennsylvania and from Muskegon, Michigan. The various 
minerals used in the alloys are mined in a number of places, including 
Climax, Colorado, a state not known for saltwater fishing. Nickel used 
in the alloy likely comes from the Eagle Mine on Michigan's Upper 
Peninsula. Furthermore, once the propellers have left our Indianapolis 
plant, they go on to support small businesses in all fifty states 
through our boat-builder and dealer networks.
    We see the extensive impact of saltwater recreational fishing at 
our Skeeter boat company factory in Kilgore, Texas. While Texas 
certainly has a lot of coastline, Kilgore is pretty far from it. The 
city is better known for its contribution to the oil industry in the 
1930s, with oil derricks still standing as historic markers. With 281 
employees, Skeeter is now the second largest private employer in 
Kilgore, ranking just behind General Dynamics and just ahead of 
Halliburton. The brand is known as a manufacturer of high-performance 
fishing boats, may of which are used in the Gulf of Mexico by a wide 
variety of customers, including many recreational anglers who use them 
to fish for red snapper and other salt water species. Most of the 
resins used in those boats come from a company in Marshall, Texas. Some 
of the gelcoats are from Kansas City, Missouri. Fuel tanks and 
livewells come from factories in Bristol, Indiana and Sparta, 
Tennessee. Aluminum for use in some panels, from Lake Zurich, Illinois. 
Electronic components are from Conway, Arkansas. Decals and emblems are 
manufactured in Wichita, Kansas. All boats, not just Skeeter's, use a 
lot of wiring these days. Many of the wiring harnesses for boats come 
from Michigan. The truth is that many of the raw materials and semi-
finished products used for salt water recreational fishing boat 
production come from factories, mines and suppliers in the interior of 
our great nation.
    That salt water recreational fishing economy is much more far 
reaching than we think, and that's why it is so important that we amend 
the Magnuson-Stevens Act to take into account the needs of the 
recreational fishing economy. Recreational fishing and commercial 
fishing are two fundamentally different activities needing distinctly 
different management tools.
Supporting the Salt Water Recreational Fishing Economy
    How do we make sure we maintain the salt water fishing economy that 
is so important to every state in our nation? The current law has never 
properly addressed the importance of recreational fishing. The original 
MSA law was enacted to govern the commercial fishing sector, and the 
bill has done so with great success over the decades. However, the 
current one-size-fits-all approach has led to problems for the 
recreational angler including shortened or even cancelled seasons, 
reduced bag limits, and unnecessary restrictions. Recreational anglers 
are very concerned about the process for granting Exempted Fishing 
Permits, the actual impacts EFPs have on anglers who remain excluded, 
and the potential impacts EFPs will have on species conservation--as 
explained in the attachment to this testimony. Management strategies 
are in desperate need of an update and more emphasis needs to be put on 
recreational fishing.
    We believe that some critical improvements are included in S. 1520, 
the Modernizing Recreational Fisheries Management Act of 2017, which is 
currently pending before this committee. If enacted, the provisions of 
that bill will provide some of the statutory tools needed to better 
manage recreational anglers.
    Specifically, the Modern Fish Act will allow Federal fisheries 
managers to use alternative management approaches for recreational 
fishing, similar to state-based models that better align with the 
nature of recreational fishing and available data. Among other 
innovations, it will improve recreational fisheries data by considering 
modern third-party data collection systems, such as from smartphones. 
These legislative changes take nothing away from other sectors while 
leveling the playing field for the recreational angler.
Conclusion
    At Yamaha, we see the breadth and depth of the salt water 
recreational fishing economy. We see it in our own facilities and in 
those of the 120 boat builders and 2,000 dealers we work with every 
day. Here is an important fact: 70 percent of those who boat, fish. You 
cannot separate boating from fishing. In many ways, an outboard motor 
is just a tool for fishing, not unlike the tackle used by our 
customers. Every element and every bit of material that goes into the 
boat and everyone who adds value to it is part of the salt water 
recreational economy. The impacts go beyond manufacturers, suppliers, 
and retailers; they affect hotels, gas stations, restaurants, travel 
services, and coastal communities that benefit from recreational 
saltwater fishing trips every single day of the year.
    We, all of us here, are responsible for protecting the livelihood 
of the many who depend on recreational fishing. Our laws are written 
for the good of the nation, not the good of a single industry. I hope I 
have shown that the sport of recreational fishing supports a large 
number of jobs in a wide variety of industries in states all across our 
nation: artisans who put the shine in our propellers, technicians who 
design tooling, miners who bring us our raw materials, painters, 
laminators, salespeople, marketers, accountants, everyone. Each one of 
these jobs represents an American family that depends on the sport of 
recreational fishing for their financial security, and dozens more 
American families that are able to bond across generations through time 
together on the water with a fishing rod in their hands.
    At Yamaha, we support the Modern Fish Act, and we support the 
organizations that have worked so hard to get the recreation community 
this far today. There are others here on this panel today that can do a 
much better job of defining the specific statutory changes that will be 
necessary to support the economy that I hope I have helped to 
illuminate. I look forward to their testimony.
    Thank you again for the opportunity to discuss the Magnuson-Stevens 
Act. I am available to answer questions you may have.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               

    Senator Sullivan. Great. Thank you.
    Ms. Behnken.

             STATEMENT OF LINDA BEHNKEN, PRESIDENT,

           HALIBUT COALITION; AND EXECUTIVE DIRECTOR,

            ALASKA LONGLINE FISHERMEN'S ASSOCIATION

    Ms. Behnken. Good afternoon, Chairman Sullivan and thank 
you for this opportunity to testify.
    My name is Linda Behnken. I fish commercially on a 38 foot 
boat with my family out of Sitka. I am President of the Halibut 
Coalition, which includes 13 member groups and over 400 
individuals who provide halibut to U.S. consumers. I am also 
the Executive Director of the Alaska Longline Fishermen's 
Association and represent both groups with my comments today.
    Before addressing specific issues, I would state overall 
that in Alaska and other regions around the country from our 
perspective, the Act is working. I would ask that any changes 
be guided by a firm commitment to conservation.
    While today I will focus on strengthening the Act to better 
support coastal fishermen and fishing communities, we believe 
this goal can only be achieved by maintaining strong 
conservation requirements across all sectors.
    By way of an example in Alaska, we spent 15 years grappling 
with the conflicts between a rapidly increasing guided sport 
halibut harvest and a rapidly declining halibut resource. After 
Alaska's commercial halibut fishermen took up to a 76 percent 
reduction in their individual quotas, the courts ruled in favor 
of shared conservation and annual catch limits for both 
sectors. Halibut stocks are now rebuilding to the benefit of 
all.
    On a national level, rebuilding requirements have 
contributed to restoring 40 overfished stocks, which increased 
the value of commercially landed seafood by 18 percent, 
benefiting not only in fish and fishermen, but also the larger 
seafood economy: chefs, restaurants, retailers, and consumers.
    We are on the right course, but 38 important fish 
populations remain at unhealthy levels. We respectfully ask 
that the Committee uphold MSA mandates and hold all sectors 
accountable for their catch.
    Even as we recognize these successes and recommit to 
healthy fisheries, our coalition believes more must be done to 
address the challenges faced by coastal fishermen, especially 
young fishermen. In Alaska as elsewhere, commercial fisheries 
are a critical and sustainable source of employment, income, 
and cultural identity.
    Commercial fishing uniquely allows self-sufficient people, 
businesses, and communities to flourish in places where other 
economic opportunity is scarce. Losing access means losing a 
way of life, and ultimately, losing community.
    Young fishermen today face staggering entry level costs and 
a level of risk that is equivalent to buying a starter hotel 
instead of a starter house as your first step in homeownership. 
These costs, along with a nationwide focus on reducing the size 
of fishing fleets, has created a crisis in rural fishing 
communities. In Alaska, the problem is now too few fishermen, 
not too few fish.
    We have found that the conservation and management benefits 
commonly attributed to limited access can be achieved with 
limited consolidation of fishing fleets, and that more 
fishermen making a living is better for our communities.
    In addressing the provisions of the Act, we ask that you 
and the Committee focus on supporting, rather than reducing, 
fleet size.
    Promoting and sustaining the access of community-based 
fishermen also demands regulations be designed to work for 
small boats. At-sea catch monitoring provides a prime example.
    Small boats do not have room to accommodate an observer, 
but they can fit electronic monitoring devices, which capture 
the data needed for fisheries management. In Alaska, we now 
have an alternative for small boats. Hence, coastal fishermen 
can comply with at-sea monitoring requirements.
    To assist other areas, we have provided recommendations in 
our written comments, but I would highlight here the importance 
of developing programs at the regional level with the full 
engagement of stakeholders to ensure that programs are fleet 
compatible, cost effective, and designed to meet management 
objectives specific to that fishery.
    To summarize, the MSA created a successful management 
structure for our Nation's fisheries. We believe the effective 
and comprehensive application of MSA requirements across all 
sectors is essential, and we ask the Committee to recommit to 
these long-term conservation goals.
    We also ask that the Committee address the significant 
challenges faced by young fishermen and the growing impact to 
rural communities of lost fishing access.
    Our communities need relatively large fleets that provide 
jobs, revenue, and long-term viability. Young fishermen need 
affordable entry level opportunities and a regulatory system 
that accommodates the scale of their operations.
    We urge that you and the Committee help our communities 
realize the promise of National Standard 8. Not by compromising 
resources and health, but providing coastal residents with 
sustained access to local communities.
    I want to thank you for allowing me to testify and also to 
recognize your leadership in introducing the Young Fishermen's 
Development Act, and to thank you for that.
    [The prepared statement of Ms. Behnken follows:]

 Prepared Statement of Linda Behnken, President, Halibut Coalition and 
      Executive Director, Alaska Longline Fishermen's Association
Introduction
    Good afternoon Chairman Sullivan and members of the Committee. I 
appreciate this opportunity to speak with you about the reauthorization 
of the Magnuson-Stevens Fishery Conservation and Management Act, which 
has enjoyed notable success here in Alaska. I would like to start by 
thanking Senator Sullivan for his leadership on fisheries and ocean 
issues. In addition to legislation such as the Save Our Seas Act and 
the IUU Fishing Enforcement Act, we greatly appreciate his introduction 
of the Young Fishermen's Development Act (S. 1323).
    My name is Linda Behnken and I am the President of the Halibut 
Coalition which represents thirteen commercial fishing groups and 400 
individuals involved with the Alaska halibut fishery. I also serve as 
one of the three U.S. Commissioners to the International Pacific 
Halibut Commission (IPHC) and served on the North Pacific Fishery 
Management Council (Council) for nine years. In addition, I am the 
Executive Director of the Alaska Longline Fishermen's Association 
(ALFA), which is a member of the Halibut Coalition, the Fishing 
Community Coalition and the Marine Fish Conservation Network. I am 
representing the Halibut Coalition and ALFA with my testimony today.
    I have fished commercially for over 30 years and currently fish 
with my family out of Sitka. We longline for halibut and black cod and 
troll for salmon from our 38-foot boat. Commercial fishing supports our 
family and provides the economic mainstay of Sitka's economy. In 2015, 
Sitka was ranked 15th of all U.S. fishing ports in terms of dollar 
value of commercial landings. There are more than 500 commercial 
fishing vessels in our island community of 9,000 residents, with 
approximately 1/3 of the population directly involved in catching or 
processing fish and virtually every business in the community 
benefitting from commercial fishing.\1\
---------------------------------------------------------------------------
    \1\ http://www.ufafish.org/wp-content/uploads/2017/01/28.-Sitka-
2015-v6.1.pdf
---------------------------------------------------------------------------
    Alaska's commercial groundfish and halibut fisheries are widely 
considered to be among the best-managed fisheries in the world.\2\ Each 
year, more than 1,100 vessels ranging in size from small skiffs to 300-
foot catcher processors conduct more than 13,000 fishing trips in 
Alaska to harvest more than 2 million tons of groundfish and halibut. 
The North Pacific Council and the IPHC have a successful record for 
responsible stewardship that is founded on scientifically based stock 
assessments generating annual catch limits. The National Marine 
Fisheries Service (NMFS) ensures that these fisheries adhere to catch 
limits by using in-season, fishery dependent data from vessels and 
processing plants.\3\ Commercial fleets abide by scientifically 
established catch limits even when those limits cause short term 
economic pain. Both fishermen and managers understand that in the long 
run no one wins if the resource loses. We are proud of this legacy, and 
committed to further improvement in the fishery management process.
---------------------------------------------------------------------------
    \2\ Fissel et al., 2014; https://www.afsc.noaa.gov/refm/docs/2014/
economic.pdf
    \3\ http://www.npfmc.org/wp-content/PDFdocuments/resources/
SpeciesProfiles2015.pdf
---------------------------------------------------------------------------
    Before I get into specific issues, I would like to give my overall 
view on the Magnuson-Stevens Act re-authorization process. In Alaska, 
and in the other regions around the country, the Act is working, and I 
would suggest that any changes to it be guided by a commitment to 
conservation. The Halibut Coalition firmly support the conservation 
provisions in the Act, including rebuilding requirements, bycatch 
provisions and habitat protections. While with this testimony I will 
ask that this Committee strengthen the Act and the implementation of 
the Act to support community-based fishermen, we firmly believe that 
maintaining productive fisheries through resource conservation is step 
one in that process.
Maintain Strong Resource Conservation Measures
    Alaska's commercial fisheries are a critical and sustainable source 
of employment, income, and cultural identity. A $6 billion-dollar 
industry employing over 30,000 people, fisheries have been the economic 
engine of Alaska's coastal communities for over a century. Commercial 
fishing uniquely allows self-sufficient people, businesses, and 
communities to flourish in places where other economic opportunity is 
scarce. Alaskans want--and in many places, need--access to sustainable, 
vibrant fisheries. Once fishing jobs are lost, families must relocate 
to seek employment elsewhere. Working with fishermen from outside 
Alaska, I see the same dependence in the rural areas of Maine, Oregon, 
and North Carolina--in fact, all around our country. Losing access 
means losing a way of life and, ultimately, losing community. Alaska, 
and the rest of the country, cannot afford to lose these jobs, these 
small businesses, or these coastal communities.
    And yet, efforts to weaken MSA stock rebuilding requirements do not 
protect coastal fishing communities in the long run--fishing 
communities can neither thrive nor survive without fish. Overfishing is 
not ``modern'' and ``flexibility'' should not be code for overfishing. 
Although rebuilding requirements have imposed a measure of short-term 
economic pain, the requirements have also contributed to restoring more 
than 40 overfished stocks to healthy, sustainable levels since 2000. 
Rebuilding these stocks has had significant ecological and 
socioeconomic benefit, including an 18 percent increase in the value of 
commercially landed seafood nation-wide between 2005 and 2014 (adjusted 
for inflation).\4\ Current language in the Act allows exceptions to the 
10 year rebuilding timeline and allows managers to tailor rebuilding 
plans to a fish stock's specific biological and ecological needs. In 
practice, the average time period in rebuilding plans is almost 20 
years.\5\ In short, the Act provides reasonable flexibility while still 
prioritizing resource health and we firmly support that balance and 
mandate.
---------------------------------------------------------------------------
    \4\ NOAA Fisheries, ``Fisheries Economics of the United States 
2014; https://www.st
.nmfs.noaa.gov/Assets/economics/publications/FEUS/FEUS-2014/Report-and-
chapters/FEUS-2014-FINAL-v5.pdf
    \5\ NRDC, ``Bringing Back the Fish,'' 2013.
---------------------------------------------------------------------------
    Rebuilding fish populations benefits not only fish and fishermen, 
but also those who are part of the larger seafood economy, including 
the chefs, restaurants, retailers, and other seafood businesses that 
rely on a steady supply of seafood. As U.S. consumers increasingly 
demand sustainably managed and caught seafood, the conservation 
requirements of the MSA are a win for both business owners and their 
customers. In 2014, U.S. consumers spent an estimated $91.7 billion for 
fishery products, $61.4 billion of which went to restaurant and other 
food service establishments.\6\
---------------------------------------------------------------------------
    \6\ NOAA Fisheries, ``Fisheries of the United States 2014; http://
www.st.nmfs.noaa.gov/Assets/commercial/fus/fus14/documents/FUS2014.pdf
---------------------------------------------------------------------------
    The benefits of ending overfishing and rebuilding overfished 
populations are far-reaching, and the costs of delaying rebuilding are 
significant. In 2011, the National Oceanic and Atmospheric 
Administration (NOAA) estimated that rebuilding all U.S. fish stocks 
would generate an additional $31 billion in sales, support an 
additional 500,000 jobs, and increase the revenue that fishermen 
receive at the dock by 2.2 billion dollars.\7\
---------------------------------------------------------------------------
    \7\ Eric Schwaab, Assistant Administrator, National Marine 
Fisheries Service, ``Written Statement on Eight Bills That Would Amend 
the Magnuson-Stevens Fishery Conservation and Management Act before the 
House Committee on Natural Resources,'' December 1, 2011, 
www.legislative.noaa.gov/Testimony/Schwaab120111.pdf.
---------------------------------------------------------------------------
    I would emphasize that successful rebuilding of a fishery resource, 
and sustainable management more generally, demands well-funded stock 
assessment, accurate catch accounting across all sectors, and a 
commitment from all sectors to share in conserving the resource. In 
Alaska, we spent 15 years grappling with the conundrum of a rapidly 
increasing charter or guided sport halibut harvest juxtaposed on a 
rapidly declining halibut resource. After Alaska's commercial halibut 
fishermen took a 50 to 76 percent reduction in their individual quotas, 
the courts ruled in favor of shared conservation and a rational halibut 
management plan that bases annual catch limits for both commercial and 
guided sport sectors on resource abundance. I understand from fishermen 
in other areas that Alaska is not alone in confronting recreational 
allocation overages--the Gulf snapper battles are legendary, and in the 
Gulf of Maine the recreational sector exceeded its cod allocation last 
year by 92 percent. Again--there is no future for any sector if one 
sector continues to overfish or exceed resource allocations. All 
sectors must conserve in times of low abundance. Of course, catch 
accounting across all sectors must also be accurate and allocation 
management effective. With this in mind, the Coalition respectfully 
asks Congress remain committed to sustainable fisheries management that 
holds all sectors accountable for catch, and that efforts to exempt 
certain fisheries or sectors from MSA mandates be rejected.
Support Young Fishermen and Community-based Fisheries
    Even as we recognize these successes and recommit to healthy 
fisheries, our Coalition maintains that more needs to be done to 
address the challenges faced by independent fishermen and coastal 
fishing communities. Young people face daunting obstacles to entering 
and being successful in today's fisheries. Limited access programs have 
raised costs and reduced fleet size, Council analysis quantifies 
economic returns but struggles to capture social and cultural values, 
and regulations designed for industrial fisheries are unworkable on 
small family operations. And yet, fishing is the life blood of coastal 
Alaska and of coastal communities around the nation, and neither our 
state nor our Nation can afford to lose these jobs and this economic 
driver. Strong, resilient and profitable fisheries and fishing 
communities must be a goal of this reauthorization. Congress has 
established National Standards and guidelines that highlight the 
importance of small fishing businesses and coastal communities, but we 
have not yet realized the promise of these mandates.
Too few fishermen
    Prior to the implementation of limited access programs, young 
people needed a boat, some fishing gear, and a sense of adventure to 
get started in the fishing business. Today young fishermen face 
staggering entry level costs and a level of risk that is equivalent to 
buying a starter hotel, instead of a starter house, as the first step 
in home-ownership. These costs, along with the nation-wide focus on 
reducing the size of fishing fleets, has created a crisis in rural 
fishing communities. Using Alaska as an example: since 1995, when the 
Alaska halibut/sablefish individual fishing quota program was 
implemented, the number of vessels participating in Alaska's halibut 
and sablefish fisheries has dropped by over 50 percent, with most of 
that loss coming from rural communities.\8\ Reductions in the Bering 
Sea crab fleet were even more dramatic and happened far more quickly. 
Reduced fleet size means less job on boats, less jobs in support 
sectors and less product delivered to smaller more remote ports--in 
short, socioeconomic bankruptcy for isolated communities.
---------------------------------------------------------------------------
    \8\ https://www.npfmc.org/wp-content/PDFdocuments/halibut/
IFQProgramReview-ExecSum
_1216.pdf
---------------------------------------------------------------------------
    Experience has established that the conservation and management 
benefits associated with limited access can be achieved with limited 
consolidation of the fleet and limited consolidation of access 
privileges. With a rational framework for fishing that eliminates the 
race for fish, a healthy resource can support a relatively large fleet, 
which in turn supports harvesting and support sector jobs and coastal 
economies. On a national level, more emphasis needs to be placed on the 
fishery management goal of healthy fishing fleets supporting thriving 
fishing communities. From our perspective, the emphasis on reducing 
fleet size has overshot what is best for our fishing communities and 
ultimately our Nation. In addressing the Limited Access Provisions in 
the Act, we ask that the Committee refocus directives on supporting, 
rather than reducing coastal fishing fleets.
Balancing National Standards
    Congress recognized the importance of community-based fishing 
fleets and fishery dependent communities in National Standard 8 and in 
the Limited Access Privilege Provisions. When the Act was last 
reauthorized, Congress added requirements for cumulative socioeconomic 
impact assessments. In practice, we find that when National Standards 8 
or 9 conflict with National Standard 1, the scales are tipped toward 
National Standard 1 and economic returns rather than toward National 
Standard 8 and providing for fishery dependent communities. Not 
surprisingly, the council analytical system is far better at 
quantifying economic impact than at capturing cultural value and 
socioeconomic dependence. As a result, these social values do not drive 
council decision-making.
    To provide another example from Alaska, three years ago, the stage 
was set for the traditional halibut fishermen of the Pribilof Islands 
to be shut down while groundfish fisheries took all the available 
halibut resource as bycatch immediately off the coast of these isolated 
Bering Sea islands. This unacceptable situation was caused by the 
mismatch of a dramatically declining abundance of halibut in the Bering 
Sea, generally static trawl bycatch caps, and a management process that 
awards available halibut resource to bycatch uses as a priority over 
the directed fishery.\9\ In response, the North Pacific Council 
initiated action to reduce bycatch caps and launched an analysis. The 
analysis assumed a bycatch cap reduction would result in forgone 
groundfish harvest and quantified the potential economic cost, but 
quantifying the socioeconomic and cultural dependence of Bering Sea 
communities on the halibut resource was beyond the scope of the 
analysis and largely missed.
---------------------------------------------------------------------------
    \9\ The IPHC does not control bycatch in the groundfish fisheries, 
hence estimated or forecast bycatch is annually deducted from the 
available halibut harvest before catch limits for the directed halibut 
fisheries are set.
---------------------------------------------------------------------------
    As you know, the Pribilof Islands are surrounded by the Bering Sea; 
the 75 square miles of land are occupied by less than 600 people and 
lie approximately 200 sea miles from the closest land. A fisherman who 
cannot fish has very few alternative economic opportunities, and the 
family dependent on that fishermen likewise has few options. And yet 
this extreme dependence, as well as the importance of this fishery to 
other Bering Sea halibut fishermen, was largely missed in the Council's 
analysis. The Council adopted a moderate reduction that left the 
traditional fishermen at great risk. Thanks to the voluntary bycatch 
reductions achieved by the flatfish trawl fleet, the Pribilof fishermen 
were able to harvest a modest amount of halibut, but their future is 
still in jeopardy. The Council is currently considering an abundance-
based bycatch management amendment, but we are concerned that this 
analysis will once again fall short of capturing the cultural 
importance and socioeconomic dependence of the Bering Sea fishing 
community on the halibut resource. We believe the management process on 
a national level would be significantly strengthened by more robust 
socioeconomic analysis, and that the future of our coastal fishermen 
depends on it.
    In reauthorizing MSA, we request that the Committee emphasize the 
necessity of collecting robust socioeconomic data and performing 
comprehensive socioeconomic analysis. We also ask that you provide 
guidance regarding competing objectives and standards, and that 
heightened importance be placed on National Standard 8.
At-sea monitoring and electronic monitoring
    Promoting and sustaining the access of community based fishermen 
also demands regulations be designed to work on small boats. Commercial 
fishermen operate in a highly-regulated environment, and one that seems 
increasingly challenging to small businesses. At-sea catch monitoring 
provides a good example.
    The North Pacific has an industry funded observer program that was 
restructured in 2013. Among other changes, the restructured observer 
program expanded coverage to include the halibut fleet and sablefish 
vessels under 60 feet in length. NMFS clarified that the agency's 
``primary monitoring need'' for the halibut/sablefish fleet was ``total 
catch composition and species discards, to complement the existing IPHC 
dockside monitoring program.'' \10\
---------------------------------------------------------------------------
    \10\ http://alaskafisheries.noaa.gov/npfmc/PDFdocuments/
conservation_issues/Observer/311_
OACreport.pdf
---------------------------------------------------------------------------
    Small boats represent 90 percent of the vessels directly regulated 
under the restructured observer program, and placing human observers on 
these vessels presents special problems. Living space on small boats is 
cramped at best. Fishermen, fisher women, and fishing families spend 
months living in a space that is roughly equivalent in size to a 
station wagon. Fishing time is weather-dependent, and boats can wait in 
town for weeks for fishable weather. Few boats have an extra bunk to 
offer an observer, and almost none can provide privacy. Observers need 
space for their sampling equipment and room to work both on deck and in 
cramped living quarters. In sum, human observers impose costs, safety 
issues, disruptions for small fishing boats and their crews.
    In contrast, electronic monitoring systems (EM) collect necessary 
data without any of these issues. An EM unit sits idle while the boat 
waits for safe fishing weather, requiring neither a hotel nor food. EM 
units do not get seasick, they do not need bunk space, nor are they 
precluded from working on deck by safety concerns during particularly 
rough weather.\11\ Vessel owners do not have to buy additional safety 
equipment or purchase liability insurance for EM units. EM 
automatically turns on when a boat sets or hauls gear, providing an 
accurate and re-creatable record of catch. In short, EM is the small 
boat solution to at-sea monitoring and an essential alternative where 
at sea monitoring of catch is required.
---------------------------------------------------------------------------
    \11\ http://www.afsc.noaa.gov/Publications/AFSC-TM/NOAA-TM-AFSC-
213.pdf. See page 54.
---------------------------------------------------------------------------
    We suggest that Congress direct NMFS to work with the councils and 
stakeholders to develop catch monitoring programs that are: (1) cost 
effective, (2) fleet compatible, and (3) designed to meet management 
objectives specific to the fishery. Where small boats are involved, we 
believe an EM alternative is imperative. When EM is incorporated, 
regions should clarify whether the primary use of the technology is 
catch accounting or compliance/enforcement. When a program is designed 
to support catch accounting, EM data storage requirements should not 
exceed one year. Storage beyond one year is unnecessary for catch 
accounting purposes, since catch information annually informs the 
following year's quota setting process, but significantly increases 
costs. If catch accounting is the primary purpose of the program, then 
any compliance/enforcement function associated with the program should 
be designed to occur within the one-year time frame.
    Finally, as Councils evaluate how to restructure at-sea monitoring 
programs and develop options appropriate for coastal fishermen, stable-
supplemental funding to assist Councils through the process is critical 
for success. To facilitate planning, we suggest that each Council 
develop and submit for review a transition work plan that identifies 
priority species for at-sea monitoring, target coverage levels, target 
funding sources, and a timeline for implementation. It should be 
recognized from the start that evaluating and improving at-sea 
monitoring is an iterative and evolving process demanding periodic 
updating to reflect evolving program goals and timelines. Including 
target coverage levels and potential funding sources will aid in 
identifying supplemental funding needs. To ensure transparency and 
stakeholder acceptance, these documents should be developed using the 
Council process and should not be internal NMFS documents.
    All stakeholders benefit from good at-sea monitoring data through 
improved stock assessments and reliable catch accounting. Given the 
magnitude of guided sport catch in many parts of the country, the 
Halibut Coalition recommends the Committee consider extending at-sea 
monitoring requirements to this segment of the recreational sector. EM 
systems are likely the appropriate tool to consider for guided sport 
boats, but a catch monitoring system should be designed with the full 
engagement of the guided sport operators. As is the case with our small 
boat sector, cost effectiveness and operational compatibility are 
critical to securing quality data while minimizing cost.
Summary
    To summarize, the Halibut Coalition recognizes that the MSA created 
a successful management structure for our Nation's fisheries and that 
we have benefited from that success in the North Pacific. The 
heightened emphasis on resource rebuilding that was central to the last 
reauthorization is still essential to long-term resource health and we 
ask that Congress recommit to conservation goals. We believe that 
effective, comprehensive and well supported application of MSA 
requirements across all sectors is essential. Comprehensive stock 
assessment, representative catch monitoring and accurate catch 
accounting across all sectors should be a goal of this reauthorization.
    We ask that the Committee also recognize and address the 
significant challenges faced by young fishermen and the growing impact 
to rural communities of lost fishing access. Decision-makers would 
benefit from more robust socioeconomic analysis that captures cultural 
importance and community dependence on fisheries. Coastal fishing 
communities need relatively large fleets that provide jobs, revenue and 
long-term viability. Young fishermen need entry-level opportunities, 
sustained access, and a regulatory system that accommodates the scale 
of their operations. We urge the Committee to consider amendments that 
improve socioeconomic data collection, and direct NMFS to work closely 
with stakeholders to design cost effective and fleet compatible 
regulations; for example, including EM as an alternative to observers. 
Finally, we urge the Committee to help our fishery dependent 
communities realize the promise of National Standard 8--not by 
compromising resource health but by heightening the importance of 
coastal residents' access to local fisheries and effectively providing 
for that access.
    Again, thank you for this opportunity to testify.

    Senator Sullivan. Sure. Thank you. Well, thank you, Ms. 
Behnken, for your testimony and I agree one hundred percent 
with the next generation idea that you were talking about for 
our fishermen, not only in Alaska, but throughout the country.
    Mr. Alstrom.

 STATEMENT OF RAGNAR ALSTROM, EXECUTIVE DIRECTOR, YUKON DELTA 
               FISHERIES DEVELOPMENT ASSOCIATION

    Mr. Alstrom. Senator Sullivan, my name is Ragnar Alstrom. I 
am the Executive Director of the Yukon Delta Fisheries 
Development Association, a Community Development Quota group. I 
would like to thank you for inviting me to testify today.
    Since its inception, the Community Development Quota 
program has been successful in delivering benefits and economic 
development to its communities. And that is whether those 
communities are in Atka, with Atka Pride Seafoods providing a 
market and a viable economy to that village, or whether it is 
in the village, one of my villages, Emmonak, which provides a 
market for 500 salmon fishermen and 500 employees.
    The program is widespread across western Alaska with 
varying conditions. I think the benefit of the CDQ program has 
been successful in bringing those benefits offshore onshore.
    Western Alaska, as you know, Senator, a lot of the projects 
in western Alaska have to be subsidized. Maybe subsidized is 
not the right word. The return on investment is not as great as 
what we look to offshore.
    If it was not for the program, I will speak to the Yukon 
Delta, there would be nothing there. I mean, it is scary. Not 
to denigrate or say anything bad about the regional Native 
corporations, or the village corporations, or the 
nongovernmental nonprofits there.
    The only thing that has been working is the CDQ program. It 
does not matter if it is in Norton Sound, or if it is in Yukon 
Delta, or if it is in Bristol Bay. What has been working for 
the average person on the street is this program. I can ramble 
for more than 5 minutes on this.
    When I see a young person, they actually get taller because 
we provide them training, a job, or other benefits there. I can 
go on forever. There are dire needs out there. We have a very 
young population out there in any one of those regions.
    High poverty rates, social problems leading to suicides. We 
had two young ladies in the last 6 weeks in Mt. Village, 19 and 
23, commit suicide. Another young man in Alakanuk, my village, 
that committed suicide. Alcoholism rates are high. But when you 
provide training and you provide jobs, which the CDQ does, we 
are not addressing all of the problems, but it is the program 
that is working the best.
    How is the Magnuson-Stevens Act working for us? I think one 
thing the groups can agree on is we would like to see an 
overall program. We would like to see stability. Now that is 
not to say there are problems out there. There are some CDQ 
groups that would like to revisit allocations based on 
population. Or another might want to revisit allocations based 
on proximity to the resource.
    Yukon Delta, we can hang our hat on that we would like to 
revisit allocations based on poverty. I think I am the only one 
in here that we have infrastructure needs in our villages. I am 
the only one in here that uses a honey bucket, for instance. I 
know we got good Federal money coming for that, but that is 
just an example.
    But getting back to the reallocation of this, when 
allocations were set, there were 20 criteria, and to go through 
and pick one or the other; maybe it is time. It has been 25 
years since the program started. Maybe it is time to do that. 
But maybe the forum is not here. Maybe the forum is at the 
Western Alaska Community Development Association within that 
CDQ panel group, there may never be agreement on reallocations. 
For one, you have to take from someone else and so it is 
extremely controversial.
    I can go on. I see my time is up. Thank you, Senator.
    [The prepared statement of Mr. Alstrom follows:]

       Prepared Statement of Ragnar Alstrom, Executive Director, 
             Yukon Delta Fisheries Development Association
    Mister Chairman:

    My name is Ragnar Alstrom, Executive Director of Yukon Delta 
Fisheries Development Association. Senator Sullivan, I would like to 
thank you and the members of your committee for inviting me to testify 
today. I would also like to thank the other five CDQ organizations for 
allowing me to represent them in this hearing. It is an honor and a 
privilege.
    For the past 25 years, I have been fortunate to witness and 
participate in the community development quota program from its 
inception in 1992, when I was one of the founding board members of 
YDFDA, to its present state today.
    The CDQ Program started in the fall of 1992 based on a North 
Pacific Fishery Management Council motion that created the CDQ Program, 
State of Alaska emergency regulations and quickly drafted National 
Marine Fishery Service regulations. The goal was to allow the six newly 
created CDQ groups to have their new pollock harvesting partners start 
pollock fishing in December, 1992 such that they could get badly needed 
cash and start their work doing economic development in their 
communities. We have come a long way since then.
    The premise of the CDQ program is to ensure that Bering Sea coastal 
communities and their residents should have an opportunity to benefit 
from the vest Federal fishery resource adjacent to their geographic 
location. The North Pacific Fisheries Management Council, as well as 
many in Alaska and in Washington, D.C. believed that at least some of 
the benefits of these Bering Sea fisheries should come onshore to 
benefit western Alaskans, instead of allowing most of the benefits to 
flow to fleet owners far from Alaska. The Alaska Congressional 
delegation advanced the CDQ program into the Magnuson Stevens Act in 
1996. We are all formed as IRS 501(c)(3) or 501(c)(4) Alaska non-profit 
entities.
    25 years ago, our communities and their residents lacked the 
capital to invest in the fishing industry taking place right off their 
coast. It is different today. The CDQ program has enabled western 
Alaska communities and their residents to directly participate in the 
Alaska commercial fishing industry, either individually or through 
their CDQ organization. Now, on an annual basis, the CDQ program 
provides more than 5,500 jobs for local residents and over $60 million 
in wages and other income. Much more in addition is spent each year 
providing training and scholarships for vocational and higher 
education.
    The genius of the CDQ program, and its effectiveness in providing 
real benefits in our region, is that, through the CDQ fishery 
allocations as set forth in the MSA and our subsequent investments in 
the fisheries, our communities have actual ownership of the fishery 
allocations to do with as they saw fit, instead of an outside, top-down 
imposition of an economic development plan that may not be appropriate 
for an individual region. That is a huge difference as each groups' 
board of directors and administration decide how to use the fishery 
allocation revenue stream instead of being told how to use it.
    The CDQ program is also the largest Alaska presence in the BSAI 
fisheries. While the BSAI fleet is consolidating across the board, from 
20 offshore factory trawlers in 2000 to 14 today and from 230 crab 
vessels in 2001 (pre-rationalization) to only approximately 79 today, 
the CDQ program represents the primary Alaska ownership in the BSAI 
fisheries. We bring the revenue from this ownership onshore to Alaska 
with benefits to our residents in western Alaska, as well as benefits 
across the state to other employees, suppliers and industry 
professionals.
    We are also embedded in the Seattle fleet as co-owners and co-
participants in the fishing industry. We are proud to be a part of the 
Seattle-based fishing industry and count many good friends there.
    However, being big or important is not our goal. Our goal is to 
make an impact in our 65 communities. The need in our communities is so 
great. Our poverty measurement statistics are some of the worse in the 
United States and even exceed the poverty metrics in New Orleans' lower 
9th ward. In Alakanuk, where I live, 44.6 percent live below the 
national poverty level poverty, the median household income is $32,917, 
and perhaps most telling, 52 percent of the people over 16 are not in 
the labor force. (All sources 2015 American Community Survey).
    YDFDA's communities are 95 percent Alaska native. Other CDQ groups 
have a similar makeup. However, unlike Alaska Native Corporations and 
the tribal entities in our region, the CDQ program is not race based. 
The CDQ program's benefits are available to all residents of our 
eligible communities regardless of race. This is an important 
distinction.
    Another important distinction is that the CDQ program's purpose is 
to provide economic development in our communities, and not to serve as 
a transfer payment center or an adjunct funding source for local 
municipalities. With many of our communities growing in population, and 
with state and Federal funding decreasing, our role has become more 
central in our communities and perhaps irreplaceable. For example, in 
2016 YDFDA provided 615 jobs, and fishing opportunities for 498 
fishermen. Overall last year, YDFDA directly impacted 1,493 of our 
region's 3,200 residents through jobs, training and scholarships, 
investing $10,217,706 into our communities and the surrounding region 
last year. YDFDA is the largest private employer in our region.
    YDFDA is doing, and all of the other 5 CDQ groups are doing, 
exactly what they were intended to do by Congress, provide real 
economic development opportunities in Western Alaska in a self-directed 
manner.
    On issues of significance to the Magnuson-Stevens Act, we have the 
following comments:
Program Stability
    The MSA is working well for the CDQ program and for the State of 
Alaska. Through the MSA's Council process, resource and allocation 
issues are painstakingly analyzed and acted upon with an open and 
transparent process. Stability is key when participating in a capital 
intensive and dynamic business like the global fishery market and our 
stable statutory and regulatory process make it possible for our 
program and the BSAI fisheries to be productive.
Maintain CDQ Program Structure
    This basic structure of the CDQ program, to benefit western Alaska 
communities from the Aleutians to Cape Prince of Wales that border the 
Bering Sea and inland fifty miles remains sound. Any change to the 
structure would weaken the CDQ program's support and potentially 
jeopardize the program.
Council Recusal Legislation
    All six of the CDQ groups are in support of Congressional action to 
address the fisheries council recusal process. Present regulations and 
interpretation require that if a Council member's employer has any 
interest in a fishing company or companies, and those companies 
represent 10 percent or more of the total harvest or vessels used for a 
harvest in a fishery that is the subject of an action, he or she is 
forced to recuse themselves from voting on such an action. In our 
opinion, this regulatory structure is outdated, not evenly applied and 
has recently preventing several voting members of the North Pacific 
Fishery Management Council from voting on important issues such as 
halibut bycatch.
    Recently, the council members affected by these attribution 
prohibitions are Alaskan and often times they include the Council 
member that is employed by a CDQ company. Each Council member is 
appointed to the Council because they have a financial conflict: we 
want people with relevant experience guiding our fisheries. There are 
very strong arguments that an employee of a company such as a CDQ group 
is often less conflicted than other Council member personally invested 
in a fishery such as IFQ halibut. However, the current regulatory 
approach is not evenly applied, it effectively serves to exempt from 
this regulatory oversight certain fishery sectors and positions, such 
as consultants, while applying to other sectors. We ask that the 
Congress work with affected parties and NMFS to see of if there are 
meaningful changes to the recusal and conflict regulations that would 
protect the integrity of the council process while still allowing the 
input from Alaska that was intended by the MSA when creating the 
council system.
CDQ Functionality
    In 2006, Congress amended the MSA by adding and changing several 
provisions that govern the CDQ program. One of the most important was 
the creation of the CDQ Panel also known as the Western Alaska 
Community Development Association or WACDA. WACDA was empowered to 
govern all aspects of the CDQ Program not specifically addressed in 
statute. More broadly, we also intended it to act as the representative 
body for interaction with Congress, regulatory agencies and the public.
    When it was formed, WACDA developed protocols and interpretations 
of the MSA's statutory requirements. In keeping with our broader goals, 
WACDA hired executive directors, engaged with State and Federal 
agencies, partners in the fishing industry, and charitable 
organizations, and participated heavily on behalf of the CDQ Program 
with regulatory bodies such as the National Marine Fisheries Service 
and the North Pacific Fishery Management Council.
    Over time, WACDA's unanimous consent requirement in the MSA has 
proven to be problematic and WACDA has ceased to function in any 
meaningful way. However, recently, all six groups met and agreed that 
they had to reestablish WACDA as an effective organization to fulfill 
the goals set out in the MSA. While the exact methodology for working 
together has not yet been agreed upon, we are heartened by the desire 
of all six groups to make WACDA functional again.
Conclusion
    Today, the six CDQ organizations serve as owners or joint venture 
partners in shoreside seafood processing facilities, at-sea catcher 
processor vessels, large and small shoreside catcher vessels, seafood 
marketing companies, and a host of other businesses directly related to 
the commercial fishing industry. In many instances, these investments 
are located at the community level, where they generate local 
employment, wages, pay community taxes, and stimulate the local 
economy. To the extent that investments are outside of the our 
individual regions, they generate revenue to the CDQ company for 
overall use within the program and serve to stabilize the CDQ 
corporation by diversifying investments. They also provide significant 
employment and career path opportunities for local residents.
    None of this would have been possible without the CDQ program. Our 
main message to you today is that the MSA is working well for us now 
and we hope that in your reauthorization efforts you will seek to 
maintain stability in the MSA to allow the CDQ program to continue to 
do its work in western Alaska.
    Thank you again for providing me with the opportunity to testify 
today.

    Senator Sullivan. Thank you, Mr. Alstrom.
    Mr. Stevens.

 STATEMENT OF BEN STEVENS, DIRECTOR, HUNTING AND FISHING TASK 
                FORCE, TANANA CHIEFS CONFERENCE

    Mr. Stevens. Senator Sullivan, thank you very kindly for 
the opportunity.
    My name is Ben Stevens. I am from Stevens Village, Alaska. 
Stevens Village is north of Fairbanks on the Yukon River. I 
serve the people of the interior as the Director of the Hunting 
and Fishing Task Force at Tanana Chiefs. We represent some 37 
villages and tribes that also include a little over 40 
communities. I also serve on the advisory panel to the North 
Pacific Fisheries Management Council.
    I am what is considered a tribal subsistence fisher person, 
fisherman. Essentially the way that I see that is just a guy 
that takes the fish out of the water and puts it on the table 
for his family. So I am a little different in terms of what I 
think the Council is used to.
    I am here to talk about that perspective being reflected in 
the new Magnuson-Stevens Act. Last month, we had the privilege, 
I call it a privilege, to take our families and some tribal 
members out to our family's fish camp. In fact, I think I ran 
into you at the Yukon River Bridge. You were going downriver to 
your camp. I was going upriver to mine. And we saw a whole new 
picture of the people.
    Some of the tribal members we took, like you can probably 
relate to, are just in a rough way, in a very rough way. And 
the way that we interact on the land, on the river is something 
that gives people hope, and that is what we saw, what I saw out 
there as is normal for me, but it goes beyond that.
    Our kids are learning that fish camp culture. They are 
learning the traditions. I had one kid move from the gutting 
station to the filleting table. Another kid moved from that 
filleting table over to the cutting table where we do the 
salmon strips. These kids are growing. They are 12, 13 years 
old and they are packing rifles, and they are protecting the 
camp. So I am seeing so much good and I hear you. We are seeing 
so much good to that.
    Some guy I pulled off the street in Fairbanks. He sat on 
the bank and enjoyed the peace and the safety of the camp, so 
far from the hazards of being homeless on the streets of 
Fairbanks. There are so many more benefits that I can expound 
upon, but I only have a few seconds here.
    We were lucky this year because our family was able to 
fully participate in the process of harvesting and cutting the 
fish and drying it. Since, I mean, the past decade, we have had 
problems. Five families were at our fish camp. They, in turn, 
took their share and went back to their extended families, and 
it just multiplied that love of the fish camp, the subsistence 
fish camp.
    I believe that this is a sector itself and I do not think 
that this sector is adequately represented in Magnuson-Stevens 
Act. And what I am thinking is that I truly believe that 
fisheries management could benefit from the indigenous 
perspective.
    First, we have generations of knowledge about the land and 
the animals that goes beyond our understanding. It is just a 
matter of us trying to figure out a way to fit that with 
western science.
    Second, we do have a stake in the fisheries. Salmon is a 
staple of our people, constituting the majority of the 
subsistence harvest of fish annually. According to the Federal 
Subsistence Management program, the State's rural residents 
harvest about 18,000 tons of wild foods a year; so a little 
under 300 pounds per person, 56 percent of that is fish.
    Nowhere else in the United States is there such a heavy 
reliance upon wild foods. That is putting your hand on the 
fire. That is one of the reasons why I think that we may be 
underrepresented.
    And my final point is that fish goes far beyond feeding us, 
far beyond sustenance. I think it touches our wellness as 
Alaskan Native people because it does get us around the 
disenfranchisement with the land and the animals.
    With that, sir, I thank you for your time.
    [The prepared statement of Mr. Stevens follows:]

 Prepared Statement of Ben Stevens, Director, Hunting and Fishing Task 
                    Force, Tanana Chiefs Conference
    Senator Thune, Ranking Member Nelson and members of the Committee, 
thank you for the opportunity to testify today. My name is Ben Stevens, 
I am Koyukon Athabascan and a lifelong subsistence fisherman from the 
community of Stevens Village, on the Upper Yukon River. I grew up 
spending summers at my family's fish camp 30 miles upriver from Stevens 
Village and today I spend summers there with my own children, 
harvesting the winter's supply of fish. Salmon is a deep part of my 
heritage and culture, and fish camp is an integral part of this, where 
we live the values of caring for family and community, self-
sufficiency, hard work and sharing.
    I am speaking from that perspective: that of the subsistence 
fisherman, taking a fish from the water and putting it on my family's 
dinner table. I also speak from my role as the Director of the Hunting 
and Fishing Task Force for Tanana Chiefs Conference, the regional non-
profit and tribal consortium for 40 villages, including 37 Tribes of 
Interior Alaska in the Yukon and Kuskokwim watersheds. I also currently 
serve on the Advisory Panel to the North Pacific Fishery Management 
Council, but my comments do not represent the opinion of the AP or 
Council.
    I'm here to ask that you include the Subsistence sector into the 
new Magnuson-Stevens Act (MSA) and for continued vigilance.
Why include Subsistence and Tribal Interests in the Fishery Management 
        Process?
    Subsistence is an economy; it is a sector. There have been attempts 
to quantify subsistence harvest into economic terms with varying 
degrees of success; however, it is an economy of immense importance to 
the people of Alaska. According to the Federal Subsistence Management 
Program, ``Subsistence fishing and hunting provide a large share of the 
food consumed in rural Alaska. The state's rural residents harvest 
about 18,000 tons of wild foods each year--and average of 295 pounds 
per person. Fish makes up about 56 percent of this harvest statewide.'' 
Nowhere else in the Unites States is there such a heavy reliance upon 
wild foods. This fact itself begs serious consideration for 
representation at the North Pacific Fisheries Management Council (the 
Council).
    Furthermore, while our region may live far from the ocean, the 
species we depend on as primary components of our livelihoods are 
inextricably linked to the productivity and health of our marine 
environment and fisheries. In Alaska, the Council manages many 
fisheries including several groundfish fisheries which impact important 
subsistence species, such as salmon and halibut as bycatch. The 
fisheries managed by the Council also have significant habitat and 
ecosystem impacts on important subsistence species, including both fish 
and marine mammals.
    The Council--and the MSA--therefore has direct management impacts 
on species of importance to tribal subsistence users. However, 
subsistence is notably absent from the current Act: the word 
``subsistence'' only appears once (in reference to the West Pacific), 
and subsistence users are not represented throughout the Council 
system. While Washington tribes have a designated seat on the Pacific 
Council, tribes in the North Pacific do not have a designated seat. We 
recommend that the MSA be amended to include subsistence throughout and 
provide for tribal/subsistence representation on the North Pacific 
Council.
    This would also provide an opportunity for inclusion of indigenous 
knowledge throughout the Council process. At a minimum, subsistence 
interests should be one of the groups Council membership must be 
balanced between, in addition to commercial and recreational fisheries.
    Overall, we support the current MSA; however, we believe that the 
MSA fishery management system can be strengthened through inclusion of 
subsistence, subsistence needs and traditional knowledge to supplement 
and fine-tune the science-based fisheries management.
Science-based Fishery Management Works
    Overall, the MSA's framework for science-based fisheries management 
is working. The current Act has successfully ended overfishing in most 
American fisheries, and has successfully rebuilt 39 once-overfished 
stocks. For subsistence communities, long-term sustainability of our 
resources is critical, and this means using science to set catch 
limits, and requiring accountability measures to rebuild when needed. 
Setting catch limits based on science to prevent overfishing, and 
requiring rebuilding plans to rebuild depleted fish populations are 
common sense provisions which support healthy ecosystems, communities 
and fisheries. While this can mean a bit of pain now for communities 
reliant on fisheries for food and/or income, the long-term benefits of 
maintaining healthy fisheries are well worth it.
    For example, the Chinook salmon in our region have been in decline 
for over a decade, with record low returns in recent years. While this 
fishery is managed by the State of Alaska, not under MSA, the 
principles of rebuilding are well-illustrated here. Our communities 
have taken huge reductions in our subsistence harvest of Chinook salmon 
in recent years, with a harvest of zero in some years. Sacrificing our 
Chinook salmon harvests has been difficult, even painful, as we've lost 
not only an important source of food, but a key component of our 
culture as well. The sight of an empty fish camp is truly a tragic 
sight. Yet for our communities there is no doubt that we had to do 
this--when the fish aren't there, if you care about the long-term 
sustainability of the stock you need to give them a chance to recover. 
This is the heart of the science-based principles of the MSA.
    While we wholeheartedly oppose any attempts to weaken Science based 
Fisheries Management as the backbone of U.S. fisheries management we do 
believe it can be further strengthened by including the traditional 
knowledge and community based observations from subsistence users along 
the river.
Strengthening Requirements to Reduce Bycatch
    In our villages, up and down the Yukon River, and in countless 
places throughout Alaska, our communities depend on salmon. While these 
salmon fisheries aren't managed under the MSA, the MSA does manage the 
groundfish fisheries which catch salmon as bycatch. Salmon bycatch in 
the Bering Sea Pollock fisheries has been a central concern for us for 
years and the degree to which bycatch played a role in historic 
declines of Chinook salmon is very much an open question. We are 
grateful that bycatch has been reduced significantly in recent years--
from a high of 124,000 in 2007 to 22,000 in 2016--due in part to a 
response to a complex set of management regimes put in place by the 
North Pacific Fishery Management Council, noting the enormous efforts 
of the Pollock fishery and their attempts to avoid Chinook salmon. 
However, the high limit on permissible bycatch (up to 47,591 Chinook 
salmon unless it is a low abundance year, and as high as 60,000 Chinook 
salmon in 2 out of any 7 years), is still alarmingly high at a time 
when Chinook salmon stocks throughout Western Alaska are either 
continuing to rebuild or continue to be at dangerously low levels, as 
on the Kuskokwim River. While National Standard 9 requires that bycatch 
be minimized or mortality minimized, the statutory requirements clearly 
have been strong enough given the high levels of bycatch which have 
been and are permissible under this standard. This creates a grave 
inequity in fisheries such as the groundfish fishery where species of 
tremendous cultural, subsistence, commercial and recreational value 
such as salmon and halibut are caught as bycatch. Furthermore, the 
manner in which National Standard 9 is balanced against that of 
National Standard 1 to achieve optimum yield, results in a situation in 
which reducing bycatch is never the top priority. The MSA should be 
strengthened to require and prioritize bycatch reduction.
Conclusion
    The North Pacific Fishery Management Council is renowned nationally 
and internationally as a leader in fisheries management, and we should 
all be proud of that. Our fisheries resources are a foundation of 
Alaska's culture and economy, and there is a reason the ``Alaska 
model'' of fisheries management was the basis for the 2006 
reauthorization. It is critical that the conservation and management 
provisions of the Act remain strong, and that we retain the commitment 
to science-based management on which our fisheries management system is 
based. In Alaska we've shown that science-based Federal fisheries 
management works, and we should continue as a nation to strive for that 
standard, rather than lowering the bar.
    Any changes in this reauthorization should move towards 
strengthening the Act, not weakening it further. Including subsistence 
and subsistence users in the Act will not only integrate an important 
user group which is currently left out of the Act, but will enhance and 
improve the current system of management.
    Thank you for considering my comments today.

Enclosure: Proposed Amendment to MSA providing subsistence users an 
opportunity at appointment


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Sullivan. Thank you, Mr. Stevens. It was good to 
see you on the Yukon and it is an amazing place, as we all 
know.
    Let me just offer up what I did to the first panel, a very 
simple, but basic, but important question for the purposes of 
this hearing and many of you have already touched on it in your 
testimony.
    What would you hope to see in the MSA reauthorization and 
what are the key issues from your perspective? And I will just 
open that up to all the panelists.
    Mr. Speciale. Thank you, Senator.
    When we look at it, we think we need recreational fishing 
needs identified within the MSA law just so it is specific in 
getting into it.
    Senator Sullivan. Mr. Speciale, you talked about needs. You 
also talked a lot about data and that was one of the questions 
I was going to ask you in particular. So maybe, I will just do 
it now.
    Are the needs mostly based on what you consider as a 
challenge, which is the lack of data as it relates to sports 
fishing and that management aspect?
    Mr. Speciale. Obviously, one part of what we would like to 
see, that is the third item we would say we would need to have 
is a more robust data system. I love coming up to Alaska 
because you guys seem to know everything about the data.
    Senator Sullivan. Is that true, Commissioner?
    [Laughter.]
    Mr. Speciale. I struggle with a few areas of that part of 
it. But I think it needs a more robust system of data 
collection or at least reasonable management approaches because 
sometimes this concept of the best available data is not really 
good.
    Senator Sullivan. Yes.
    Mr. Speciale. Many times in business you see that happen, 
and you can over study things, and they come up with the data 
as opposed to having real information.
    We would like to see a fairer allocation methodology based 
off the economic output. The recreational fishing industry is a 
big, big industry. It is good for the economy of the United 
States. That does not take away from any other industries. It 
just needs to be identified because it is so different.
    I would like the word that the gentleman down here used 
about stability. We need consistency. A guy that buys a boat 
wants to go fishing. He does not want to know one year he is 
going to have a 3-day season, the next year he is going to have 
a 22-day season, and it is not going to be around in the fall. 
He wants to see some consistency in it.
    So I think that is the type of stuff we want to see is just 
identifying that recreational fishing is serious. Allow 
alternative management structures, allow for better data 
collection, and use more modern tools because we all have 
smartphones today. A fairer allocation based off of economics 
and avoid the peaks and valleys.
    Senator Sullivan. Great. Others?
    Ms. Behnken.
    Ms. Behnken. Thank you for that question, Senator.
    First off, our perspective is that the most important part 
of reauthorization has to be to maintain the strong 
conservation underpinnings of the Act.
    Senator Sullivan. Yes.
    Ms. Behnken. Nobody wins if the fish lose, whether you are 
a recreational fishermen, a subsistence fishermen, or a 
commercial fishermen. So that above all.
    And that as we talk about flexibility or alternative tools 
that that is not code for a Modern Fishing Act. There is 
nothing modern about overfishing and alternatives should not 
mean overfishing.
    I guess I would just point out that the average length in 
rebuilding plans right now is 20 years. There has been quite a 
bit of flexibility allowed to make those plans specific to the 
fish in question.
    So in looking at that aspect of the Act, I would certainly 
caution against allowing flexibility to compromise 
conservation.
    I think next, for us, relative to maintaining a great 
fisheries management system is adequate stock assessment. Stock 
assessment that is well-funded, monitoring of all fisheries, 
all sectors so that we know what is coming out of the resource, 
and doing that in a way that fits the fleets that are being 
managed. There are certainly tools, smartphones that were not 
around when we designed the existing monitoring systems that 
can be used with far less burden to the users.
    So we are seeing, as I think Mr. Cotten mentioned, a real 
need up here for additional funding for our observer program, 
for electronic monitoring as we get that program back to where 
it needs to be in terms of coverage levels. So those are very 
important pieces, to me, of this reauthorization process.
    And the last piece of that I would mention would be the 
need for stronger socioeconomic data collection.
    Senator Sullivan. Yes.
    Ms. Behnken. That really gets at this issue of dependency 
in small communities on the resource, whether you are a 
subsistence fishermen, a commercial fishermen, or a CDQ 
fishermen. In those communities, I do not feel like we are 
capturing that.
    As result, decisions are far too often driven by straight 
economics. And that very important culture and social 
dependence on the resource is not driving decisions to the 
extent it needs to do to keep our communities and those jobs in 
those communities healthy and viable.
    Senator Sullivan. Great. Thank you.
    Mr. Reed.
    Mr. Reed. Thank you, Senator. I am also going to talk about 
stock assessments, and surveys, and echo a few people before 
me.
    I think that in my career in seafood and from most peoples 
from Alaska wherever you go, you hear about how well-managed 
Alaska's fisheries are. Sometimes it seems like we might be 
talking to ourselves and it is bouncing back. But I think for 
the most part, it is everyone else we are talking to as well. 
And the reason for that is that we have strong scientific data 
and backup.
    I think the job of the agency is to manage fisheries and 
there are lots of other things that you can do with the money 
that you have available to you, but nothing is more important 
than stock assessments and surveys.
    Historically we have had situations where sometimes a 
politician steps in and is prescriptive in where money should 
be spent when not enough money is going to areas like stock 
assessments and surveys.
    We are supportive enough of those issues to stand up 
conservation, and to stand up our fisheries, and to make sure 
that the fish come first. That that is a good idea in our 
minds, I believe.
    I think I would agree that relative to rebuilding plans, 
there could be more flexibility than just the ten year plan. 
There needs to be more flexibility in rebuilding plans in 
general, but I think that in adding flexibility with 
rebuilding, you still have to put the health of the resource 
first.
    If there comes a time or comes years when fishing is 
curtailed or reduced, regardless of the user group, still put 
the fish first. Suck it up and take the hit so you have a 
resource in the future for those fishermen and their children.
    Senator Sullivan. Mr. Alstrom.
    Mr. Alstrom. Thank you, Senator.
    What we would like to see in the reauthorization as it 
relates to stability with the CDQ program. We would like to see 
the hardened performance caps in the pollock fishery, which 
seems to be working, but we would like to see a periodic review 
of the Yukon River's rebuilding as far as snook returns. But 
there seems to be a problem on the Kuskokwim. And ditto with 
the halibut bycatch limits.
    We are hearing from villages along the coast that halibut 
seem to be moving offshore because of maybe warming waters or 
other factors. We would hate to see that halibut bycatch 
increase. It needs to be continually monitored.
    We would like to see the pollock and crab sock assessments 
continue at a robust level. We would hate to see those testing 
mechanisms reduced.
    Specific to the CDQ program, stability would also include 
keeping that program as-is. The program was envisioned and 
written up to include only those villages which are in 50 
nautical miles that rely on the Bering Sea. Sometimes when you 
have a good program, you expand it, and then what you have is a 
weakened program for everyone. We would like to see that 
program as-is.
    And one last final note is that we would like to see the 
Western Alaska Community Development Association reinvigorated 
so it can, I think, do what Senator Stevens envisioned it would 
do, oversee the CDQ program.
    Senator Sullivan. Great.
    Mr. Alstrom. The CDQ implementation committee that was, I 
believe you directed, I think that is the road I will take in 
addressing that too. Thank you.
    Senator Sullivan. Great. Thank you.
    Mr. Stevens, any thoughts just on the overview question, 
priorities, and what you see as your priorities on MSA 
reauthorization?
    Mr. Stevens. Thanks, Senator.
    I think it is imperative that we include increased travel 
representation. When I first got to the North Pacific Council 
room, I realized right off the bat that it was very thin in 
terms of tribal DNA. There is very, very little. I say that 
with all due respect to the hardworking folks that run the 
operation. But it is what it is.
    And that is what I think that we would like to see. That 
and continued vigilance in terms of balancing sustainability 
and the needs of the world. And, of course, continued vigilance 
surrounding bycatch.
    Senator Sullivan. Good. Thank you.
    Let me get a little more specific. Mr. Reed, you were 
listening to the last panel. There was a lot of discussion on 
data. As a matter of fact, I think, we are seeing one area of 
consensus, data. Sustainability, very, very focused on accurate 
stock assessments as critical no matter what user group you are 
looking at.
    Let me ask you more specifically. You talked about, and in 
your written testimony, talked about provisions related to 
transparency and use of data included in any MSA 
reauthorization.
    There is also, I think, opportunities, but I would like 
your, or any of the witnesses' views to look at cooperative 
research programs that utilize State, or university, or other 
data. So the Feds are not the sole repositories of wisdom on 
the data.
    How do we integrate with other data, make it transparent, 
but also make sure it is reliable? So it has to be good data 
and good science, but to look at opportunities to expand it. 
There are tremendous research institutions that are not the 
Federal Government.
    What is the balance there? What would you like to see? And 
if anyone else has a view on that, I think we are seeing 
consensus on one issue, data funding, which I fully support. 
But also can we cast a broader net on better data that helps us 
all that is not just driven purely by NOAA and NMFS?
    Mr. Reed. Thank you, Senator.
    What I was trying to get at with my comments on that point, 
which I think is a very important point, is that there be 
transparency in the robustness of the data that you are using.
    Senator Sullivan. So that is Federal Government 
transparency? Or if an agency, State or Federal, is making the 
decision based on data, you want to know what that data was?
    Mr. Reed. Yes, sir.
    Senator Sullivan. Is that what you mean by transparency?
    Mr. Reed. It is, exactly.
    I want to know, is it a peer reviewed data set? Is it grey 
literature from an interest group? I think traditionally and 
historically, we look at who funded a study and make 
conclusions without ever reading the study, a lot of times.
    Senator Sullivan. Yes.
    Mr. Reed. And I think that is unfortunate, but I think it 
is true. I think if it is a peer reviewed study, as opposed to 
non-peer reviewed or grey literature, that makes a difference, 
and all of those things should be right out in the open 
regardless of whether it is the Government promoting the use of 
that data to back up their program----
    Senator Sullivan. Yes.
    Mr. Reed.--or whether it is someone from an interested 
sector coming forth and testifying and saying, ``Here is what 
you should do and here is the data that I am using to back it 
up.''
    I think we need to know as much as we can about that when 
we are using it and I think we need to stratify the value of 
that in a consistent way.
    Senator Sullivan. And do you think the current law or 
regulations do not emphasize that transparency enough?
    Mr. Reed. I think the current law emphasizes that.
    I understand there are some initiatives and some interest 
in changing that a little bit, and maybe putting more value and 
less transparency on using data that is not peer reviewed 
necessarily or that is coming from sources that are not 
necessarily required to be revealed.
    I think that what we should do is the opposite of that. We 
should just require the revelation of where it is coming from, 
how it was gathered, what the process was, and then we can fit 
it into the strata of robustness at the very least.
    Senator Sullivan. Let me ask a related question for Mr. 
Speciale. How do you think that Congress can help improve 
angler harvest data, which I know is an issue that you have 
raised?
    Mr. Speciale. We think there is an issue with the data, as 
I say, the output of the decisions and I hear the comments.
    I am not an expert on the legislative policy and regulatory 
processes that is involved with that. But we see the very poor 
output of the information or very weak information being used 
to make decisions. This concept of best available data and 
maybe allowing the standard deviation or allowing the error 
factor to be way, way too large and they are making decisions 
on it.
    Those decisions directly affect people who go boating and 
enjoy the livelihoods of their work and we need to get that 
more robustly built up.
    Senator Sullivan. Do you think particularly from the 
recreational industry side, that that is an issue that depends 
on the state? Is that something where the data is more State-
driven or is it a combination? We believe that the data here is 
not perfect, but it is pretty strong. Is that driven by 
different state approaches?
    Mr. Speciale. I think your State agencies tend to do a 
better job at it than from the Federal level. What we see 
through the State agencies is they tend to manage the 
information better because they are directly communicating with 
the angler.
    The challenge you have with direct fishing is that there 
are millions and millions of people and it is ones, and twos, 
and threes, and fours versus commercial where you can measure 
it and really track it at a much higher level, which is 
wonderful.
    There are so many assumptions in the process that we come 
up with these crazy policies that pop out and that limit 
fishing. But you are going, ``The fish are really there. They 
are everywhere. You can see them.''
    Senator Sullivan. OK. Any other witnesses want to comment 
on just the issue of data sufficiency and collection 
opportunities?
    Ms. Behnken. If I could just briefly, Senator, I would, I 
think, refer back to Dan Hull's comment about the SSE has to 
remain the screen for data.
    As Mr. Reed pointed out, we need to know what the sources 
of that data are and how appropriate the data is. Ultimately, 
the SSE is qualified to review the information and to feed that 
information into the management process as being data to be 
trusted or data that is possibly not up to the usual standards 
for our management system.
    Senator Sullivan. Great. Mr. Alstrom.
    Mr. Alstrom. Thank you, Senator.
    As far as data and data collection, it starts with data 
collection. I will just give you an example, and this is 
probably true of all the groups.
    The Yukon Delta, we are fully funding a NOAA study on 
salmon out migrations at the mouth of the Yukon, a quarter of a 
million dollars there. In the past, we have worked with EDF and 
others to personally fund it, but this year it is fully funded. 
Then on the State level, at State cutbacks, we spent another 
quarter million on testnet for the summer and fall management 
strategy.
    It is not only Yukon Delta in this raw gathering of data. 
It is Norton Sound is the same thing. You start digging into 
it.
    So as Federal and State monies get cutback for one reason 
or another, they are looking for groups to step in. And a lot 
of times the groups that do step in are the CDQ groups.
    Senator Sullivan. Yes. Any others?
    Mr. Stevens, any thoughts on that?
    Mr. Stevens. Just briefly. We too are very interested in 
solid data. It may not pertain to exactly what we are talking 
about here, but we are trying to make sure that the information 
that the regulatory agencies are using to make these huge 
decisions, that they are using good, solid data.
    Down those lines, we are trying to work with the Yukon 
River Fish Commission to make sure that we are collecting good, 
solid data from each community along the River when it comes to 
the Chinook salmon so the agencies can have the best possible 
data that we could give them being on the ground.
    Senator Sullivan. Yes.
    Mr. Stevens. Yes. We do agree that data is critical 
especially when it has such huge implications to big decisions.
    Senator Sullivan. Let me ask a question, Ms. Behnken, on 
your issue. It is an issue that I have been very focused on, 
the issue of electronic monitoring.
    I am assuming you saw that NOAA published regulations to 
integrate the electronic monitoring into the North Pacific 
observer program that came out, actually, just this month. I am 
not sure if you have reviewed them, but I know you care about 
this issue a lot.
    Are you satisfied with those regulations or are you 
thinking that it is a step in a right direction? And is that 
something we need to take on? We have been pressing the 
agencies to do a much better and faster approach to that, as 
you have been advocating for, given some of our challenges 
here.
    What is your sense of the progress and satisfaction with 
that, particularly given that NOAA just promulgated new 
regulations on that?
    Ms. Behnken. Thank you, Senator.
    We are really pleased to see the progress in the North 
Pacific. It has been a long process to get to this point of 
really having an alternative for small boats. It is a place we 
probably would not be without support from our delegation, and 
also the supplemental grant funding from the National Fish and 
Wildlife Foundation.
    I think I would just emphasize that we are not quite there. 
This startup phase with electronic monitoring is the most 
expensive part of getting E.M. out there. It is when the 
equipment needs to be purchased. It needs to be installed on 
boats, and we really do need supplemental funding as we move to 
the point where it is fully funded by the fleet.
    Senator Sullivan. Yes.
    Ms. Behnken. If you look at the numbers, and you amortize 
the cost of that equipment over the 5-years that will be its 
lifespan, E.M. is functioning at about half the cost of an 
observer, but the upfront costs are fairly significant. So it 
is certainly important to have supplemental funding during this 
time.
    I think the other aspects of getting E.M. out on the water 
that we have found to be particularly critical are involving 
stakeholders in development of the program initially, but also 
in guiding what the research and development is for the E.M. 
programs of the future.
    Senator Sullivan. Yes.
    Ms. Behnken. And making sure that future E.M. systems are 
compatible with the fleet that they are being designed for. 
That they are cost effective and not some grand scheme of what 
a ``Star Wars'' E.M. might be at some point. So to have them be 
practical, to be fleet compatible.
    Then the last point I would make, E.M. quickly becomes not 
cost effective if data storage requirements become excessive.
    Senator Sullivan. Yes.
    Ms. Behnken. We have seen an interest from enforcement in 
being able to store that data for 5 years for the opportunity 
to maybe mine the data at some point in the future for 
enforcement purposes.
    Where E.M. is primarily implemented for catch accounting 
purposes or support catch and bycatch information, our view is 
that E.M. data storage needs to be one year. At the end of a 
year, you use that information to inform your stock assessment 
process, but that to require storage much beyond that quickly 
makes a program that was very effective, cost effective, and 
fleet compatible become unworkable.
    So we would look for some guidance from you on limiting 
that data storage requirement.
    Senator Sullivan. Well, I appreciate the comment and we 
certainly want to continue to work with you, and others, on 
this.
    We think, and I think you know, we have been pressing NOAA 
on this for at least a couple of years and we want to continue 
to work with everybody here on that issue as it is being 
implemented. But I think there are some important advancements 
on that. So I appreciate that comment.
    Let me turn to Mr. Alstrom. I wanted to dig down a little 
bit on two issues that you raised and that came up in the 
previous panel. I know in some ways you are impacted by it, so 
I want to give you the opportunity to mention it.
    Are there any aspects, and I appreciated your very 
constructive participation in that recent broader meeting we 
had with different CDQ groups, which I thought went quite well. 
But are there elements to the program, the CDQ program, that 
you think are in need of an update or revision?
    Second, what is your view on the recusal issue? 
Particularly because a lot of times that has seemed to become 
the focus on CDQ-related council members, and I think that is a 
problem.
    Mr. Alstrom. Senator, I will start with the easy one first.
    We support Commissioner Cotten's remarks on the recusal 
issue. Well, I will just read right from my written. We believe 
the regulatory structure is outdated, not evenly applied, and 
has recently prevented several voting members in the North 
Pacific District Management Council from voting on important 
issues, such as halibut bycatch.
    We ask that the Congress work with the affected parties and 
NMFS to see if there are meaningful changes to recusal and 
conflict regulations that would protect the integrity of the 
Council process, while still allowing the input from Alaska 
that was intended by the MSA when creating the Council system. 
There needs to be a change.
    Senator Sullivan. Yes.
    Mr. Alstrom. Senator, if I remember your first question 
correctly, you wanted to know if there was a way in MSA that we 
can--``we,'' the CDQ program--can make I more functional or 
easygoing.
    I think within the CDQ panel--which at least Yukon Delta 
identifies as the Western Alaska Community Development 
Association--the panel that was supposed to take over for the 
day-to-day oversight from the State and from the Federal 
oversight teams. I think there needs to be a change where that 
process does not need full unanimous support.
    I think a super majority of five out of six of the CDQ 
groups voting to move a rule forward, I think that would really 
help to make issues within the CDQ program that are 
controversial, at least we will continue to move forward.
    The program is so important. I feel amiss that I have not 
emphasized how important it is to western Alaskans this 
program.
    Senator Sullivan. Yes.
    Mr. Alstrom. But I think that would be a change we need.
    Senator Sullivan. Let me ask Mr. Stevens, you mentioned, 
and I appreciate your focus on the tribal and subsistence needs 
and emphasis for our Alaska Native population.
    Have you thought about looking at ways? MSA obviously 
applies nationally and lot of the different Councils do not 
have such a large population and the issues that we have in 
this state on those kind of issues, subsistence and otherwise.
    Have you thought about how, if we are looking at amending 
the Act in ways that relate to those issues? You could do it in 
a way that recognizes that it is a still a national law and in 
a lot of regions, those are not the prominent issues that are 
being raised.
    Mr. Stevens. Well, I do believe that it is of such 
significance that we cannot turn away from it.
    As I mentioned, the importance of subsistence is monumental 
to the Alaska Native people, the rural Alaskans. Considering 
the fact that we are basically the last in the Nation to be so 
heavily reliant upon this, I believe, begs some consideration.
    Senator Sullivan. Yes, I appreciate that. Any other 
thoughts on that just in terms of the way in which that would 
be more strongly influenced in a reauthorization, highlighted? 
Is there language or issues that you have or could recommend to 
us?
    Mr. Stevens. In our written testimony, we have an addendum 
with some language on it.
    Senator Sullivan. Great. Thank you.
    I will just open it up. Are there any final comments from 
any of the panelists as we turn to our third panel members; any 
last rounds that you want to mention? I want to give everybody 
a chance. I want to be respectful of our next panel, but to 
briefly just emphasize any final issues.
    Mr. Reed.
    Mr. Reed. Thank you, Senator.
    I just wanted to mention, on the issue of the electronic 
monitoring, the closely associated issue of observer coverage. 
I would like to state some support for observer funding in the 
North Pacific.
    We have paid our own way in the North Pacific in the 
fisheries that are observed and have been observed for many 
years. And it would be nice to have some of that paid, as in 
some areas of the country 100 percent of it is being paid by 
the Federal Government.
    Senator Sullivan. Yes, I know. It is an important issue. I 
am glad you raised that because it does seem uneven in 
different regions.
    Mr. Reed. Yes, I agree. And we would appreciate it.
    On the electronic side, I think that the future has a good 
helping of electronic monitoring in all of our fisheries for 
cost reasons and for the data needs that we have. And so I 
think that some funding may be transitioned in that regard. So 
we appreciate your consideration of that.
    I would also like to thank you again for having us here 
today and for doing the hearing. Thanks so much.
    Senator Sullivan. Anyone else? Mr. Alstrom.
    Mr. Alstrom. Senator, thank you.
    We do reach out to non-CDQ villages. We have workers, about 
100 of them from 18 non-CDQ villages, Upper Yukon and north of 
us, so all the groups try to reach out, outside of the regions 
to provide benefits. I did not want to imply this. We are 
reaching out.
    Thank you.
    Senator Sullivan. Mr. Stevens.
    Mr. Stevens. We are good. Thank you.
    Senator Sullivan. Thank you. Just real quick.
    Mr. Speciale. I would like to say thank you so much.
    We are very concerned about the next draft of MSA and how 
it goes through because we are watching what comes from the 
economic output of it. Of course, we want great conservation as 
a company. That is what we want. That is what our lifeblood is 
in this whole thing and the millions of communities that are 
affected by this. You have to keep that awareness.
    We are not as large as what we were pre-recession and we 
think this has been a big driver that has kept our middle 
markets from coming back to the saltwater area. So we would 
really like to see some positive outcome as we have outlined. 
So I want to thank you so very much for this time, again.
    Senator Sullivan. Sure, absolutely.
    Ms. Behnken, you have the final word.
    Ms. Behnken. I will just close by saying thank you. I 
really appreciate the opportunity. I think it has been a really 
great discussion.
    Senator Sullivan. Great. OK. Well, how about a round of 
applause for our second panel here?
    [Applause.]
    Senator Sullivan. We will ask the third and final panel to 
please come up to the dais. Thank you.
    [Pause.]
    Senator Sullivan. I want to begin our third and final 
panel. Thank you for being so patient. Again, we have a very 
distinguished panel representing several different stakeholder 
groups. We want to hear from all of you on your views on this 
important topic.
    The final panel of witnesses consists of Shannon Carroll. 
He is the Deputy Director of the Alaska Marine Conservation 
Council.
    Julie Bonney, the Executive Director of the Alaska 
Groundfish Data Bank.
    Lori Swanson, Executive Director of the Marine Conservation 
Alliance.
    Duncan Fields, Gulf of Alaska Coastal Communities 
Coalition.
    And Liz Ogilvie, Chief Marketing Officer of the American 
Sportfishing Association.
    So Mr. Carroll, why not begin with you? You have 5 minutes 
and if you have a longer written statement, that will be 
included in the record of this Senate hearing.

 STATEMENT OF SHANNON CARROLL, DEPUTY DIRECTOR, ALASKA MARINE 
                      CONSERVATION COUNCIL

    Mr. Carroll. Thank you, Mr. Chairman.
    I will assume ``best for last'' for being put on panel 
three. Thank you for the opportunity to testify. My name is 
Shannon Carroll. I am a former commercial fisherman and Deputy 
Director of the Alaska Marine Conservation Council.
    Our mission is to promote healthy fisheries, fishing 
dependent communities through sustainable fishing practices, 
and local stewardship. We are also a member of the Fishing 
Community Coalition, which is a national association of 
community based and small boat commercial fishing groups.
    Collectively, we support the MSA and respectfully offer the 
following comments on reauthorization.
    Before I do so, however, I want to thank you, Mr. Chairman, 
for hearing from stakeholders at the outset of reauthorization. 
I think stakeholders are essential to the fisheries management 
process, and I appreciate the Committee for acknowledging that 
fact.
    I also want to thank you for your leadership on fisheries 
and oceans issues. In particular, we greatly appreciate your 
support and introduction of the Young Fishermen's Development 
Act.
    AMCC urges the Committee to take a ``do no harm'' approach 
to reauthorization. We continue to believe that many of the 
issues plaguing various fisheries across the country could be 
addressed by investing in better and more frequent stock 
assessments, data, research, and accountability measures.
    Alaska has demonstrated that such measures are, indeed, the 
cornerstone of effective fisheries management and I think the 
numbers speak for themselves. North Pacific fisherman harvest 
between 5 and 6 billion pounds of seafood annually supporting 
about 9,800 vessels, about 100 processing plants, and 
generating $14.6 billion in economic output.
    Recognizing this success, Congress amended the Magnuson Act 
to bring the Alaska model to the rest of the country. And of 
the 41 stocks that were listed as subject to overfishing at 
that time, only 14 remain in such condition. Today, we enjoy 
the lowest number of overfished stocks in history while landing 
revenue is up 18 percent since 2005.
    We certainly recognize that fisheries in other regions have 
struggled under these provisions, but before considering ways 
to weaken the Act, we ask that the Committee consider that in 
most cases, the root of the problem in these regions is poor 
data and poor accountability. Adding additional flexibility to 
annual catch limits may increase those limits in the short 
term, but it does not address the underlying issues in those 
fisheries and is therefore not a viable, long term solution.
    Rather than lower the bar, we urge the Committee to 
consider changes that raise the bar for all fisheries by 
strengthening the foundation upon which sustainable fisheries 
management rests: accountability and timely and accurate data.
    Here in the North Pacific, as elsewhere, that foundation is 
being threatened. Next year, for example, NOAA may be reducing 
the number of survey vessels in the Gulf and the Bering Sea, as 
well as the number of fishing vessels carrying observers due 
the declining or stagnant funding levels.
    This loss, among other things, will result in greater 
uncertainty in the data driving management decisions, 
potentially leading to more precautionary catch limits and less 
economic benefit from our fisheries.
    Congress can help fishermen and processors, coastal 
communities, and the thousands of small businesses that depend 
on wild caught American seafood by investing in the science 
that allows fisherman to harvest optimum yields on a continuing 
basis.
    I also understand the Committee has heard a lot from 
recreational fishermen, how the MSA is not working for them 
based on the premise that recreational and commercial fishing 
are fundamentally different.
    Well, we may agree that they have different objectives. The 
end result of both sectors is really the same: it is the 
harvesting of a public resource.
    So I would urge this Committee to ensure that sound science 
and individual accountability are the foundation of any new 
proposals. We do not believe that the Modernizing Recreational 
Fisheries Management Act accomplishes this goal to provide 
sport fishermen with more fish.
    It allows fishery managers to use alternative management 
measures. But, unfortunately, these measures ignore 
precautionary principles for data for stocks. They stymie 
research and innovation by making experimental and exemptive 
fishing permit processes unworkable, and undermine the 10-year 
stock rebuilding process.
    Last, I would like to highlight some of the challenges 
facing the next generation of commercial fishermen. They face 
daunting challenges including high cost of entry, limited entry 
opportunities, and declining opportunities for mentorship and 
training.
    In Alaska, these challenges are reflected in the declining 
number of young people entering the industry and the ongoing 
attrition of fishing rates from Alaska's fishing communities.
    Not long ago, the agricultural industry faced similar 
challenges and worked with Congress to create the Beginning 
Farmers and Ranchers Development Program. The Young Fishermen's 
Development Act is modeled after this successful concept and 
aims to create a national program exclusively dedicated to 
assisting, educating, and training the next generation of 
commercial fishermen.
    This bill would ensure America's fishing communities 
continue to thrive for future generations by supporting 
economic opportunity, jobs, and food security while preserving 
a proud heritage and a way of life.
    We want to thank you again for introducing this bill and I 
am happy to answer any questions.
    [The prepared statement of Mr. Carroll follows:]

        Prepared Statement of Shannon Carroll, Deputy Director, 
                   Alaska Marine Conservation Council
    Thank you for your invitation to testify on the successes and 
challenges of the Magnuson-Stevens Act (MSA or the Act). I am Shannon 
Carroll, a former commercial fisherman and current Deputy Director for 
the Alaska Marine Conservation Council (AMCC). AMCC's mission is to 
protect the integrity of Alaska's marine ecosystems and promote 
healthy, ocean-dependent coastal communities through sustainable 
fishing practices, habitat protection, and local stewardship. AMCC is 
also a member of the Fishing Communities Coalition (FCC), an 
association of community-based, small-boat commercial fishing groups. 
The FCC represents more than 1,000 independent fishermen and business 
owners from Maine to Alaska who share a commitment to the sustainable 
management of America's fishery resources. Because the FCC was formed 
to strengthen and unify the individual voices of our member 
organizations, my testimony today is endorsed by the FCC. Collectively, 
we strongly support the MSA and respectfully offer the following 
comments on reauthorization.
    Before I do so, however, I want to commend this Committee's process 
in moving forward towards reauthorization. Implicit, if not explicit, 
in the structure of the MSA, is the concept that stakeholders are best 
suited to effectively manage their regional fisheries. Past 
reauthorization efforts have also reflected this belief, with this 
Committee holding field hearings with stakeholders to inform 
reauthorization efforts. To that end, I appreciate the fact that this 
Committee is hearing from stakeholders at the outset of the 
reauthorization effort.
    I also want to thank the Chairman, Senator Sullivan, for his 
leadership on fisheries and ocean issues. In addition to legislation 
such as the Save Our Seas Act and the IUU Fishing Enforcement Act, we 
greatly appreciate his support for and introduction of the Young 
Fishermen's Development Act (S. 1323). As you know, the FCC and its 
member organizations--including AMCC and the Alaska Longline 
Fishermen's Association--have worked for nearly two years in designing 
a national program to help young and beginning fishermen. Some of the 
key components of the legislation are modeled after what we have done 
and are doing in Alaska. In fact, this state has done more to help and 
train young fishermen than any other state, but, as you know, much more 
needs to be done around the country to ensure that the next generation 
of commercial fishermen not only exists, but prospers.
Raising the Bar for All Fisheries
    AMCC urges Committee to take a ``do no harm'' approach to 
reauthorization. We continue to believe that many of the issues 
plaguing various fisheries across the country could be addressed by 
investing in better and/or more frequent stock assessments, data, 
research, and accountability measures--all under the existing framework 
of the MSA. We believe this because for over forty years, Alaska has 
demonstrated that science-based annual catch limits, robust stock 
assessments and fisheries data, effective accountability measures, and 
a transparent public review process are the cornerstone of effective 
fisheries management. The numbers speak for themselves: North Pacific 
fishermen sustainably harvest between 5-6 billion pounds of seafood 
annually, which supports about 9,800 vessels and about 100 processing 
plants in coastal communities, and generates $14.6 billion in economic 
output (including direct and multiplier impacts). These figures do not 
include the thousands of jobs in other regions connected to our seafood 
production.
    Recognizing this success, Congress amended the MSA to bring the 
``Alaska Model'' to the rest of the country, dramatically improving the 
overall health of our fisheries. Indeed, of the forty-one stocks listed 
as subject to overfishing, only fourteen remain in such condition. 
Today we enjoy the lowest number of overfished stocks in history and 
landings revenue is up eighteen percent since 2005. Rebuilding these 
stocks required the hard work and sacrifice of fishermen and fishing 
communities, and the dedication of fishery management councils and 
agency staff. These rebuilt fisheries have led to greater stability, 
opportunities for diversification, and new entrants into the industry, 
all of which directly benefits fishing communities.
    Reauthorization should not put that hard-earned progress at risk by 
weakening the core science-based management provisions of the Act. I 
recognize that certain fisheries and regions have struggled under these 
provisions. But before considering ways to weaken the Act, I ask that 
the Committee consider that in most cases the root of the problem in 
these regions and fisheries is poor data and accountability. Adding 
additional flexibility \1\ to annual catch limits may increase those 
limits in the short-term, but it does not address the underlying issue 
in those fisheries and therefore is not a viable long-term solution.
---------------------------------------------------------------------------
    \1\ I also ask the Committee to consider the high level of 
flexibility already provided for under the Act. Councils can presently 
consider the needs of fishermen and fishing communities in setting 
annual catch limits. The ten-year rebuilding timeline is based on the 
finding that most stocks can be rebuilt in five years, thus allowing 
for consideration of social and economic considerations. The revised 
National Standard 1 guidelines have also created additional flexibility 
in the annual catch limit and stock rebuilding requirements. Lastly, 
the current language in the Act allows exceptions to the ten-year 
rebuilding timeline and allows managers to tailor rebuilding plans to a 
fish stock's specific biological and ecological needs. In practice, the 
average time period in rebuilding plans to date is almost twenty years.
---------------------------------------------------------------------------
    Rather than lower the bar to fisheries with the poorest data or 
weakest accountability measures, I urge the Committee to consider 
changes that raise the bar for all fisheries by strengthening the 
foundation upon which sustainable fisheries management rests: 
accountability, timely and accurate data, sound scientific research, 
and transparency. Here in the North Pacific, as elsewhere, that 
foundation is being threatened. Next year, for example, NOAA may be 
reducing the number of survey vessels in the Gulf of Alaska and the 
Bering Sea, as well as the number of fishing vessels carrying observers 
due to stagnant or declining funding levels. This loss will result in 
greater uncertainty in the data driving management decisions, 
potentially leading to more precautionary catch limits and less 
economic benefit from our fisheries.
    Congress can help fishermen, processors, coastal communities, and 
the thousands of small businesses that depend on wild caught, American 
seafood by investing in the science that allows fishermen to harvest 
optimum yield on a continuing basis. We support the move toward more 
robust annual stock assessments, effective accountability measures, and 
accurate and precise monitoring and reporting. Science-based catch 
limits and rebuilding timelines have been proven to work but we must do 
more to support this management framework and the resulting management 
decisions by mandating and funding better data collection and 
accountability measures.
    With that in mind, the remainder of my remarks highlight 
opportunities to promote and strengthen science-based decision making, 
to improve fishery data collection and accountability, and to better 
protect our vital commercial fishing communities. My comments also come 
directly from the MSA legislative package crafted and approved by the 
members of the FCC, with the full support of AMCC. With your 
permission, Mr. Chairman, I would like to submit this legislative 
package for the record.
Council Accountability, Transparency and Public Process
    The FCC MSA legislative package includes portions of HR 200--
sponsored by Congressman Don Young--including requiring each Scientific 
and Statistical Committee (SSC) to develop advice in a manner that is 
both fully transparent and also allows for public involvement. 
Additionally, in the name of transparency, we would require Council 
meetings to be posted online and require Council and SCC meeting notes 
and transcripts to be maintained by the Council and made available to 
the public. To increases accountability of all Council members we would 
require all non-procedural votes at the Council be taken by recorded 
vote.
Financing of Fisheries Monitoring Programs
    We propose to expand to all Councils the discretionary authority to 
impose fees presently only available to the North Pacific Fishery 
Management Council (NPFMC). This important tool has allowed the NPFMC 
to establish fees--the amounts vary from fishery to fishery--as part of 
a fisheries plan in order to partially offset monitoring costs. The 
program has been a great success in the North Pacific region by 
providing more comprehensive observer coverage at a lower cost to 
individual fishermen. Our legislative package would also create a 
dedicated regional fishery observer fund in the Treasury for each 
Council. Taking these steps should help strengthen important monitoring 
and data collection measures without increasing the cost to the Federal 
Government.
Recreational Fishing
    Mr. Chairman, I understand your Subcommittee has heard a lot from 
recreational fishermen and boat and engine manufacturers about how the 
MSA is not working for them. AMCC and the FCC recognize and appreciate 
the attention Congress has devoted to finding a way to manage 
recreational fishing that is effective and fair but that does not undo 
the successes the MSA has had to date. Community-based commercial 
fishermen are sympathetic to the challenges and management dilemmas 
faced today by recreational fishermen. We have struggled through 
similar situations that have resulted in fewer fishing opportunities, 
stringent quotas, and the loss of fishing jobs and families. By 
fighting through those obstacles and working through the MSA and 
Council process, we have rebuilt many stocks, created healthy fishing 
businesses and sustainably harvested new and underutilized species. I 
would urge the recreational sector to work with the MSA process, rather 
than weakening it by working around it.
    The Modernizing Recreational Fisheries Management Act of 2017 (S. 
1534), sponsored by Senator Wicker, is based on the premise that 
recreational and commercial fishing are fundamentally different 
activities and therefore require different management approaches. To 
provide sport fishermen greater access--i.e., more fish--to our 
Nation's marine fisheries, the bill allows fishery managers to use 
alternative management measures for recreational fisheries. 
Unfortunately, these measures weaken the science-based conservation 
standards and approach of the MSA. In weakening these standards, the 
bill ignores the precautionary principle for data-poor stocks; stymies 
research and innovation by making the exempted fishing permit process 
unworkable and burdensome; undermines the 10-year stock rebuilding 
requirement, and; establishes a moratorium on new catch share programs, 
thus taking away from the Councils an important tool from the 
management toolbox.
    Additionally, as the commercial sector has learned, greater 
access--more fish--brings with it greater responsibility and 
accountability. The commercial sector is subject to a high degree of 
accountability measures including licenses, permits, mandatory catch 
reporting, at-sea observers, electronic monitoring, vessel tracking 
devices, mandatory notification of fishing trips, and more. While S. 
1534 does include beneficial mandates for cooperative data collection, 
it does not address the fundamental challenge of tracking recreational 
catch and holding the recreational sector accountable for its catch.
    While we may agree with Sen. Wicker and others that recreational 
fishing and commercial fishing are different activities with different 
objectives, the end result of both sectors is the same: the harvesting 
of a public resource. I would urge this Committee to ensure that sound 
science and individual accountability are the foundation of any new 
proposal for best management practices for recreational fishing.
    Mr. Chairman, as you are aware the biggest challenge in managing 
the recreational sector is knowing how much fish is caught on a timely 
basis and when fishing should stop to avoid exceeding the allocation. 
To address this problem the FCC MSA legislative package includes a 
section that provides Councils the discretionary authority to require 
permits and catch reports from both commercial and recreational fishing 
vessels. Today, Councils can only require permits for commercial 
vessels fishing within the EEZ.
    In 2006, Congress attempted to address the lack of data from the 
recreational sector by requiring the Secretary to establish regional 
registries for recreational fishermen. While well-intentioned, these 
provisions (Sec. 401 (g)) lacked the essential requirement of catch 
reporting and provided for broad exemptions. We propose to amend the 
current regional registry program for recreational fishermen fishing in 
the EEZ by requiring the reporting of catch and landings information on 
a timely basis. This section also limits the exemption from the 
registry for State licensing programs to those State programs that 
require the reporting of catch.
Forage Fish
    Having enough forage fish in the water is essential to maintaining 
healthy fisheries and ecosystems. Our legislative package requires the 
Councils to develop a list of unmanaged forage fish and prohibit the 
expansion or development of new commercial or recreational directed 
fisheries until the Council has had adequate opportunity to assess the 
scientific information and considered the potential impacts to existing 
fisheries, fishing communities, and the marine ecosystem. Science and 
data for new and emerging fisheries is vital, especially in light of 
shifting and mitigating fish stocks. Additionally, management plans 
need to be in place before any new fishery is opened in order to 
advance ecosystems approaches to fisheries management. The provision is 
modeled after the Mid-Atlantic Council's Unmanaged Forage Omnibus 
Amendment.
Strengthening Fishing Communities
    When Congress reauthorized the MSA in 2006, it included a new 
section focused on limited access privilege programs (LAPPs). This 
section--303A--included provisions designed to allow fishing 
communities to participate in those programs. Unfortunately, after more 
than a decade, not one fishing community has been able to use these 
provisions to secure an allocation of fish. In response to this 
problem, our legislative package proposes to update and streamline the 
current, unsuccessful MSA provisions. This is an extremely important 
issue not only to fishing communities in Alaska but also in New England 
and other rural fishing communities on every U.S. coast. For example, 
in Alaska, the number of rural Alaskans holding local fishing permits 
in state fisheries has declined by 30 percent since 1975. Some regions 
like Bristol Bay have lost over 50 percent of their locally held 
permits. The same story is found at the Federal level as well: small, 
rural communities in the Gulf of Alaska have experienced a 53 percent 
decline in halibut quota holdings. We have learned the hard way that 
once fishing permits and quota migrate away from our fishing 
communities, they are gone forever.
    To improve the likelihood that fishing communities can actually 
participate in limited access privilege programs, we suggest 
establishing national standards for the minimum requirements of a 
community sustainability plan, allowing a community to submit a plan to 
the Council for approval, and requiring that when a Council creates a 
new LAPP, it must consider the needs of fishing communities and provide 
a process for communities to participate in the program.
Next Generation
    Lastly, I would like to highlight the challenges facing the next 
generation of commercial fishermen. Despite the important role our 
industry plays in our Nation's economy, there is not a single Federal 
program devoted to supporting and developing entry-level commercial 
fishermen. And the time for such a program has never been greater. With 
the average age of U.S. commercial fishermen increasing, we are deeply 
concerned that the graying of America's fleet poses a substantial and 
growing threat to the future of our industry.
    The next generation faces daunting challenges, including high cost 
of entry, financial risks, and limited entry-level opportunities. In 
Alaska, these challenges are reflected in the declining number of young 
people entering the industry and the ongoing attrition of fishing 
rights from remote fishing communities. As I mentioned earlier, rural 
Alaskan communities have experienced significant loss of access to 
local fisheries, at both the state and Federal level. With the loss of 
local access comes the loss of local opportunity.
    Not long ago, the agriculture industry faced similar challenges and 
worked with Congress to create the Beginning Farmers and Ranchers 
Development Program. The Young Fishermen's Development Act (S. 1323), 
championed by Chairman Sullivan, is modeled after this successful 
program and aims to create a national program exclusively dedicated to 
assisting, educating, and training the next generation of commercial 
fishermen. Specifically, this innovative program would provide 
competitive grants to foster collaborative state, tribal, regional and 
local partnerships; promote mentorship opportunities for retiring 
fishermen and vessel owners; and provide support for regional training 
and education programs focused on accountable, sustainable fishing and 
sound business practices.
    This bill is an important part of ensuring fishermen in Alaska and 
other regions have the tools and education they need to enter into a 
successful and fulfilling career. It would also ensure American's 
fishing communities continue to thrive for future generations by 
supporting economic opportunity, jobs, and food security while 
preserving a proud heritage and way of life. I want to thank Chairman 
Sullivan again for introducing and championing this effort, and I would 
urge the Subcommittee to give its full consideration to this bill.
                                *  *  *
    In closing, I would again like to sincerely thank the Chairman and 
this Subcommittee for holding this field hearing as well as for your 
goal to improve upon an already successful law. I am happy to answer 
any questions or provide more information or clarification, and look 
forward to working with the Members of this Committee and your staff on 
MSA reauthorization.

    Senator Sullivan. Great. Thank you.
    Ms. Bonney.

     STATEMENT OF JULIE BONNEY, EXECUTIVE DIRECTOR, ALASKA 
                      GROUNDFISH DATA BANK

    Ms. Bonney. Senator Sullivan, thank you for the invitation 
to testify on the reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act.
    My name is Julie Bonney and I am testifying on behalf of 
the trawl catcher vessels and shore-based processors who are 
members of the Alaska Groundfish Data Bank.
    For forty years, the Magnuson-Stevens Act has worked well 
for Alaska and for my home town, Kodiak, America's second 
largest port by volume and the third largest by value.
    The Act and its ten National Standards in their current 
form appropriately guide council decisionmaking. We do not 
support any changes, or any additions to the standards, or any 
major changes to the Act.
    The entire U.S. fishing industry has benefited from the 
flexibility of the Act. The North Pacific Management Council 
has solved many regional fishery management issues through its 
transparent, public, and science-based decisionmaking process.
    The best and most creative solutions to management problems 
have typically come from fishery participants working with a 
Council that understands and values the fisheries they 
regulate. Council makeup is, therefore, a key component of 
successful fishery management.
    Councils should include diverse representation with 
fisheries expertise and backgrounds. Stakeholders from a 
spectrum of fishing communities, fishermen, and processors 
affected by the fisheries regulated by the Council should all 
be represented.
    It is easy to name examples of management programs 
developed under the Act that benefit communities across Alaska. 
The Community Quota Entity program and the allocation of Fixed 
Gear Cod licenses were developed by representatives of small 
rural communities in the Gulf of Alaska.
    The highly successful Community Development Quota program 
benefits coastal communities in the Bering Sea and the Aleutian 
Islands. Regional delivery requirements were developed to keep 
rockfish coming across the docks in Kodiak and crab coming 
across the docks in the Pribilof Islands.
    In Alaska, we have benefited from catch share programs in 
several of our fisheries. These programs have greatly improved 
fishery data, helping our Alaskan fleets to self-fund over 50 
percent of the Nation's observer days.
    Alaska Groundfish Data Bank presently manages seven shore-
based harvesting cooperatives in the Central Gulf of Alaska 
rockfish fishery. That catch share program stopped the race for 
fish, brought community benefits to Kodiak, reduced bycatch, 
increased harvest efficiencies, and increased fishery 
monitoring. Our catch share fishery has enjoyed 11 successful 
years.
    We agree with the Council Coordination Committee that catch 
share management needs to remain in the Councils' toolbox. 
Catch share programs are certainly not appropriate for every 
fishery, so the discretionary nature of the catch share 
management makes sense.
    A major theme of the August 1, 2017 MSA hearing was 
sustainably increasing wild harvests for our fisheries to 
provide greater benefits to the Nation. My members believe that 
the fishing industry can achieve this goal. However, care needs 
to be taken to make sure that the flexibility is not used to 
erode conservation objectives.
    Flexibility to address rebuilding timelines for overfished 
stocks, to allow harvests of choke species that impede harvests 
of other fish stocks, and relaxing management measures for data 
poor stocks are some of the concepts being promoted.
    NMFS revised the National Standard 1 guidelines just last 
year to provide tools to increase flexibility in rebuilding 
plans, better define ecosystem component species, and phase-in 
changes to catch levels. Whether these new flexibilities strike 
the right balance should be evaluated before amending the Act.
    AGDB members are well versed on the highly controversial, 
complicated, and polarizing topic of fisheries bycatch. All 
fisheries have bycatch; it is unavoidable. Regulating bycatch 
is important for equity and conservation, but we need to 
distinguish actions that achieve conservation objectives from 
those that are largely allocative.
    Actions that provide little or no benefit to stocks or 
competing fisheries--but reduce net benefits to the Nation--and 
prevent achieving optimum yield or increases costs to fishing 
fleets should be avoided.
    The 2006 reauthorization of the Magnuson-Stevens Act was an 
endorsement of the Alaska model. Some small tweaks may be 
necessary for other regions during this reauthorization 
process, but in general, it is working well in Alaska.
    Thank you for the opportunity to comment. I will be happy 
to answer any questions.
    Thank you.
    [The prepared statement of Ms. Bonney follows:]

        Prepared Statement of Julie Bonney, Executive Director, 
                      Alaska Groundfish Data Bank
    Senator Sullivan,

    Thank you for inviting me to testify on the reauthorization of the 
Magnuson-Stevens Fishery Conservation and Management Act (MSA). My name 
is Julie Bonney and I am testifying on behalf of the trawl catcher 
vessels and shore-based processors who are members of Alaska Groundfish 
Data Bank (AGDB). For 40 years, the MSA has worked well for Alaska and 
for my home town, Kodiak--America's second largest port by volume and 
the third largest by value. The Act and its ten National Standards in 
their current form appropriately guide council decision making. We do 
not support any changes or additions to the standards or any major 
changes to the Act.
    The entire U.S. fishing industry has benefited from flexibility of 
the Act. The North Pacific Council has solved many regional fishery 
management issues through its transparent, public and science based 
decision making process. The best and most creative solutions to 
management problems have typically come from fishery participants 
working with a council that understands and values the fisheries they 
regulate. Council make up is therefore a key component of successful 
fishery management. Councils should include diverse representation with 
fisheries expertise and backgrounds. Stakeholders from the spectrum of 
fishing communities, fishermen, and processors affected by the 
fisheries regulated by the Council should all be represented.
    It is easy to name examples of management programs developed under 
the Act that benefit communities across Alaska. The community quota 
entity program and the allocation of fixed gear cod licenses were 
developed by representatives of small rural communities in the Gulf of 
Alaska. The highly successful Community Development Quota program 
benefits coastal communities in the Bering Sea. Regional delivery 
requirements were developed to keep rockfish coming across the docks in 
Kodiak and crab coming across the docks in the Pribilof Islands.
    In Alaska, we have had benefited from catch share programs in 
several of our fisheries. These programs have greatly improved 
fisheries data, helping our Alaskan fleets to self-fund over 50 percent 
of the Nation's observer days. Alaska Groundfish Data Bank presently 
manages seven shore-based harvesting cooperatives in the Central Gulf 
of Alaska rockfish fishery. That catch share program stopped the race 
for fish, brought community benefits to Kodiak, reduced bycatch, 
increased harvest efficiencies and increased fishery monitoring. Our 
catch share fishery has enjoyed eleven successful years. We agree with 
the Council Coordination Committee that catch share management needs to 
remain in the Councils' tool box. Catch share programs are certainly 
not appropriate for every fishery, so the discretionary nature of catch 
share management makes sense.
    A major theme of the August 1st MSA hearing was sustainably 
increasing wild harvests from our fisheries to provide greater benefits 
to the Nation. My members believe that the fishing industry can achieve 
this goal. However, care needs to be taken to make sure that the 
flexibly is not used to erode conservation objectives. Flexibility to 
address rebuilding time lines for overfished stocks, to allow harvests 
of choke species that impede harvests of other fish stocks, and relaxed 
management measures for data poor stocks are some of the concepts being 
promoted. NMFS revised the national standard one guidelines just last 
year to provide tools to increase flexibility in rebuilding plans, 
better define ecosystem component species, and phase-in changes to 
catch levels. Whether these new flexibilities strike the right balance 
should be evaluated before amending the Act.
    AGDB members are well versed on the highly controversial, 
complicated and polarizing topic of fisheries bycatch. All fisheries 
have bycatch; it is unavoidable. Regulating bycatch is important for 
equity and conservation, but we need to distinguish actions that 
achieve conservation objectives from those that are largely allocative. 
Actions that provide little or no benefit to stocks or competing 
fisheries but reduce net benefits to the Nation, prevent achieving 
optimum yield, or increases costs to fishing fleets should be avoided.
    The 2006 reauthorization of the MSA was an endorsement of the 
``Alaska model''. Some small tweaks may be necessary for other regions 
during this reauthorization process but in general, it is working well 
in Alaska.
    Thank you for the opportunity to comment. I will be happy to answer 
any questions.

    Senator Sullivan. Great. Thank you, Ms. Bonney.
    Ms. Swanson.

     STATEMENT OF LORI SWANSON, EXECUTIVE DIRECTOR, MARINE 
                     CONSERVATION ALLIANCE

    Ms. Swanson. Chairman Sullivan, thank you for the 
opportunity to testify today on the Magnuson-Stevens Fishery 
Conservation and Management Act.
    My name is Lori Swanson. I am the Executive Director of the 
Marine Conservation Alliance, also known as MCA. Our 
organization is comprised of harvesters, processors, and 
fishing dependent coastal communities with interests in the 
Bering Sea, Aleutian Islands, and Gulf of Alaska. MCA is 
committed to supporting sound, science-based fisheries 
management in the North Pacific to promote sustainable 
fisheries and a healthy environment.
    I am here to talk about how the current Magnuson-Stevens 
Act has supported these goals and allowed a sustainable annual 
harvest of over 2 million metric tons of seafood in the Federal 
fisheries for decades.
    The MSA is built on ten National Standards which have 
inherent conflicts. This tension drives the balancing act that 
preserves the health of our fisheries and the environment that 
supports them.
    The hallmark of the MSA is the regional fisheries 
management council system, which recognizes that one size does 
not fit all and allows for solutions that are tailored to the 
specific problems encountered locally.
    MCA does not believe there are any systemic issues in the 
Act that needs to be addressed. It appears that most of the 
concerns that exist are regional in nature, so maintaining and 
expanding regional flexibility provides the best solution.
    For example, catch shares are very successful in the North 
Pacific, reducing bycatch, increasing monitoring levels, and 
allowing fine-scale catch management. The performance of these 
programs is reviewed regularly and modifications are made as 
necessary through a public process informed by detailed 
analyses. While we recognize the success of catch share 
programs in the North Pacific, we also acknowledge that catch 
shares may not be suitable for fisheries in all regions.
    Environmental concerns are also addressed at the regional 
level. The North Pacific Council has established numerous areas 
where fisheries or gear types are restricted or prohibited. 
These areas serve a variety of purposes, from protecting 
sensitive habitats to providing exclusive access to local 
fishery-dependent communities. The recent review of Essential 
Fish Habitat in our region determined that the impact from 
fisheries on habitat is less than 2 percent region wide.
    The North Pacific Council has been refining the practice of 
Ecosystem-Based Fishery Management, or EBFM, since the first 
committee was formed in 1996. Annual stock assessments update 
ecosystem components, and Allowable Biological Catches 
incorporate ecosystem considerations. The Council developed a 
Fishery Ecosystem Plan for the Aleutian Islands and is 
developing a similar plan for the Bering Sea.
    These plans require adequate data and a sound scientific 
base, are extremely time consuming, and are subject to numerous 
public and scientific reviews. Adding new mandates for FEPs may 
make the process untenable by putting management in front of 
science.
    We believe the development of FEPs, and their content, 
should both remain discretionary. EBFM will continue to be a 
critical component of our fisheries management.
    I would also like to comment on the use of best available 
science in fishery management. Sound science is the bedrock of 
sustainable fisheries. There are times when what is presented 
as ``the best science available,'' may be anecdotal, biased, or 
untested. It is very important to understand this information 
prior to using it. Any research, from any source, should be 
subject to intense scrutiny before being used in management 
decisions.
    Finally, while I recognize this hearing is not focused on 
scientific funding, I encourage you to maintain adequate 
funding for scientific research in the North Pacific. Our 
fisheries are supported by surveys which are conducted annually 
in many cases, but at least every third year, and annual stock 
assessments. It is impossible to overstate the importance of 
this work.
    Historic survey data provide a long term view of the 
effects of years of warm and cold water, changes in the amount 
of ice cover, and other factors which help scientists 
understand and predict future challenges. With increased water 
temperatures, fishers are moving between areas and depths, and 
current survey information is even more critical.
    Continued funding supports a decades-long database of 
oceanographic conditions in a region faced with climate change. 
Further, uncertainty requires more conservative catch limits 
and reduced harvest levels to ensure the stock is protected. 
Regular surveys provide increased certainty in the status of 
our stocks.
    In summary, the Magnuson-Stevens Act has worked well for 
over 40 years, and we believe that success must be recognized 
and protected. I encourage you to refrain from sweeping 
national changes, and to maintain the flexibility for each 
region to develop and improve upon management programs tailored 
to their specific needs.
    Thank you for the opportunity to comment, and I will be 
happy to take any questions.
    [The prepared statement of Ms. Swanson follows:]

        Prepared Statement of Lori Swanson, Executive Director, 
                      Marine Conservation Alliance
    Chairman Sullivan,

    Thank you for the opportunity to testify today on the Magnuson-
Stevens Fishery Conservation and Management Act. My name is Lori 
Swanson, and I am the Executive Director of the Marine Conservation 
Alliance, also known as MCA. Our organization is comprised of 
harvesters, processors, and fishing dependent coastal communities with 
interests in the Bering Sea, Aleutian Islands, and Gulf of Alaska. MCA 
is committed to supporting sound, science-based fisheries management in 
the North Pacific to promote sustainable fisheries and a healthy 
environment. I am here to talk about how the current Magnuson-Stevens 
Act (MSA) has supported these goals and allowed a sustainable annual 
harvest of over two million metric tons of seafood from our region for 
decades.
    The MSA is built on 10 national standards which have inherent 
conflicts. This tension drives the balancing act that preserves the 
health of our fisheries and the environment that supports them. The 
hallmark of the MSA is the regional fishery management council system, 
which recognizes one size does not fit all and allows for solutions 
that are tailored to the specific problems encountered locally. MCA 
does not believe there are any systemic issues in the Act that need to 
be addressed. It appears that most of the concerns that exist are 
regional in nature, so maintaining and expanding regional flexibility 
provides the best solution.
    For example, catch shares are very successful in the North Pacific, 
reducing bycatch, increasing monitoring levels, and allowing fine-scale 
catch management. The performance of these programs is reviewed 
regularly and modifications are made as necessary, through a public 
process informed by detailed analyses. While recognizing the success of 
catch share programs in the North Pacific, we also acknowledge that 
catch shares may not be suitable for all fisheries or regions.
    Environmental concerns are also addressed at the regional level. 
The North Pacific Council has established numerous areas where 
fisheries or gear types are restricted or prohibited. These areas serve 
a variety of purposes, from protecting sensitive habitats to providing 
exclusive access to local fishery-dependent communities. The recent 
review of Essential Fish Habitat in our region determined that the 
impact from fisheries on habitat is less than 2 percent region-wide.
    The North Pacific Council has been refining the practice of 
Ecosystem-Based Fishery Management (EBFM) since the first EBFM 
committee was formed in 1996. Annual stock assessments update ecosystem 
components, and Allowable Biological Catches incorporate ecosystem 
considerations. The Council developed a Fishery Ecosystem Plan (FEP) 
for the Aleutian Islands and is developing a similar plan for the 
Bering Sea. These plans require adequate data and a sound scientific 
base, are extremely time consuming, and are subject to numerous public 
and scientific reviews. Adding new mandates for FEPs may make the 
process untenable by putting management in front of science. We believe 
the development of FEP's, and their content, should remain 
discretionary. EBFM will continue to be a critical component of our 
fisheries management.
    I would also like to comment on the use of ``Best Available 
Science'' in fishery management. Sound science is the bedrock of 
sustainable fisheries. There are times when what's presented as the 
`best' science available may be anecdotal, biased, or untested. It is 
very important to understand this information prior to using it. Any 
research, from any source, should be subject to intense scrutiny before 
being used in management decisions.
    Finally, while I recognize this hearing is not focused on 
scientific funding, I encourage you to maintain adequate funding for 
scientific research in the North Pacific. Our fisheries are supported 
by surveys which are conducted annually in many cases but at least 
every third year, and annual stock assessments. It is impossible to 
overstate the importance of this work. Historic survey data provide a 
long-term view of the effects of years of warm and cold water, changes 
in the amount of ice cover, and other factors which help scientists 
understand and predict future challenges. With increased water 
temperatures, fish are moving between areas and depths and current 
survey information is even more critical. Continued funding supports a 
decades-long database of oceanographic conditions in a region faced 
with climate change. Further, uncertainty requires more conservative 
catch limits and reduced harvest levels to ensure the stock is 
protected. Regular surveys provide increased certainty in the status of 
our stocks.
    In summary, the Magnuson Stevens Act has worked well for over 40 
years, and we believe that success must be recognized and protected. I 
encourage you to refrain from sweeping national changes, and to 
maintain the flexibility for each region to develop and improve upon 
management programs tailored to their specific needs.
    Thank you for the opportunity to comment, and I will be happy to 
take any questions.

    Senator Sullivan. Well, thank you, for your testimony.
    And you raised a good point, which is although the hearing 
is not focused on the issue of Federal funding, I can tell you 
I am hearing that issue loud and clear from all the panelists. 
So thank you for emphasizing that as others have.
    Mr. Fields, the floor is yours.

STATEMENT OF DUNCAN FIELDS, GULF OF ALASKA COASTAL COMMUNITIES 
                           COALITION

    Mr. Fields. Thank you, Senator.
    Thank you for the opportunity to testify. I have worked for 
about 30 years with the Gulf of Alaska small and rural 
communities. We define these communities as less than 1,500 
people without road access. These are truly fishing 
communities. That is the only economy in the communities.
    I was picking fish Monday morning. Lots of fish in the nets 
and I thought, ``Why am I coming to this hearing?'' Well, we 
were running Yamaha 2-stroke Enduros. They are great engines.
    [Laughter.]
    Mr. Fields. Why am I coming to this hearing? I am coming 
because I feel Magnuson has failed the smaller, rural fishery 
dependent communities in Alaska. And this is despite the great 
National Standard for providing for the sustained participation 
of the communities and to mitigate the economic harm to the 
communities. We see in the smaller communities in the Gulf of 
Alaska increased and continued separation from the Federal 
fisheries.
    We saw that initially in 1995 when the halibut and 
sablefish IFQ program came into effect. By 2000, we had already 
accumulated enough information, sociological and economic 
information, to see the halibut is migrating from rural 
communities.
    The Council acted. They enacted something called the CQE 
program, or the Community Quota Entity program, to provide 
opportunities for approximately 45 of these smaller, isolated 
communities to buy halibut and sablefish quota shares. Of those 
45 eligible communities, only 3 have been able to buy halibut 
shares and only a few shares at that.
    This program largely has been a failure, not because of 
anything the Council could have done, but because once quota 
share is issued, it is almost impossible for a rural community 
to catch up in terms of buying that quota share and paying the 
debt service based on the return from fishing the quota share.
    So I think if we have anything to add to the discussion, 
Senator, is that at the outset of any kind of Limited Access 
Privilege program, if you are going to protect communities, 
particularly rural communities, those communities are going to 
need to be awarded quota. And I think we have the CDQ program 
in western Alaska as an example of that paradigm and the need 
for the work quota.
    So when we go back to Magnuson-Stevens, and we look at the 
community protection provisions under the LAP Program, we have 
two primary provisions. One is for communities to develop a 
community sustainability plan. The second provision is a 
regional fishing association.
    Both of those provisions, from our experience, are flawed 
so that they are not workable. In fact, the last ten years, I 
am not aware of any Council anywhere in the country that has 
been able to use those provisions to protect those communities.
    So just very briefly, there are three aspects of those 
provisions that need to be revised. One is the burden used to 
be on the Council to show when they developed or initiated a 
LAP program, how that program is going to provide for the 
sustained participation of that community and the economic 
protection of that community.
    In the provisions of the LAP program, there are 11 
provisions. There needs to be something that says something to 
the effect of: how is this program going to protect 
communities?
    In addition to that, when you develop a community 
sustainability plan, there is Council-approved criteria that is 
supposed to be approved by the Secretary and published in the 
Federal Register. They are available to the communities. I am 
not aware of any council that has developed this criteria.
    There needs to be a mandate in this provision to say, 
``Before you have a LAP program, a Council will develop these 
communities or these criteria so that the community knows the 
nature and tribe that is going to be judged.''
    Then finally, there is a contingent liability built into 
the current provision so that the Secretary may withhold or 
revoke quota share being fished by an individual that is owned 
by the community, and may or may not give it back either to the 
individual, but it does specify to the community.
    As I have talked to investors and NGOs that are interested 
in helping communities by quota share, they say, ``That is a 
showstopper. We cannot invest in quota that can be revoked and 
may or may not come back to the community.''
    So those are the three specific provisions that would help 
in the community protections.
    And then finally in my last 30 seconds, Mr. Chairman, the 
rural communities in the Gulf of Alaska are very concerned 
about the amount of discards that are continuing.
    We have Magnuson-Stevens and National Standards. We want to 
reduce bycatch. We want to reduce mortality by bycatch. But we 
are still throwing away tens of millions of pounds of dead fish 
that could enter the stream of commerce. And that is a 
violation, in my judgment, of National Standard 1 of optimum 
yield. In Alaska generally, we throw over 10 million pounds of 
halibut annually. We throw that away.
    This is fundamentally in conflict with the values of our 
rural communities. Why waste food? And so, Mr. Chairman, I have 
a number of other reasons that is a matter of national policy. 
We need to focus on the reduction of discards.
    The European community, by the way, is light years ahead of 
the United States on this and they have very strict guidelines 
or goals set for the reduction of regulatory and economic 
discards, Mr. Chairman.
    That concludes the testimony of the Gulf of Alaska Coastal 
Communities Coalition. Thank you.
    [The prepared statement of Mr. Fields follows:]

                 Prepared Statement of Duncan Fields, 
              Gulf of Alaska Coastal Communities Coalition
    Chairman Thune, Distinguished Members of the Committee:

    The Magnuson-Stevens Fishery Conservation and Management Act (MSA) 
is good legislation, perhaps even great legislation. We are all aware 
of the many successful conservation and management accomplishments that 
the Act has enabled. Because of its success, many believe that the 
current reauthorization of Magnuson-Stevens should mostly maintain the 
status quo. Why change what is working? While it feels like a ``safe 
harbor'' to keep Magnuson essentially the same, I cannot support a 
status quo MSA reauthorization. Here's why: America's fishery-dependent 
communities, especially the smaller rural communities in the Gulf of 
Alaska, are being excluded from the Federal fisheries. This is 
happening despite MSA's National Standard 8 that directs management 
Council to ``take into account the importance of fishery resources to 
fishing communities by utilizing economic and social data . . . in 
order to (A) provide for the sustained participation of such 
communities, and (b) to the extent practicable, minimize economic 
impacts on such communities.'' To be more specific, the Limited Access 
Privilege (LAP) provisions [Section 303(A)(c)] for community 
protection, the Community Sustainability Plan and the Regional Fishery 
Association are unworkable. Action must be taken during this 
reauthorization of the MSA to strengthen the community protections 
provisions of the act. Also, Alaska's smaller gulf communities believe 
that as a matter of National Policy, National Standard 9 should be 
expanded to encourage the reduction of discarded fish/bycatch.
    Under the Requirements for Limited Access Privilege Programs (LAPs) 
[Section 303(A)] I am suggesting three changes that will better protect 
fishery dependent communities:

  1.  Strengthen policy language to encourage management councils to 
        initially allocate Limited Access Privileges to fishery-
        dependent communities and clearly identify criteria for Fishing 
        Communities' community sustainability plans [303(A)(c)(1)(F) 
        and 303(A)(c)(3)(A)(i)(IV)].

  2.  Limit the risks of losing LAP privileges/quota for Fishing 
        Communities operating under a community sustainability plan and 
        for Regional Fishery Associations. [303(A)(c)(3)(A)(ii) and 
        303(A)(c)(4)(B)].

  3.  Revise the Regional Fishery Association definition so that it can 
        include a larger group of stakeholders and also be considered 
        for initial allocations of Limited Access Privileges. 
        [303(A)(c)(4)(A)(iv).

    In addition, I am suggesting the Committee consider expanding 
National Standard 9, ``to the extent practicable (A) minimize bycatch 
and (B) to the extent bycatch cannot be avoided, minimize the mortality 
of such bycatch'', to include a provision that when bycatch occurs and 
mortality from the bycatch cannot be avoided, to minimize the 
regulatory discarding of dead fish to the extent practicable. 
[301(a)(9)]
    For the past 30 years I have worked on behalf rural Alaska 
fishermen from smaller fishery-dependent Alaska communities in the Gulf 
of Alaska. These communities formed the Gulf of Alaska Coastal 
Communities Coalition which identifies as communities of less than 
1,500 people without road access that have a fishing history, sometimes 
for thousands of years. The economy in each of these communities is 
almost exclusively based on fisheries: subsistence, commercial, sport 
and charter. Regulatory programs enacted under Magnuson-Stevens, 
particularly the Halibut/Sablefish IFQ program and the Bering Sea Crab 
program, have negatively impacted these communities. The North Pacific 
Fisheries Management Council has attempted to mitigate some of these 
adverse impacts by creating the Community Quota Entity program that 
allows communities in the Gulf of Alaska to purchase halibut and 
sablefish Individual Fishing Quota IFQs). However, the Community Quota 
Entity program has been largely unsuccessful because it is nearly 
impossible to purchase quota and pay the debt service AFTER the initial 
issuance of the quota. Only 3 of 45 eligible communities have been able 
to purchase even a small amount of quota. Communities, with limited 
resources and without other fishery revenue, just can't catch up by 
purchasing quota. In short, if trends continue, residents of most of 
these communities will be completely excluded from Federal fisheries 
within a generation.
    A reauthorized Magnuson-Stevens Fishery Conservation and Management 
Act must increase the emphasis for each of the eight regional 
management councils to consider smaller or isolated fishery-dependent 
communities as stakeholders at the outset of any Limited Access 
Privilege (LAP) program. Councils should use current sociological and 
economic studies, as referenced in National Standard 8, regarding 
impacts from past management programs to assess probable community 
impacts from any new LAP programs. Here in Alaska, virtually all of the 
social and economic assessments illustrate that Limited Access 
Privilege programs have had negative impacts on smaller Alaska 
communities. The reauthorized MSA should also encourage Councils to re-
consider impacts on fishery-dependent communities whenever limited 
access privilege programs are reviewed and/or renewed and as part of 
the review, when needed, allocate Limited Access Privileges to fishery 
dependent communities to mitigate further harm.
    The eight Regional Management Councils have primarily assessed a 
vessel owner's historical participation in the fishery when awarding 
Limited Access Privileges. While vessel owners are clearly 
stakeholders, parallel stakeholders have often been overlooked. 
Councils must be encouraged to fully assess the community support 
structures that enable vessel owner participation in the fishery as 
well as the community fabric of fishing jobs and fishery opportunity 
that the fishery provides. Rural residents in many Gulf of Alaska 
communities cannot compete economically for quota especially when there 
are no ``owner on board'' or ``active participation'' requirements for 
quota holders. Experience has shown that the primary way to continue 
community engagement in the fishery is through the awarding of Limited 
Access Privileges to the community at the outset of a LAP program. See, 
for example, the Community Development Quota program in the Bering Sea.
    Under the Limited Access Privilege Program provisions for fishing 
communities, section 303(A)(c)(3) of MSA, the requirement of an 
approved community ``sustainability plan'' creates a classic ``catch 
22'' situation for fishery dependent communities wanting to be awarded 
LAP privileges. Communities appear to be expected to develop the 
community sustainability plans without fully knowing a regional 
Council's criteria for plan approval and/or whether the Secretary will 
approve the criteria. Our experience with the NPFMC's consideration of 
a LAP program for the Gulf of Alaska indicated that the Council was 
hesitant to consider LAP privilege/community quota allocation without a 
community sustainability plan but it was difficult for Gulf of Alaska 
fishery dependent communities to develop a sustainability plan without 
first having Secretary approved Council criteria for the community 
sustainability plan. (We recognize that part B lists participation 
criteria but the list in not exhaustive nor is it adopted or approved 
by any Council.) Regional Councils must be directed to develop Fishing 
Community sustainability plan criteria BEFORE considering a LAP 
program.
    Even with an approved Community Sustainability Plan and either the 
initial allocation or community purchase of quota, fishery-dependent 
communities are not protected. Under sub paragraph (ii) the secretary 
may deny or revoke ``privileges granted under this section for any 
person''. This language presents three problems. First, the privilege 
(quota) is revoked from an individual who is fishing the Community's 
privilege or allocation. Second, the Community may have little or no 
immediate control over that individual or the individual's fishing 
practices yet it is held responsible for the individual's misconduct. 
The quota is apparently removed from the individual AND the fishing 
community. Third, the removed quota ``may'' but also MAY NOT be 
reallocated to another individual eligible within the fishing 
community. There are two issues here: the quota can be entirely lost to 
the Regional Fisheries Association if it is not reallocated and the 
quota is reallocated to another individual and not back to the 
Community Fisheries Association. Several financial institutions and 
lenders have indicated that the deny/revoke provision creates too much 
``risk'' for lending to a fishery dependent community to acquire LAP 
privileges/quota---even with an approved Community Sustainability Plan.
    Three changes to Magnusson-Stevens' LAP provisions for Fishing 
Communities could help further the National Standard 8 goal of 
protecting fishery dependent communities.

  1.  The LAP provisions outline eleven requirements (A-K) for 
        implementation of a LAP program. Under section (F) the act 
        requires a Council to ``specify the goals of the program.'' The 
        following language should be added: ``including but not limited 
        to goals for protecting fishery-dependent communities located 
        within the management area of the relevant Council and whether 
        or not initially awarding LAP privileges to the community will 
        further those goals.''

  2.  A new LAP requirement (L) should track with the Fishing 
        Communities section (3) of the LAP provision and require each 
        Council to develop secretary-approved Community Sustainability 
        Plan criteria BEFORE considering a LAP program. The following 
        language should be added: (L) ``Each regional management 
        council shall develop secretary-approved community 
        sustainability plan criteria before initiation of a LAP 
        program.

  3.  Under (3)(ii), any quota denied or revoked by the Secretary for 
        an individual's failure to comply with the Community 
        Sustainability Plan must be retained by the community entity. 
        The following language should be inserted: Sec 
        303A(c)(3)(A)(ii) ``The secretary shall deny or revoke limited 
        access privileges granted under this section for any person who 
        fails to comply with the requirements of the community 
        sustainability plan. Any limited access privileges denied or 
        revoked under this section shall be retained by the eligible 
        fishing community.''

    Moreover, the Magnuson-Stevens Act's parallel community support 
concept, the Regional Fishery Association, is similarly flawed. 
Regional Fishery Associations are expected to find capital and obtain 
quota shares after a LAP program is implemented. Membership is limited 
to those that already have acquired quota and any quota acquired by the 
Association may be ``at risk'' by seizure. Simply stated, as currently 
outlined in MSA, the Community Fishery Association is an ineffective 
tool.
    Three changes to current MSA provisions for Regional Fisheries 
Associations would make them an effective tool for fishery-dependent 
community protection.

  1.  The MSA currently specifies that Regional Fishing Associations 
        are NOT eligible to receive initial allocation of a limited 
        access privilege. The provision should read that Regional 
        Fisheries Associations ARE eligible to receive an initial 
        allocation of a limited access privileges.

  2.  Regional Fishery Associations are limited to individuals or 
        entities that already have LAP privileges/quota. This seems 
        nonsensical, given the participation criteria to be considered 
        by the Council in section (C). Regional Fishery Association 
        participation criteria includes ``traditional fishing or 
        processing,'' ``cultural and social framework relevant to the 
        fishery'' and ``the existence and severity of projected 
        economic and social impacts associated with implementation of 
        limited access privilege programs on harvesters, captains, 
        crew, processors, and other businesses substantially dependent 
        upon the fishery in the region or sub region.'' Given the 
        participation criteria, why exclude crewmen, active fishermen 
        hoping to obtain quota and stakeholder communities or 
        processors that are not awarded quota? The regional Councils 
        should have the option to include all significant stakeholders 
        in a Regional Fishery Association. Adding the following 
        language at the end of Sec 303(A)(c)(4)(A)(iv) would allow the 
        Councils to qualify all individuals and entities that meet the 
        section (C) participation criteria: A regional fishery 
        association shall ``consist of participants in the fishery who 
        hold quota shares that are designated for use in the specific 
        region or sub region covered by the regional fishery 
        association, including commercial or recreation al fishing, 
        processing, fishery-dependent support businesses, or fishing 
        communities and/or individuals, businesses and communities who 
        are active participants in the fishery.

    Section 3 (Definitions)

    The term ``active participants'' means individuals who are 
physically present on a fishing vessel during the prosecution of a 
fishery and who are paid compensation for their fishery participation, 
a business that derives revenue directly from the sale of the fish 
captured in the fishery, or a community economically and/or culturally 
dependent on the fishery.

  3.  The Regional Fisheries Association Language also enables the 
        possible loss of quota by the Association because of an 
        individual's misconduct. As indicated above, this type of 
        contingent liability puts the Regional Fisheries Association 
        ``at risk'' and the association is unlikely to attract capital 
        to obtain quota. Again, the fix is to require that any Regional 
        Fisheries Association quota denied or revoked by the Secretary 
        be retained by the RFA.

    In summary, the three changes suggested for Community 
Sustainability Plans as well as the three changes suggested for 
Regional Fishery Association do NOT mandate that fishery-dependent 
communities be given Limited Access Privileges. However, they do 
provide workable options that the regional Councils can consider when 
working to ensure the sustainability of fishery dependent communities.
    The final consideration for revising the Magnusson-Stevens Fishery 
Conservation and Management Act is, perhaps, one of the most important 
conservation and public policy issues of our day. As a matter of policy 
the United States needs to reduce the amount of discards (dead fish 
thrown overboard) in MSA managed fisheries. Large amounts of fish are 
caught in MSA fisheries, killed, and then discarded because they are 
not the right size, lack market value or are ``prohibited'' based on a 
particular gear type in a specific time and place. Although bycatch has 
been reduced under MSA, discarding of bycatch remains a significant 
management and conservation concern. In fact, the European Union had 
jumped ahead of the United States and set strict time frames for 
eliminating regulatory discards.
    To illustrate, in fisheries managed by the North Pacific Fisheries 
Management Council 5,487metric tons (12,181,140#) of halibut are 
annually allocated as bycatch. Not all of the bycatch is used but, on 
average, about 90 percent or 10 million pounds is actually caught and 
discarded as dead halibut. A substantial portion of discarded halibut, 
estimates range from 50-70 percent by weight, could be of commercial 
value and processed into food for human consumption. Halibut, of 
course, is just one species and across the Nation several species 
should be assessed for discard limitations. The goal for American 
Fisheries should be: If you catch it and it's dead, you keep it! This 
is the logical next step to the policy progression of National Standard 
nine.
    Alaska's smaller fishery-dependent communities are impacted by 
regulatory discards in several ways. First, discarding good food is in 
conflict with basic aboriginal and cultural values that teach it's 
against nature to waste what the sea provides. Second, it often creates 
a false economy in that a vessel will be fishing for a directed catch 
worth pennies per pound while discarding bycatch worth several dollars 
per pound. Third, the American consumer has reduced access to quality 
marine protein that could easily be retained and enter the stream of 
commerce. Fourth, it may limit fish available to all other users and 
appears as a capricious disposition of a shared resource because, when 
quotas are set, halibut bycatch ``comes off the top'' ahead of sport, 
ahead of charter and ahead of all commercial users. Finally, the 
impacts on the eco-system from long term large scale fishery discards 
is unknown. Some have speculated that the rise of arrowtooth flounder 
in the Gulf of Alaska may have been, in part, due to the extent of 
fishery discards in the late 80 and 90s (scavenger fish like arrowtooth 
flounder need something to eat.)
    I would encourage the Committee to expand our Nation's policy 
regarding conservation of our marine resources and add a third priority 
to National standard 9, Sec. 301(a)(9), ``Conservation and management 
measures shall, to the extent practicable, (a) minimize bycatch and (b) 
to the extent bycatch cannot be avoided, minimize the mortality of such 
bycatch.'' And (c) to the extent that mortality cannot be avoided, 
minimize regulatory and economic discards.
    Thank you for considering Alaska's Gulf of Alaska Coastal 
Communities' suggestions for revisions to the Magnuson Stevens Fishery 
Conservation and Management Act. The MSA is solid legislation but needs 
revisions to help protect fishery dependent communities. In summary, 
community allocation of Limited Access Privileges should be 
strengthened and each management council, at the outset of any LAP 
program, should specifically recognized fishery dependent communities 
as stakeholders and provide criteria for development of community 
sustainability plans. Quota obtained under a community sustainability 
plan must stay with the community. A Community Fisheries Association, 
if approved by a Council, should also be eligible for initial 
allocation of quota. Several Community Fishery Association provisions 
seem to be in conflict with the stated programmatic goals and should be 
modified. Membership should be expanded and liabilities reduced. 
Finally, it's time, as a matter of public policy, to incorporate the 
reduction of regulatory discards, to the extent practicable, into our 
national standards.

    Senator Sullivan. Great. Thank you, Mr. Fields.
    Ms. Ogilvie.

  STATEMENT OF LIZ OGILVIE, CHIEF MARKETING OFFICER, AMERICAN 
                    SPORTFISHING ASSOCIATION

    Ms. Ogilvie. Chairman Sullivan, thank you for the 
opportunity to testify on the Magnuson-Stevens Fishery 
Conservation and Management Act.
    As Chief Marketing Officer of the American Sportfishing 
Association, I hope my perspective as someone who is involved 
in a variety of national efforts focused on the future of 
recreational fishing, can be of value to the Subcommittee. And 
as such, I will focus broadly on trends of the sport as a 
whole, and how Federal marine fisheries management fits in.
    The American Sportfishing Association, or ASA, is the 
national trade association representing over 800 fishing tackle 
manufacturers, distributors, retailers, media, and other 
components of the industry who service the 47 million Americans 
who recreationally fish each year.
    We are involved in a wide variety of policy and legislative 
issues affecting the future of the sport, but devote a 
significant portion of our advocacy efforts on Federal marine 
fisheries management.
    Considering that 82 percent of all fishing trips occur in 
freshwater, it may seem counterintuitive to focus so much 
attention on marine fisheries. However, the industry sees 
tremendous growth opportunities in the saltwater fishing 
market.
    The average cost of a saltwater trip is twice that of a 
freshwater trip. Offshore trips must be taken from a boat, and 
these boats tend to be larger, consume more fuel, and are 
outfitted with higher-end gear. Substantial economic 
opportunities for our industry, and associated industries, 
exist with offshore recreational fishing, but we are confronted 
with a management system that, for years, has been limiting 
that opportunity.
    In contrast, ASA believes that freshwater fisheries 
management has largely been figured out. Both the State fish 
and wildlife agencies, and the Federal land management 
agencies, have a symbiotic relationship with the recreational 
fishing community.
    They go above and beyond to communicate with anglers, 
solicit input, and work together to ensure anglers are 
satisfied with their experiences on the water. As a result, 
they are seen as partners in conservation and participation.
    Conversely, NOAA fisheries are viewed by many in the 
recreational fishing community as an adversary. While efforts 
have been made in recent years to improve the dialogue between 
the agency and anglers, we have seen little change in the 
agency's actions and how they translate to fishing 
opportunities.
    Fairly or unfairly, the general perception among anglers is 
that NOAA fisheries only understands and cares about commercial 
fishing.
    While overfishing is now at an all time low in many 
fisheries, that has not translated into improved fishing access 
for recreational fishermen. This is believed to be a result of 
a management system that fails to recognize that commercial and 
recreational fishing are different activities.
    Without question, commercial fishing is tremendously 
important to the Nation by creating jobs and providing a 
sustainable supply of seafood across our country. My comments 
are not intended to diminish the importance of commercial 
fishing, but to recognize that the benefits of recreational 
fishing are also important, and can no longer be an 
afterthought in the way our Federal marine fisheries are 
managed.
    As a community comprised of thousands of businesses and the 
millions of customers they serve, we want modern management 
approaches, science, and technology to guide decisionmaking.
    Since its original passage in 1976 and through subsequent 
reauthorizations, the Magnuson-Stevens Act has never focused 
specifically on addressing the unique challenges of Federal 
saltwater recreational fisheries management.
    We hope Congress will use the current reauthorization 
process as an opportunity to address this historic inequity. 
And ASA believes passage of Senate Bill 1520, the Modernizing 
Recreational Fisheries Management Act, would be a tremendous 
step toward this goal.
    By recognizing recreational fishing as an important and 
distinct activity, Congress and NOAA fisheries can go a long 
way toward creating an environment in which saltwater 
recreational fishing's many benefits to the Nation are fully 
realized.
    Thank you.
    [The prepared statement of Ms. Ogilvie follows:]

      Prepared Statement of Liz Ogilvie, Chief Marketing Officer, 
                   American Sportfishing Association
    Chairman Sullivan and members of the subcommittee, thank you for 
the opportunity to testify on the Magnuson-Stevens Fishery Conservation 
and Management Act (Magnuson-Stevens Act). It is an honor to provide 
input on this important topic. While I'm not an expert on the nuances 
of the Magnuson-Stevens Act, I hope my perspective as someone who has 
been part of the recreational fishing industry for fifteen years and 
who is involved in a variety of national efforts focused on the future 
of the sport can be of value to the subcommittee. I expect many of the 
other comments provided today will be focused on important fisheries 
science and management challenges related to the Magnuson-Stevens Act. 
However, I will focus broadly on trends in recreational fishing as a 
whole and how Federal marine fisheries management fits in.
Federal Marine Fisheries in Context
    The American Sportfishing Association (ASA) is the national trade 
association representing over 800 fishing tackle manufacturers, 
distributors, retailers, media and other components of the industry who 
service the 47 million Americans who recreationally fish each year. We 
are involved in a wide variety of policy and legislative issues 
affecting the future of the sport, but devote a significant portion of 
our advocacy efforts on Federal marine fisheries management. 
Considering that 82 percent of all fishing trips occur in freshwater, 
and of the 18 percent that occur in saltwater, only roughly one tenth 
occur in Federal waters, it may seem counterintuitive to focus so much 
attention on Federal marine fisheries management.
    However, the industry sees tremendous growth opportunities in the 
saltwater fishing market. According to data from the U.S. Fish and 
Wildlife Service, the average cost of a saltwater trip ($134.88) is 
approximately twice that of a freshwater trip ($69.05). While specific 
estimates are not available comparing offshore to inshore trips, given 
that offshore trips must be taken from a boat, and that these boats 
tend to be larger and outfitted with higher-end gear, clearly the 
economic value of offshore trips is significant compared to other types 
of fishing. Substantial economic opportunities for our industry and 
associated industries exist with offshore recreational fishing, but we 
are confronted with a management system that for years has been 
limiting that opportunity.
    In contrast, ASA believes that freshwater fisheries management in 
the U.S. has largely been figured out. While some challenges to 
freshwater fisheries conservation and access persist--such as invasive 
species; water quality and quantity; and habitat degradation--from a 
purely management standpoint, states are generally doing an excellent 
job of ensuring anglers have reasonable access to healthy fish stocks.
    States and the recreational fishing community have a symbiotic 
relationship, due in part to the states' funding model. Most--and in 
some cases, all--of the funding for states' fisheries management 
activities come from anglers in the form of license fees and the excise 
tax on fishing equipment and motorboat fuel. But the relationship 
between states and the recreational fishing community is far from just 
transactionary. States go above and beyond to communicate with anglers, 
solicit input and work together to ensure anglers are satisfied with 
their experiences on the water.
    Similar close connections exist between the recreational fishing 
community and many of the Federal land management agencies, such as the 
U.S. Forest Service, the U.S. Fish and Wildlife Service, the Bureau of 
Land Management and the National Park Service. Despite the occasional 
disagreement over policy and management issues, in general these 
agencies are viewed by recreational fishermen as partners working to 
ensure the conservation of fisheries resources for the use and 
enjoyment of the public. Unlike state fish and wildlife agencies, these 
Federal land management agencies do not receive direct funding from 
anglers; yet are still viewed as partners in conservation.
    Conversely, NOAA Fisheries is viewed by many in the recreational 
fishing community as an adversary. While efforts have been made in 
recent years to improve the dialogue between the agency and anglers and 
to better understand how to address concerns, anglers have seen little 
change in the agency's actions and how they translate to fishing 
opportunities. Fairly or unfairly, the general perception among anglers 
is that NOAA Fisheries only understands and cares about commercial 
fishing, dating back to its roots as the Bureau of Commercial 
Fisheries.
    While overfishing is now at an all-time low, in many fisheries 
(such as the snapper-grouper complex in the southeastern U.S.) that has 
not translated into improved fishing access for recreational fishermen. 
This is believed to be a result of a management system that focuses on 
commercial fisheries management and attempts to apply the same 
approaches to recreational fishing, without recognizing that these are 
two fundamentally different activities.
    Without question, commercial fishing is tremendously important to 
the Nation by creating jobs and providing a sustainable supply of 
seafood. My comments and suggestions are not intended to diminish the 
importance of commercial fishing, but to recognize that recreational 
fishing is also important, and can no longer be an afterthought in the 
way our Federal marine fisheries are managed.
Nationwide Focus on R3
    In recent years, the recreational fishing community has redoubled 
efforts to increase participation in recreational fishing nationally. 
For decades, up until the 1990s, the sport experienced steady growth in 
participation. However, a variety of societal and demographic changes 
in the Nation have contributed to a generally flat level of 
participation for the last two decades, despite an increase in the 
overall U.S. population. Given the social, conservation and economic 
benefits that recreational fishing provides to the nation, this lack of 
growth in the sport is a major cause for concern among industry, 
organizations and fisheries agencies.
    Focusing on new and innovative ways to recruit, retain and 
reactivate (R3) anglers is one of the top priorities of ASA and many 
partner organizations such as the Recreational Boating and Fishing 
Foundation, the Association of State Fish and Wildlife Agencies, and 
many others. The state fish and wildlife agencies are a key partner in 
this endeavor, as are many of the Federal land management agencies, 
particularly the U.S. Forest Service.
    An opportunity exists to include NOAA Fisheries in this effort, but 
it will require a major shift in how the agency has historically 
viewed, treated and managed recreational fishing. Early indications 
from this Administration, including extending the Gulf of Mexico red 
snapper season and selecting quality recreational fishing 
representatives for the regional fishery management councils are reason 
for optimism, but much more work remains to be done. While some of this 
responsibility is under the agency's control, ASA believes that changes 
are also needed to the Magnuson-Stevens Act to facilitate better 
management of marine recreational fisheries and improved opportunities 
for fishing access.
The Modern Fish Act
    The recreational fishing community has articulated the changes it 
would like to see to the Magnuson-Stevens Act through legislation that 
has already been introduced in this Congress. On July 10, Senators 
Roger Wicker (R-Miss.), Bill Nelson (D-Fla.), Roy Blunt (R-Mo.), Brian 
Schatz (D-Hawaii), John Kennedy (R-La.) and Joe Manchin (D-W.Va.) 
introduced S. 1520, the ``Modernizing Recreational Fisheries Management 
Act of 2017'' (Modern Fish Act), which ASA strongly supports. A 
companion bill, H.R. 2023, was introduced in the U.S. House of 
Representatives on April 6, by Congressmen Garret Graves (R-La.), Gene 
Green (D-Texas), Daniel Webster (R-Fla.) and Rob Wittman (R-Va.).
    The bipartisan Modern Fish Act addresses many of the challenges 
faced by recreational anglers, including allowing alternative 
management approaches for recreational fishing, reexamining fisheries 
allocations, smartly rebuilding fish stocks and improving recreational 
data collection. The bill would benefit recreational fishing access and 
conservation. As a community, comprised of thousands of businesses and 
the millions of customers they serve, we want modern management 
approaches, science and technology to guide decision-making.
    Since its original passage in 1976 and through subsequent 
reauthorizations, the Magnuson-Stevens Act has never focused 
specifically on addressing the unique challenges of Federal saltwater 
recreational fisheries management. We hope Congress will use the 
current reauthorization process as an opportunity to address this 
historic inequity. By making the necessary policy and statutory changes 
that recognize saltwater recreational fishing as an important and 
distinct activity, Congress and NOAA Fisheries can go a long way toward 
creating an environment in which saltwater recreational fishing's many 
benefits to the Nation are fully realized.

    Senator Sullivan. Great. Well, thank you. And thank you, 
again, to all the witnesses.
    I will begin with the same question I asked the other two 
panels, and I know you have highlighted it already in your 
testimony, but just to get a strong statement for the record.
    What do you hope to see in terms of your priorities with 
regard to any MSA reauthorization? I will just open that up to 
everybody beginning with Mr. Fields.
    Mr. Fields. Thank you, Mr. Chairman.
    Really, two things from the perspective of the gulf coastal 
communities. One is to make the provisions under the LAP, 
Limited Access Privilege, part of the Act and workable for 
communities. They are not complex changes, not difficult 
changes, but make those provisions workable so that a community 
wanting to participating in a LAP program can develop a 
community sustainability plan, understand the rules relative to 
that plan, receive quota, and functionally work with the quota 
they receive.
    The second aspect is to look at the amount of regulatory 
and economic discards all across the country, and recognize 
that times have changed. Look at what Europe is doing. Track 
the logical progression up to the extent practicable and 
everything is qualified to the extent practical.
    Reduce bycatch, reduce mortality from bycatch, and I would 
like to add, and if mortality and bycatch are not reused, do 
not throwaway dead fish to the extent practicable. Utilize what 
is otherwise discarded.
    Thank you, Mr. Chairman.
    Senator Sullivan. Great. Thank you.
    Mr. Carroll.
    Mr. Carroll. Thank you, Mr. Chairman.
    I think at the outset, and several times you noted, that 
you are looking for consensus. And I think after hearing three 
panels, the consensus seems to really be that ways to improve 
data and accountability are the best ways forward. So that is 
certainly something that MCC would like to see in the fishing 
communities coalition.
    To that end, we have submitted an Amendment package that we 
think addresses a lot of the accountability and data needs in 
the MSA. They are small, minor tweaks, but we think that they 
could go a long way forward toward furthering the objectives of 
the Magnuson Act.
    I would also like to agree with Mr. Fields. We also 
submitted an Amendment that is largely similar to, I think, 
what he is discussing under 303a, which is just streamlining 
and improving the LAP provisions so that coastal communities 
understand what is needed, so that they can apply to receive 
allocations under the LAP program.
    Finally, I do think, again, that there is an opportunity to 
address through non-regulatory means, through the Young 
Fishermen's Development Act and some opportunities for next 
generation fishermen. I think because the Federal Government 
does manage the fisheries as a public trust that is a real 
obligation that they have to see for it.
    So thank you.
    Senator Sullivan. Good, great. Others?
    Ms. Swanson.
    Ms. Swanson. Thank you, Mr. Chairman.
    I echo a lot of what other people have said that the bones 
of the Act are good. Do not change what is working already. I 
do not want to repeat what everyone has already said.
    One specific issue that I would address is the use of the 
term ``overfishing'' and ``overfished''. I think there should 
be a better way to express a stock that is depressed from 
fishing versus a stock that is depressed from an environmental 
or other factor.
    Senator Sullivan. Yes.
    Ms. Swanson. And what the mandated response is in those 
situations.
    We have a blue king crab stock in the Pribilof that is 
overfished, even though no fishing occurs on it and it has not 
for years. It is unlikely to recover, but there are still 
mandated recovery plans. That type of structure, it does not 
make sense. I think it is misleading to the public as well.
    Senator Sullivan. Yes. Great. Thank you.
    Ms. Bonney.
    Ms. Bonney. Just to follow on, I have two things. One is 
the definition of overfishing and the rebuilding plans based on 
a 10-year rebuilding.
    I do think that the 10-year rebuilding timeline is 
arbitrary and so I think that there might be some room to look 
at additional flexibility without opening the barn doors, so to 
speak.
    Senator Sullivan. Yes.
    Ms. Bonney. And also in terms of the issue that Lori just 
raised, which is the blue king crab, the stocks in the 
Pribilof. It is an environmental problem and yet the only thing 
that the Council can regulate is the fishing activity.
    So we are restricting fishing and creating a lot of 
economic impact to the fishing fleet, and there is going to be 
no net benefit for that stock. So if there would be some kind 
of way to have maybe the SSC or the science community define a 
fish that is in that category that you would not have to go 
through the rigorous rebuilding plan. I think that would be 
beneficial.
    Senator Sullivan. Great. Ms. Ogilvie.
    Ms. Ogilvie. Yes, from the recreational fishing 
communities' point of view, the two main tenets for 
reauthorization of Magnuson-Stevens really is the confidence, 
gaining back the confidence in that data collection.
    And then recognizing, again, that recreational and 
commercial fishing are different activities and should be 
managed so.
    Senator Sullivan. Right. Let me dig down into a couple more 
specific questions related to some of the interests and 
expertise of the different panelists.
    Mr. Carroll, I know that your organization played an 
important role in the Alaska Young Fishermen's Network. Can you 
describe a brief description of the network and what you are 
trying to do in terms of the successes?
    As we are looking at this legislation, as I mentioned in my 
opening statement, the idea of making sure the next generation 
is able to take advantage, to thrive, to have opportunities, I 
think, is one of the most important things we could do. I am 
very pleased you are on the panel to represent that group, an 
important interest group.
    Can you talk a little bit more to that and what you have 
done?
    Mr. Carroll. Yes, thank you for the question, Mr. Chairman.
    Yes, I will point out there is at least one member of the 
Young Fishermen's Network in the audience today.
    Senator Sullivan. Good.
    Mr. Carroll. We helped create the Young Fishermen's Network 
largely for the same reasons that I discussed and my support 
for the Young Fisherman's Development Act. And that is it.
    We certainly recognize that there are many barriers to 
entry for next generation fishermen, for beginning fishermen 
and largely those are involving access to capital and 
financial. But in speaking to a lot of our members and 
fishermen, we really recognize that there is also sort of a 
networking, and mentorship, and education gap that are missing. 
In part, that is due to the outmigration of permits, and that 
loss of institutional knowledge in communities, and that sort 
of feedback loop that you get. But it was a major gap.
    And as a lot of fishermen now look to make half a million 
to $1 million investments in their future, a lot of concerns 
revolved around not knowing how to fix the refrigeration system 
on their boat.
    Senator Sullivan. Yes.
    Mr. Carroll. And not knowing how to properly pay their 
taxes. So to that end, we started the Young Fishermen's Network 
as a way to informally improve networking and education among 
fishermen. We have seen some really great success, and just one 
anecdotal story.
    One of my friends who is a member of the Network was out. 
It was her first season running a boat. It was her first time 
towing in really rough weather. She called up a few people that 
she had met through the Network and they talked her through 
some strategies to successfully fish, and she ended up having a 
good day on the waters.
    Senator Sullivan. Good. Let me ask a related question and 
this is for you, or Ms. Bonney, or Mr. Fields.
    There is a lot of talk about barriers to entry in the 
commercial fleet, whether it is because of the high cost, 
upfront costs of financing a boat, and gear, and quota or just 
the next generation who do not have those resources.
    What other things can we be looking at, whether it is in 
the MSA reauthorization or beyond that can help that issue? 
Particularly in communities like where the two of you reside, 
Mr. Fields and Ms. Bonney, in Kodiak. I think that is an 
incredible community.
    Can you talk about the fishing fleet and how important that 
is not only in Kodiak, but other coastal communities on the 
island and this issue of barriers to entry?
    Ms. Bonney. And I am probably going to give you a different 
answer than you expect.
    Senator Sullivan. I am asking this because I know there 
might be different views, which is the whole point of the 
hearing.
    Ms. Bonney. So I think, first of all, you need to 
understand that the community of Kodiak is very diverse. And 
so, we are kind of the black and white of any fishing community 
because we have many participants in the fishery that are 
involved in the State fisheries, particularly salmon. Then we 
have a large group of the community that is involved in the 
Federal fisheries.
    So my life is mostly involved in the Federal fisheries 
because I work for the trawl industry and that industry brings 
20 percent of all jobs to Kodiak, which is an important group.
    We are seeing a lot of new participants in the fishery. A 
lot of people are silver haired, like I am working on, and 
leaving the industry. And so, new people are coming in. Who is 
coming in are the sons and daughters of the owners of the 
vessels and operators and the crewmember that are working on 
the back deck that are experienced and with some expertise.
    But in my industry right now, we have a race for fishery 
environment for the trawl participants which is not as 
sophisticated as in the Bering Sea. We have a lot of 
restrictions in terms of bycatch.
    Senator Sullivan. Can you explain that term? It is used a 
lot. I just want other Senators, who are going to be looking at 
this transcript and their staff, as we talk about the broader 
issues what that term means when you talk about ``the race to 
fish'' and how that impacts sustainability, safety, and 
successful management.
    Ms. Bonney. Just because I have these conversations with my 
family, I will put it this way.
    If you have a pie, and you put the pie in the middle of the 
table, and everybody has a fork, the goal is to get it. So the 
race for fish is trying to get the most pie that you can before 
your neighbor eats more than you do.
    The catch here, the program basically allocates to 
individuals or cooperatives, and cuts that pie up into 
individual pieces, and each participant that has a fork at the 
table gets a slice of the pie. Then you can choose to eat that 
as slowly or as fast as you want, and whenever you want.
    So it just creates more reason within the way that you are 
harvesting and it gives you more tools to make a business plan 
out of it.
    So coming back to the issue of next generation 
participants, there is a lot of uncertainty in the industry 
that I work for because of the system that we are operating 
under. So they are less likely to be able to get bank loans and 
enter the fisheries in that way.
    So for the industry that I work for, we would like more 
certainty and more ability to get the fish out of the water and 
have a business plan versus the system that we live in now.
    Now for Duncan Field's groups and for Shannon Carroll's, I 
think their opinions are different than mine.
    Senator Sullivan. Duncan, do you want to comment, Mr. 
Fields, just on any of those questions I mentioned?
    Mr. Fields. Well, thank you.
    I like Julie's pie metaphor or analogy. But what she did 
not amplify is that once those pieces are cut, first of all, 
they are not all even pieces. And then only those people 
initially allocated a piece of the pie ever get to eat dessert. 
That is the barrier to entry that creates the graying of the 
fleet and the problem for young fishermen.
    That is it. That is what we are facing. Whether or not it 
was a State of Alaska limited entry program, or a Federal IFQ 
program, or a LAP program--Bering Sea crab, for example. Each 
one of those programs creates barriers to entry and that is an 
aspect.
    Now, there are many positive aspects: economic gains, 
efficiency, safety at sea. Not to minimize the positives, but I 
do not think we, as a Nation, have fully appreciated some of 
the downstream, long term effects from these Limited Access 
Programs particularly in terms of young fishermen entering the 
fishery.
    And so, in response to my experience in these rural 
communities, they have been excluded, in large part, from some 
of the salmon fishes because of the permit process, from most 
of the Federal fisheries because of either the LLPs, the 
permits, or specifically lack of quota share.
    And now their dads are dying or died, and they do not have 
any continuity in terms of teaching.
    For example in the community of Ouzinkie, a recent 
sociological study of a survey of the high school in Ouzinkie, 
out of 20 students, only one thought that he had a future in 
fisheries. This is a community that one generation ago, 
everybody in the community participated in the fisheries. In 
one generation, you have lost fishing in that community.
    That is the problem, Mr. Chair.
    Senator Sullivan. Let me ask you, and I want to get back to 
Mr. Carroll. Let me ask a related question.
    In Bristol Bay, nearly 60 percent of the permits are now 
issued to non-Alaskans. And that is a trend that you are kind 
of touching on in terms of permits leaving Alaska's 
communities. I am the Chairman of this Committee. I am looking 
nationally but, of course, I am an Alaskan Senator and that 
trend, that statistic causes concern for me.
    What are ways that we can undertake to address that kind of 
trend?
    Mr. Fields. I think we straddle two worlds, the State 
permit world through limited entry, and I think that statistic 
is more reflective of the state limited entry permit issue. I 
do not know that we can solve that issue through Magnuson.
    Senator Sullivan. No, I know. I am not saying that 
necessarily.
    Mr. Fields. There are parallel permits in Magnuson called 
LLPs and I think we need to look for opportunities, for 
transitional LLPs for people that fish for a certain number of 
years under a provisional LLP and then transition into the 
fishery. Some of these shoulder kinds of provisions may enable 
participation in the fishery within the Federal sphere.
    But that trend is continuing. It is alarming for us that 
believe rural Alaska should have an economy. It probably should 
be a fishing economy. And I think within the State system, 
there have been some representatives trying to look at the 
limited entry program to also provide shoulder opportunities 
for people to transition into limited entry permits.
    There is a great program--back to the CDQs--a great program 
that the CDQs have to help young people finance Bristol Bay 
permits; maybe some of the other CDQs as well. That is not 
available in the Gulf of Alaska because we do not have that 
economic base of a CDQ program.
    Senator Sullivan. Did you have a comment, Mr. Carroll?
    Mr. Carroll. Yes, and I will be brief.
    Getting back to your original question, I think for a lot 
of people, fishing is a way of life, but at the end of the day, 
it is still a business. So I think Congress needs to do the 
best it can to make sure that it is an attractive business to 
invest into.
    I think the way that you do that is to ensure that the 
reauthorized Act allows for managers to sustainably manage 
their fisheries and requires that of them.
    Then just last, as far as what the Act can do to break down 
some of those barriers to entry, I think there is a lot in it 
already that empowers the Councils to do that. I think if you 
look back at some of the hearings for the 2006 Act, though, 
there was a lot of attention paid to whether or not to lift the 
moratorium on catcher programs.
    I think what you see under 303a and the LAP provision was 
really an attempt to bridge the gap between a lot of the 
benefits that come with catcher programs and a lot of the 
negative economic consequences and socioeconomic consequences 
in communities.
    I think Mr. Fields pointed out that in 10 years, no fishing 
community has received an allocation under that provision. That 
was a really big provision in allowing Congress to lift the 
moratorium.
    So I think considering what you can do to really rework 
that to honor the original intent of that provision would be a 
way forward.
    Senator Sullivan. Yes, Ms. Bonney.
    Ms. Bonney. Just to follow up on that, I would note that 
NMFS actually wrote a document that explains how to do a 
sustainability plan. So if you are going to go down that route, 
you may want to look at that, and see what is in there, and 
what might be missing.
    Senator Sullivan. Great.
    Ms. Swanson, I wanted to turn to you. Earlier, there was 
the discussion on the issue of classified areas of overfished 
stocks that might not relate directly to overfishing.
    Can you discuss the effects of the precautionary management 
and whether or not you think that--and we talked about 
overfished stocks--any under-harvesting of stocks is occurring? 
Or do you think that the system, and the data, and the way in 
which the Council is working is avoiding that issue?
    Ms. Swanson. Thank you, Mr. Chairman. That is an 
interesting question.
    Regarding the precautionary principle, I think the idea is 
sound that if you do not have adequate information, then you 
tread very lightly until you do.
    Where it becomes a problem is where you cannot get the 
information and that is, I think, what you have heard loud and 
clear that we need the surveys.
    Senator Sullivan. Yes.
    Ms. Swanson. Because if our survey information ages, then 
the ACLs are going to drop because we are uncertain.
    As far as under-harvesting, it is arguable that we are. I 
mean, the Bering Sea has a 2 million ton cap, which some people 
believe is arbitrary. Some believe it is important to the 
conservation of the system.
    Senator Sullivan. What do you believe? Not to put you on 
the spot.
    Ms. Swanson. Not speaking for MCA on this.
    Senator Sullivan. Well, I have asked this question a lot on 
the cap.
    Ms. Swanson. That is OK.
    Senator Sullivan. It is an important question and when it 
is statutorily defined and has not been reviewed, I think it is 
a legitimate question to ask.
    Ms. Swanson. And again, not speaking on behalf of MCA, but 
myself, I think putting absolute numbers out for anything is 
generally not a good idea because you do not know what the 
right number is. You should have the flexibility to find out 
what it is.
    I think having an extremely conservative program in the 
North Pacific has benefited our stocks.
    Senator Sullivan. Yes.
    Ms. Swanson. But it has done that likely at the cost of 
under-harvesting. And that, depending on how you view that, 
that could be a good or a bad thing.
    I certainly would not advocate lifting the cap altogether.
    Senator Sullivan. No.
    Ms. Swanson. At least not in one step. I think you have to 
be very, very careful because you do not know the consequences 
to other parts of the ecosystem or other fisheries.
    But generally, I think, my overall feeling is that we are 
in a very fluid environment, not to make a pun. We are in an 
environment where the fisheries are changing, the make up of 
the fisheries are changing. Fish are moving. We heard about 
halibut moving offshore. We have had surveys that have shown 
anomalous results.
    To have a static regulation in that kind of environment is 
not a good idea. So flexibility, flexibility, flexibility, I 
think, is important.
    Senator Sullivan. Ms. Ogilvie, can you explain a little bit 
more the concept of alternative management and whether that is 
something that your Association is supportive of?
    Ms. Ogilvie. I am not an expert on the nuances of the 
management Act itself.
    We are looking for ways to benefit what we are trying to do 
as a community, which is increase participation. And outdoor 
recreation as a whole, there is a national effort to increase 
participation and for us, specifically, on the recreational 
fishing side. It is one of our top priorities of ASA.
    Other organizations such as the Recreational Boating and 
Fishing Foundation, State fish and wildlife agencies, and 
Federal land management agencies, in particular the U.S. Forest 
Service are partnering with us on that effort.
    And we hope that in the Federal marine fisheries management 
space there is an opportunity to be a partner too. Perhaps it 
is alternative management policies and actions to really focus 
on the trend of growing more anglers because we want them to 
keep pace with how successful we are already being.
    So thank you.
    Senator Sullivan. Well, listen. I am going to ask if there 
are any other final comments with regard to the witnesses here. 
Again, if you have a final statement or area of emphasis you 
want to leave the Committee with, I would welcome any final 
comments before we close out this third and final panel. Again, 
I will open it up to the panel for any other final comments you 
may wish to make.
    Mr. Fields.
    Mr. Fields. Mr. Chairman, I have a real sense of urgency 
relative to the rural communities in the Gulf of Alaska. You 
have been in a number of those communities. You have been to 
Old Harbor.
    Old Harbor, 20 years ago, or 35 years ago when I went down 
there during high school with my wrestling buddies, was a 
vibrant fishing community. It still has a number of boats in 
the harbor. All but one of those skippers are over 50 years 
old.
    In my closing comments, this is not abstract to me. 
Changing the community provisions in Magnuson will affect real 
people that I know, families and communities that I am engaged 
with, and it is very important.
    Thank you.
    Senator Sullivan. Great. Thank you. Anyone else?
    Yes, Ms. Swanson.
    Ms. Swanson. Thank you, Mr. Chairman.
    I think I am repeating probably what Mr. Reed mentioned 
earlier. Sound, verifiable science is key to fisheries 
management. You receive data from a lot of different sources 
from fishermen on the water who see this every day from 
universities, from Federal research, and all of that data has 
value.
    But before it is incorporated into a management system, I 
think you need to do a very rigorous review of how the data was 
collected. Has it been peer reviewed? Is it repeatable?
    I would be very concerned about lowering the bar for the 
standard of science that we use right now to be more inclusive.
    Senator Sullivan. Thank you. Anyone else?
    Ms. Bonney.
    Ms. Bonney. I guess I am going to speak to one of the other 
issues that was brought up in the other two panels and that is 
observer coverage. And so, the North Pacific has a very unique 
program through the partial coverage sector.
    What is happening is there was a human coverage pool. Now 
we are integrating the E.M. side of the pool and our funding 
sources have diminished. And all of it is becoming self-funded 
through fishermen, taxing fishermen and processors.
    Senator Sullivan. Yes.
    Ms. Bonney. We need help with funding for that program.
    Senator Sullivan. Well, we are going to look at that 
because my understanding of that right now is it is not 
equitable in terms of how it is applied in other regions. And 
if another region pays for it through Federal funds, then my 
view is we should have similar opportunity to receive that kind 
of support. So we will be looking at that hard, but thank you 
for raising it. Anyone else?
    Yes, Mr. Carroll.
    Mr. Carroll. I just want to say thank you for holding this 
hearing in Alaska and we appreciate your support.
    Senator Sullivan. Absolutely. Great.
    Ms. Ogilvie, anything?
    Ms. Ogilvie. The same, we are all very appreciative, and 
conservation is the top of mind. Fishing is top mind, keeping 
our waters clean, abundant with fish, and having access to 
them. Thank you.
    Senator Sullivan. Great. Well, again, in conclusion, I want 
to thank all the witnesses. I think everybody who has remained, 
you have been a very patient audience, but I think you have 
seen we have had three great panels, very informative. 
Different views which, of course, we knew that was going to 
happen.
    I also want to mention the hearing record will remain open 
for two weeks. During this time, other Senators on the 
Committee may be submitting questions for the record to any of 
the three panel witnesses.
    So we ask respectfully that if you do receive questions 
from another Senator that the witnesses are requested to submit 
their written answer to the Committee as soon as practicable.
    I want to thank the witnesses for appearing again today. I 
also want to leave an e-mail for anyone else who wants to 
submit their record of testimony to the Committee on this 
topic. The e-mail is to a committee staffer 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="53103b323d30360c103c2027363f3f3c13303c3e3e362130367d20363d3227367d343c257d">[email&#160;protected]</a>
    Again, I appreciate the panelists. I have certainly learned 
a lot and look forward to continuing to engage with all the 
different stakeholders here on this very, very important topic 
as we move forward.
    This hearing is now adjourned.
    [Whereupon, at 4:05 p.m., the hearing was adjourned.]

                            A P P E N D I X

      Prepared Statement of Rebecca Skinner, Executive Director, 
                 Alaska Whitefish Trawlers Association
    Thank you for the invitation to submit written testimony following 
the field hearing on the successes and challenges of the Magnuson-
Stevens Act (MSA). I am submitting comments on behalf of the Alaska 
Whitefish Trawlers Association.
    Alaska Whitefish Trawlers Association (AWTA) is a trade 
organization that has represented independently owned trawl catcher-
vessels operating in the Gulf of Alaska and Bearing Sea for over 40 
years. The average length of AWTA member vessels is 80 feet, most 
members home-port in Kodiak and have Kodiak based captains and crew. 
AWTA vessels spend an average of 9-11 months each year trawling in the 
vicinity of Kodiak Island, delivering fish to shore-based processing 
plants located in the City of Kodiak. Kodiak ranks as the second 
largest port in the U.S. by volume, largely driven by high-volume trawl 
groundfish deliveries. Year-round trawl deliveries allow Kodiak's shore 
based processing plants to operate 11 months per year and support 
Alaska's largest resident processing workforce.
    AWTA believes that MSA has generally worked well for both the trawl 
industry and the fishing industry overall in Alaska for the last 40 
years. AWTA notes the following as elements that should be continued in 
the MSA, as well as elements that should be augmented or added as part 
of the MSA reauthorization.

  1.  Preserve and enhance the ability to conduct stock assessments and 
        surveys. Accurate and timely stock assessments form the basis 
        for effective fishery management plans. Any reductions in 
        current assessment levels will lead to less data, more 
        conservative harvest limits to account for the uncertainty, and 
        therefore reduced harvest and economic contributions from those 
        fisheries.

  2.  Continued flexibility for Councils to address circumstances that 
        arise within each region. Built-in flexibility recognizes that 
        inherent differences exist between fisheries and between 
        regions, and allows managers to develop and utilize tools that 
        work for a particular fishery or region. In addition to 
        flexibility in relation to different fisheries or regions, it 
        would be helpful to increase the ability of Councils to quickly 
        adapt management and respond to changes that may occur within a 
        single year or fishing season. In recent years Alaska has 
        experienced unexpected changes in ocean temperatures, ocean 
        acidification and temporal and spatial shifts in encounters for 
        various species of fish (i.e., encountering fish at times or 
        places that are different from what has usually occurred in the 
        past). Without the ability of fisheries managers to quickly 
        adapt to unexpected changes there is increased risk of fishing 
        closures, economic losses and negative impacts to Alaska's 
        fishing communities.

  3.  Retain catchshare programs as a potential tool for regional 
        councils. As part of maintaining flexibility at the regional 
        council level catchshare programs should be retained as a 
        potential management tool. AWTA members have seen first-hand 
        benefits that result from cooperative management programs 
        utilizing catchshares, benefits that include higher 
        utilization, increased value, lower bycatch, and reduced 
        impacts on the environment. For example, consider the Rockfish 
        Program in the Gulf of Alaska that uses the catchshare tool and 
        cooperative management. The Rockfish Program stopped the race 
        for fish, reduced bycatch and increased monitoring within the 
        fishery. Rockfish harvest can now be spread out over time, 
        allowing for better utilization, higher value, and reducing the 
        strain on Kodiak's water and power infrastructure that resulted 
        from the peaks and valleys of fish deliveries inherent under a 
        race for fish management structure.

  4.   Ensure council management systems are transparent to the public, 
        promote accountability, include fair representation of 
        participants and continue to utilize data-based decisionmaking. 
        The public, and participants, should be able to see how 
        decisions are being made, that those decisions have been based 
        on data and not politics, to the extent possible. Council make-
        up should fairly represent fishery participants in each region 
        to ensure that all perspectives are heard and considered in the 
        decision making process.

  5.  Finally, any changes to MSA should encourage a management system 
        that maximizes stability for the managed fisheries. 
        Inconsistent, unexpected and intermittent fishery closures, 
        whether trawl groundfish in the Gulf of Alaska, or red snapper 
        in the Gulf of Mexico, are devastating to small businesses and 
        coastal communities that rely on healthy and sustainable 
        fisheries. While the ultimate goal should continue to be 
        ensuring sustainable harvests in the long-term, fisheries 
        management structures should also provide for year over year 
        stability and consistency to the extent possible.

    In closing, thank you for holding a field hearing in Soldotna, 
Alaska, for providing an opportunity to share our input with you 
through this written testimony, and for your continued work to ensure 
that MSA can continue to serve as the foundation for sustainable 
fisheries management in Alaska and throughout the country.
                                 ______
                                 
    Prepared Statement of Ernest Weiss, Natural Resource Director, 
                         Aleutians East Borough
    Chairman Thune and Senator Sullivan, thank you for holding this 
field hearing with three great panels of experts. The people of the 
Aleutians East Borough, Alaska are highly dependent on the fisheries in 
the Bering Sea and Gulf of Alaska, and we are thankful for this hearing 
held in our State of Alaska. Please accept these brief comments on the 
topic of this oversight hearing.
    I would like to first express my support for the current leadership 
in the fisheries of the North Pacific, starting with the Alaska 
Delegation. Senators Sullivan & Murkowski, and Congressman Young 
continuously show their breadth of knowledge and understanding for 
Alaska's coastal communities and the deep connection our people have to 
the fisheries of the North Pacific. The Aleutians East Borough supports 
both the North Pacific Fishery Management Council and the Alaska Board 
of Fisheries. These management bodies both utilize robust public 
involvement processes that ensure the best opportunity for sustainable 
fisheries. Finally, I would like to applaud Chris Oliver, newly 
appointed Assistant Administrator for NMFS, and Alaska Department of 
Fish & Game Commissioner Sam Cotten. Both of these leaders in fisheries 
management have provided insightful vision to the future of Alaska's 
coastal fishing communities.
    Moving forward in the development of an MSA reauthorization, as 
many of the panelists indicated, few changes are needed in MSA. Please 
continue the use of the robust public process of the Regional Fishery 
Management Councils. I believe any future major changes in the 
fisheries, such as the implementation of new catch share programs, 
should go through the Council process, which is working. 
Rationalization of any new fisheries, that may benefit a well-connected 
few, should not be legislatively set into regulation. I also support 
the promulgation of fishery regulations through the Council process as 
over-riding other less robust processes, such as the Marine Sanctuary 
nomination and designation process.
    Also mentioned several times in the hearing, the critical 
importance of continued funding for fishery surveys and assessments. 
The North Pacific is a leader in fisheries management because of the 
continued attention to the use of best science and data. I support 
continued funding of surveys and possibly new funding for the North 
Pacific Observer program.
    The Aleutians East Borough is also on record supporting a 
reevaluation of many of the Steller sea lion regulations that prohibit 
fishing and/or vessel transit near rookeries or haulouts, critical 
habitat established decades ago, including many that have since moved 
to other locations.<SUP>i</SUP>
---------------------------------------------------------------------------
    \i\ https://www.regulations.gov/contentStreamer?documentId=NOAA-
NMFS-2017-0067-0016
&attachmentNumber=1&contentType=pdf
---------------------------------------------------------------------------
    Thank you for the opportunity to comment.
                                 ______
                                 
    Statement of Ryan P. Mulvey, Counsel, Cause of Action Institute
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee: Thank you for the opportunity to submit a statement for the 
record as part of this important hearing on reauthorization of the 
Magnuson-Stevens Act, 16 U.S.C. Sec. 1801 et seq.
    My name is Ryan Mulvey and I am an attorney with Cause of Action 
Institute (``CoA Institute''), a nonpartisan 501(c)(3) nonprofit 
strategic oversight group committed to ensuring that government 
decision-making is open, honest, and fair.\1\ In carrying out its 
mission, CoA Institute uses various investigative and legal tools to 
educate the public about the importance of government transparency and 
accountability, as well as agency adherence to the rule of law. CoA 
Institute also advocates on behalf of clients facing Federal overreach 
and overregulation, including members of the New England fishing 
industry.
---------------------------------------------------------------------------
    \1\ Cause of Action Inst., About, http://www.causeofaction.org/
about.
---------------------------------------------------------------------------
    CoA Institute currently represents David Goethel, a New Hampshire-
based fisherman, and the members of Northeast Fishery Sector XIII in a 
lawsuit challenging the legality of the Northeast multispecies sector 
at-sea monitoring program.\2\ Specifically, we contest the statutory 
authorization for the so-called ``industry funding requirement,'' which 
shifts costs for at-sea monitoring onto regulated fishermen. At more 
than $700 per day at sea, these costs are more than double what most 
small-scale fishermen take home from an average day of fishing.\3\ It 
is not surprising that New England fishermen have been de-scribed as 
the most ``under recognized'' endangered ``species.'' \4\
---------------------------------------------------------------------------
    \2\ See Goethel v. Dep't of Commerce, 854 F.3d 106 (1st Cir. Apr. 
14, 2017), petition for cert. filed No. 17-75 (July 12, 2017); Goethel 
v. Pritzker, No. 15-497, 2016 WL 4076831 (D.N.H. July 29, 2016).
    \3\ See infra notes 33-36 and accompanying text.
    \4\ Christian A. Putnam, With plenty of fish in the sea, will there 
be anyone to catch them?, Scituate Mariner (Aug. 4, 2017), http://
bit.ly/2vHHNjg.
---------------------------------------------------------------------------
    The National Marine Fisheries Service (``NMFS'') promulgated the 
industry funding requirement for groundfish sectors in 2010, but 
delayed implementation for over five years. In the interim, NMFS paid 
for third-party monitors with congressionally-appropriated funds. Since 
March 1, 2016, fishermen have been required to bear part of the cost of 
at-sea monitors. When industry funding is fully implemented, the New 
England groundfish industry will be devastated.
    Unfortunately, our clients' opportunity for review of the industry-
funding requirement is quickly passing. The District Court for New 
Hampshire and the First Circuit Court of Appeals both dismissed their 
case as untimely under the Magnuson-Stevens Act's extremely short 
statute of limitations, 16 U.S.C. Sec. 1855(f). Last month, we filed a 
petition for writ of certiorari to the Supreme Court of the United 
States, arguing that the lower courts' rulings conflicted with well-
established precedents on the availability of pre-enforcement review 
and misconstrued the definition of an ``implementing action'' under 
Section 1855(f)(2) of the Magnuson-Stevens Act.\5\ Our efforts, and the 
precarious economic future of groundfish sector participants, have been 
widely documented by the press.\6\
---------------------------------------------------------------------------
    \5\ Cause of Action Inst., Press Release: CoAI Seeks Supreme Court 
Review of Job-Killing Fishing Regulation (July 13, 2017), available at 
http://coainst.org/2sTZreu.
    \6\ See, e.g., Patrick Whittle, Fishermen taking fight over 
monitors to Supreme Court, Boston Globe (Assoc. Press Newswire) (July 
25, 2017), http://bit.ly/2hJ0Hjn; see generally East Coast fishermen 
spar with Federal government over cost of at-sea monitors, Fox News 
(July 14, 2016), http://fxn.ws/2viP4EJ.
---------------------------------------------------------------------------
    Yet, no matter the outcome of the petition, our clients' case 
highlights the urgent need for congressional action. As the First 
Circuit itself commented:

        [G]iven [the government's] own study which indicated that the 
        groundfish sector could face serious difficulties as a result 
        of the industry funding requirement, . . . this may be a 
        situation where further clarification from Congress would be 
        helpful for the regulated fisheries and the agency itself as it 
        balances the competing goals of conservation and the economic 
        vitality of the fishery.\7\
---------------------------------------------------------------------------
    \7\ Goethel, 854 F.3d at 116 (emphasis added).

    With that suggestion in mind, I respectfully direct the Committee's 
attention to NMFS's plans to expand industry-funded monitoring without 
any semblance of statutory authority through the New England Fishery 
Management Council's Industry-Funded Monitoring Omnibus Amendment 
(``Omnibus Amendment'').\8\ Like the groundfish at-sea monitoring 
program, the Omnibus Amendment raises a number of serious legal 
questions concerning the Executive Branch's authority to compel 
regulated parties, i.e., fishermen, to pay for at-sea monitoring. In 
short, there is no such authority under Magnuson-Stevens for most 
industry funding schemes, and Congress should reiterate its intentions 
in light of NMFS's egregious deviation from the statute.
---------------------------------------------------------------------------
    \8\ New Eng. Fishery Mgmt. Council & Mid-Atl. Fishery Mgmt. 
Council, Industry-Funded Monitoring Omnibus Amend. (Sept. 2016) 
[hereinafter Omnibus Amend.], available at http://bit.ly/2mQxrtn.
---------------------------------------------------------------------------
    NMFS apparently plans to expand industry funding into other 
fisheries, despite the lack of statutory authorization. As Senator 
Sullivan recognized during the opening hearing in this series, the 
costs of onboard monitoring and NMFS's perceived lack of urgency in 
pursuing less costly alternatives, including electronic monitoring and 
other emerging technologies, only reinforce the need for Congress to 
clarify the limits of NMFS's power.\9\ The Committee's current 
reauthorization efforts present a timely opportunity to address the 
matter.
---------------------------------------------------------------------------
    \9\ U.S. H.R. Comm. on Commerce, Sci., & Transp., Subcomm. on 
Oceans, Atmosphere, Fisheries, & Coast Guard, Hearing on 
Reauthorization of the Magnuson-Stevens Fishery Conservation and 
Management Act: NOAA and Council Perspectives (Aug. 1, 2017), archived 
video available at http://bit.ly/2uFyT0C.
---------------------------------------------------------------------------
I. Magnuson-Stevens Does Not Generally Authorize Industry Funding
    The stated purpose of the Omnibus Amendment is straightforward: the 
New Eng-land Council is ``interested in increasing monitoring and/or 
other types of data collection to assess the amount and type of catch, 
to more precisely monitor annual catch limits, and/or provide other 
information for management,'' \10\ but its ability to fund that 
increased monitoring is limited.\11\ The proposed solution is to design 
a standardized mechanism that would permit the government to order 
fishermen to cover a substantial portion of monitoring costs.\12\ 
Unfortunately, the Council and NMFS cannot point to any provision in 
Magnuson-Stevens that grants them the authority to implement such a 
plan.
---------------------------------------------------------------------------
    \10\ See Omnibus Amend. at 41.
    \11\ See id. at 43-44 (``NMFS has limited funding for monitoring, 
so both Councils have considered requiring industry to contribute to 
the cost of monitoring.''); Greater Atl. Reg'l Fisheries Office, Nat'l 
Marine Fisheries Serv., Press Release: Industry-Funded Monitoring 
Omnibus Amendment, Public Hearings and Comment Period (Sept. 20, 2016) 
(``The amount of available Federal funding to support additional 
monitoring is limited[.]''), available at http://bit.ly/2nHNpl1.
    \12\ See Omnibus Amend. at 62 (``Under Omnibus Alternative 2, there 
would be an established, standardized structure for new industry-funded 
monitoring programs . . . [that addresses] (1) standard cost 
responsibilities associated with industry-funded monitoring for NMFS 
and the fishing industry, (2) a process for FMP-specific industry-
funded monitoring to be implemented via [amendment and revised via] a . 
. . framework adjustment action, (3) standard administrative 
requirements [for industry-funded monitoring service providers] . . . 
(4) [a] process to prioritize new industry-funded monitoring programs 
in order to allocate available Federal resources for industry-funded 
monitoring across FMPs, including the type of weighing approach and the 
timing of revising the weighing approach, and [(5)] a process for FMP-
specific monitoring set-aside programs to be implemented via a future 
framework adjustment action. Additionally, [it] would include a range 
of options for the process to prioritize industry-funded monitoring 
across all FMPs.'') (alternations indicate changes in the April 2017 
Omnibus Amendment draft, available at http://bit.ly/2omwA0Q).
---------------------------------------------------------------------------
a. NMFS Must Have Explicit Statutory Authority to Compel Industry to 
        Fund 
        Discretionary At-Sea Monitoring Programs
    Federal agencies do not enjoy unbridled power in choosing which 
programs to pursue. They cannot impose new fees or taxes, nor can they 
demand that citizens pay for programs that the government ought to be 
financing in the first place. In this sense, the basic presumption in 
the Omnibus Amendment, namely, that an Executive Branch agency can 
order industry to fund a monitoring program, is gravely mistaken and 
runs afoul of a fundamental principle of administrative law: ``[A]n 
agency literally has no power to act . . . unless and until Congress 
confers power upon it.'' \13\
---------------------------------------------------------------------------
    \13\ La. Pub. Serv. Comm'n v. Fed. Commc'ns Comm'n, 476 U.S. 355, 
374 (1986); see Util. Air Regulatory Grp. v. Envtl. Prot. Agency, 134 
S. Ct. 2427, 2466 (2014) (``An agency confronting resource constraints 
may change its own conduct, but it cannot change the law.'').
---------------------------------------------------------------------------
    The New England Council appears to acknowledge as much, but does 
not give this principle due credit: ``A Federal agency cannot spend 
money on a program beyond the maximum authorized program level without 
authorization from Congress. [It] also cannot get around the maximum 
authorized program level by adding to its appropriations from sources 
outside the government without permission from Congress.'' \14\
---------------------------------------------------------------------------
    \14\ See Omnibus Amend. at 45.
---------------------------------------------------------------------------
    Magnuson-Stevens does not authorize NMFS and the regional councils 
to redesign fishery management plans to introduce the sort of industry-
funded monitoring envisioned by the Omnibus Amendment. At most, the 
statute authorizes the placement of observers and monitors.\15\ But 
NMFS is not at liberty to implement any particular funding mechanism. 
The plain meaning of Magnuson-Stevens is clear and unambiguous.\16\ The 
statute only authorizes industry-funded monitoring in a few specific 
regions and circumstances: (1) foreign fishing,\17\ (2) limited access 
privilege programs,\18\ and (3) the North Pacific fisheries research 
plan.\19\ Congress's decision to permit NMFS and the councils to 
require industry funded monitoring and observing in those, and only 
those, three situations shows its intent to disallow industry funding 
in other instances.\20\ To read Magnuson-Stevens otherwise violates 
Congress's clear intent and the statute's legislative history.\21\
---------------------------------------------------------------------------
    \15\ 16 U.S.C. Sec. 1853(b)(8); 50 C.F.R. Sec. 648.2.
    \16\ See generally Palmieri v. Nynex Long Distance Co., 437 F.3d 
111, 115 (1st Cir. 2006); Bonilla v. Muebles J.J. Alvarez, Inc., 194 
F.3d 275, 277 n.2 (1st Cir. 1999).
    \17\ 16 U.S.C. Sec. 1821(h)(4).
    \18\ Id. Sec. 1853a(e). The Greater Atlantic Region contains two 
fisheries that permit cost recovery through a fee system: the Atlantic 
sea scallop and golden tilefish individual fishing quota limited access 
privilege programs. See Omnibus Amend. at 51.
    \19\ 16 U.S.C. Sec. 1862(a).
    \20\ Any other reading of Magnuson-Stevens would render provisions 
discussing industry funding surplus-age, Nat'l Credit Union Admin v. 
First Nat'l Bank & Tr. Co., 522 U.S. 479, 501 (1998), and offend 
important canons of construction. Duncan v. Walker, 533 U.S. 167, 173 
(2001); see EchoStar Satellite L.L.C. v. Fed. Commc'ns Comm'n, 704 F.3d 
992, 999 (D.C. Cir. 2013); Ry. Labor Execs.' Ass'n v. Natl' Mediation 
Bd., 29 F.3d 655 (D.C. Cir. 1994); cf. Anglers Conservation Network v. 
Pritzker, 139 F. Supp. 3d 102, 116 n.9 (D.D.C. 2015) (`` `[C]ost 
sharing' programs with industry participants in other fisheries in 
order to provide higher observer coverage levels . . . were expressly 
authorized by statute for particular fisheries only.'') (emphasis 
added) (citing 16 U.S.C. Sec. 1862).
    \21\ There is no evidence of congressional recognition for some 
pre-existing, implied authority to impose monitoring costs on industry. 
Congress has repeatedly declined the opportunity to permit industry 
funding nationwide. Each time that Magnuson-Stevens has been 
reauthorized, Congress considered (and rejected) bills that would have 
created blanket authority for mandatory industry funding. H.R. 1554, 
101st Cong. Sec. 2(a)(3) (1989); H.R. 39, 104th Cong. Sec. 9(b)(4) 
(1995); H.R. 5018, 109th Cong. Sec. 9(b) (2006).
---------------------------------------------------------------------------
b. The Omnibus Amendment's Industry-Funded Monitoring Scheme Violates 
        Standards and Other Important Legal Principles
    Notwithstanding the lack of explicit legal authority, the 
introduction of industry-funded monitoring across the Greater Atlantic 
fisheries would also impose a tremendous economic burden on the fishing 
industry and could lead to the wholesale elimination of small-scale 
fishing. This result would violate National Standards 7 and 8.\22\
---------------------------------------------------------------------------
    \22\ See 16 U.S.C. Sec. 1851(a)(7)-(8). It should not lightly be 
concluded that Congress intend to grant authority for the regional 
councils and NMFS to take actions that would put fishermen out of 
business. See Arctic Sole Seafoods v. Gutierrez, 622 F. Supp. 2d 1050, 
1061 (W.D. Wash. 2008) (rejecting agency interpretation as it ``leads 
to absurd results--the inevitable elimination of the fishery); W. Sea 
Fishing Co. v. Locke, 722 F. Supp. 2d 126, 140 (D. Mass. 2010) 
(``[Magnuson-Stevens] creates a duty to allow for harvesting at optimum 
yield in the present, while at the same time protecting fishery output 
for the future[.]'').
---------------------------------------------------------------------------
    Congress never intended to grant NMFS the authority to regulate a 
substantial portion of the Atlantic fleet out of existence.\23\ As the 
Supreme Court has held, ``Congress . . . does not alter the fundamental 
details of a regulatory scheme in vague terms or ancillary 
provisions,'' \24\ nor does it ``delegate a decision of such economic 
and political significance in so cryptic a fashion.'' \25\ Industry-
funded monitoring as a normal course of fishery regulation is not only 
novel, but represents a shift of economic and political significance.
---------------------------------------------------------------------------
    \23\ Any council could certainly repeal or revoke any of its 
fishery management plans, but it must do so explicitly and by three-
quarters majority approval of its voting members. 16 U.S.C. 
Sec. 1854(h).
    \24\ Whitman v. Am. Trucking Ass'ns, Inc., 531 U.S. 457, 468 
(2001).
    \25\ Food & Drug Admin. v. Brown & Williamson Tobacco Corp., 529 
U.S. 120, 160 (2000); see Gonzales v. Oregon, 546 U.S. 243, 267 (2006) 
(rejecting the argument that Congress would delegate ``broad and 
unusual authority through an implicit delegation'').
---------------------------------------------------------------------------
    In the absence of statutory authorization for the sort of industry-
funded monitoring programs contemplated by the Omnibus Amendment--and 
already in place in the groundfish fishery--the Executive Branch can 
only be described as preparing to impose a ``tax'' to extract money 
from regulated parties in order to fund desired regulatory programs. 
This cannot stand as ``only Congress has the power to levy taxes.'' 
\26\
---------------------------------------------------------------------------
    \26\ Thomas v. Network Solutions, 2 F. Supp. 2d 22, 29 (D.D.C. 
1998); see U.S. Const., art. I., Sec. 8, cl. 1; Nat'l Cable Television 
Ass'n, Inc. v. United States, 415 U.S. 336, 340 (1974) (``Taxation is a 
legislative function, and Congress . . . is the sole organ for levying 
taxes[.]'').
---------------------------------------------------------------------------
    The Omnibus Amendment, as applied in future fishery management plan 
amendments, would also likely violate numerous statutes governing 
agency finance, such as the Anti-Deficiency Act \27\ and the 
Miscellaneous Receipts Statute.\28\ Finally, industry funding 
requirements impermissibly compel fishermen into commercial 
transactions in violation of the Commerce Clause \29\ and arguably 
violate other parts of the Constitution, including the Fourth 
Amendment.
---------------------------------------------------------------------------
    \27\ See 31 U.S.C. Sec. 1341(a)(1)(A)-(B); see also Envtl. Def. 
Ctr. v. Babbitt, 73 F.3d 867, 872 (9th Cir. 1995).
    \28\ See 31 U.S.C. Sec. 3302(b); see also Scheduled Airlines 
Traffic Offices, Inc. v. Dep't of Def., 87 F.3d 1356, 1361 (D.C. Cir. 
1996). The Government Accountability Office has rejected the 
proposition that an agency can avoid the Miscellaneous Receipts Statute 
``by authorizing a contractor to charge fees to outside parties and 
keep the payments in order to offset costs that would otherwise be 
borne by agency appropriations.'' Gov't Accountability Office, 2 
Principles of Fed. Appropriations L. at 6-177 (3d ed. 2006).
    \29\ See, e.g., Nat'l Fed'n of Indep. Bus. v. Sebelius, 132 S. Ct. 
2566, 2587 (2012) (The government cannot ``compel[  ] individuals to 
become active in commerce by purchasing a product.'').
---------------------------------------------------------------------------
II. The Economic Impact of the Omnibus Amendment and Stakeholder 
        Feedback Expose Other Deficiencies with Industry-Funded 
        Monitoring
    In line with the National Standards, the Omnibus Amendment and 
future industry-funded monitoring programs must ``minimize costs,'' 
\30\ ``provide for the sustained participation of [fishing] 
communities,'' \31\ and ``minimize adverse economic impacts.'' \32\ The 
Omnibus Amendment fails to meet these standards because it will have a 
severe and adverse impact on the fishing industry.
---------------------------------------------------------------------------
    \30\ 16 U.S.C. Sec. 1851(a)(7).
    \31\ Id. Sec. 1851(a)(8).
    \32\ Id.
---------------------------------------------------------------------------
    The expected economic impact of industry-funded monitoring on 
fishery-related businesses and communities is uniformly negative.\33\ 
Monitoring costs in the herring fishery, for example, will likely 
exceed $710 per sea day for an at-sea monitor and $818 per sea day for 
a NEFOP-based observer.\34\ Such costs are over double the daily profit 
of a small-boat captain.\35\ This is certainly the case in the 
Northeast multispecies fishery. Under the groundfish sector at-sea 
monitoring program, which our clients are challenging, up to 60 percent 
of the fleet is expected to ``see negative returns to owner when full'' 
monitoring costs ``are factored in.'' \36\ It is irresponsible for NMFS 
to ignore the devastating economic effects of industry funding. Yet, 
with the Omnibus Amendment and the herring and mackerel fisheries, NMFS 
is doing just that by deeming cost estimates too ``speculative'' to 
consider.\37\
---------------------------------------------------------------------------
    \33\ See, e.g., Omnibus Amend. at xiii-xxiv; id. at 244 (``Overall, 
there will be negative direct economic impacts to fishing vessels as a 
result of selecting Omnibus Alternative 2[.]'') (emphasis added).
    \34\ Id. at 291 (Table 89). For fishermen active in both the 
herring and the mackerel fisheries, these costs could rise even 
further. See id. at 301 (``Many of the vessels that would be impacted 
by industry-funded monitoring costs in the herring fishery would also 
be impacted by industry-funded monitoring costs in the mackerel 
fishery.''). Total estimated costs for vessels active in the mackerel 
fishery will depend, of course, on the Mid-Atlantic Fishery Management 
Council's preferred mackerel coverage target alternatives, which have 
not yet been chosen.
    \35\ See, e.g., Transcript of Preliminary Injunction Hearing at 
63:13-64:16, Goethel v. Pritzker, No. 15-497, 2016 WL 4076831 (D.N.H. 
July 29, 2016); see also id. at 64:17-65:21.
    \36\ New Eng. Fishery Mgmt. Council, Draft Report: Preliminary 
Evaluation of the Impact of Groundfish-Sector Funded At Sea Monitoring 
on Groundfish Fishery Profits at 10 (June 19, 2015), available at 
http://bit.ly/28QUXwT. These costs are predicted to be heaviest for 
small vessels. Id. at 13 (Table 12). NMFS recognized these prospects, 
describing them as a ``restructuring of the fleet.'' Id. at 10.
    \37\ Omnibus Amend. at 237 (``[P]otential downstream effects (e.g., 
subsequent management measures to address bycatch issues) of this 
action are considered too remote and speculative to be appropriate for 
consideration[.]'').
---------------------------------------------------------------------------
    It is worth noting the overwhelmingly negative feedback that NMFS 
and the New England Council have received in pursing the Omnibus 
Amendment. Of the eighty-three (83) submissions posted to the 
electronic docket during the last round of public comment, only six (6) 
voiced various levels of support for industry-funded monitoring; the 
vast majority, 93 percent, opposed it.\38\ The reasons for this 
opposition are straightforward enough. Small-scale fishermen cannot 
remain profitable if they must assume monitoring costs.\39\
---------------------------------------------------------------------------
    \38\ Dep't of Commerce, Nat'l Oceanic & Atmospheric Admin., 81 Fed. 
Reg. 64,426 (Sept. 20, 2016), Docket No. NOAA-NMFS-2016-0139-0001, 
available at http://bit.ly/2p5NO1s.
    \39\ See Comment of Meghan Lapp, Seafreeze Ltd., on Omnibus Amend. 
(Nov. 7, 2016), Docket No. NOAA-NMFS-2016-0139-0009, available at 
http://bit.ly/2nUf8Ph.
---------------------------------------------------------------------------
    The Long Island Commercial Fishing Association, for example, 
expects that the Omnibus Amendment's approximate $800 per-sea-day cost 
would force more than half of the entire New York-based fleet out of 
business.\40\ Other stakeholders are skeptical that increased 
monitoring has any connection to conservation or maintaining the 
sustainability of the fisheries, and they question the quality of the 
data collected. Most importantly, however, the public recognizes that 
the Magnuson-Stevens Act does not, in fact, authorize industry funding 
simply because the New England Council or NMFS wishes it to do so,\41\ 
and the public acknowledges the potential constitutional problems.\42\
---------------------------------------------------------------------------
    \40\ See Comment of Long Island Commercial Fishing Ass'n on Omnibus 
Amend. (Nov. 8, 2016), Docket No. NOAA-NMFS-2016-0139-0084, available 
at http://bit.ly/2odOrsX (``The onus for NMFS required observer 
coverage should be on NMFS, not industry. It is cost prohibitive.'').
    \41\ See, e.g., Comment of David Goethel on Omnibus Amend. (Nov. 7, 
2016), Docket No. NOAA-NMFS-2016-0139-0010, available at http://bit.ly/
2o04Mye (``Monitoring is a function of government and should be funded 
at levels Congress deems appropriate through NOAA line items in the 
budget. . . . [The Magnuson-Stevens Act] allows for the placement of 
observers on fishing boats but is silent on cost recovery except in 
specific fisheries in the North Pacific Region.''); see also Comment of 
Gregg Morris on Omnibus Amend. (Nov. 8, 2016), Docket No. NOAA-NMFS-
2016-0139-0080, available at http://bit.ly/2o09hJp (same).
    \42\ E.g., Comment of N.C. Fisheries Ass'n on Omnibus Amend. (Nov. 
7, 2016), Docket No. NOAA-NMFS-2016-0139-0082, available at http://
bit.ly/2oXBtAa (raising due process concerns) (``There was no 
reasonable opportunity for [public hearings] down in the affected 
states of Maryland, Virginia, and North Carolina. Their involvement in 
the public hearings process was substantially truncate. [Those] whose 
stand to be severely impacted . . . have not been given a single public 
hearing reasonably close enough for them to be expected to attend.''); 
cf. Brooke Constance White, Stonington fishermen, first select-man: 
Camera proposal violates Fourth Amendment rights, The Westerly Sun 
(Apr. 7, 2017), http://bit.ly/2o00maB.
---------------------------------------------------------------------------
    Apart from the lack of statutory authority for industry-funded 
monitoring, NMFS and the New England Council have failed to provide an 
adequate explanation for why increased monitoring is even necessary, 
let alone justify that monitoring in light of the extreme financial 
burden it will put on fishermen. Industry-funded monitoring, as pro-
posed, will destroy multi-generational, small-business fishermen up and 
down the East Coast while benefitting industrial fishing firms. That 
result is unacceptable and highlights why this Committee should 
urgently act on the matter.
Conclusion
    Thank you for your consideration of these comments. I am prepared 
to offer further details about our ongoing litigation or, more 
generally, the legality of industry-funded at-sea monitoring. If you 
have any questions, or if there is anything further that CoA Institute 
can provide, please feel free to contact me by telephone at (202) 499-
4232 or by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7f0d061e1151120a13091a063f1c1e0a0c1a10191e1c0b16101151100d1851">[email&#160;protected]</a>
                                 ______
                                 
   Statement of A.G. ``Spud'' Woodward, Director, Coastal Resources 
           Division, Georgia Department of Natural Resources
    Response to question: ``What is alternative management?''

    For the purposes of discussion about the Magnuson-Stevens Act 
(MSA), alternative management approaches are those currently used by 
state fisheries managers on inland and coastal fisheries, interstate 
commissions and Federal wildlife managers. They are only alternatives 
when compared to techniques such as annual catch limits currently used 
to manage marine fisheries in Federal waters. Otherwise, they are 
traditional and successful approaches to fish and wildlife management. 
Anglers, the marine industry, and many state agency staff do not 
believe the methods currently used by Federal marine fishery managers 
administering the MSA properly balance fish stock health with human 
use. Unquestionably, the best managed recreational and, often, 
commercial fisheries in this country are under state control. Employing 
approaches proven to work at the state level can dramatically improve 
the current Federal approach to managing marine recreational fishing.
    Alternative management approaches are potentially a better fit for 
marine recreational fishing. They offer options--tools in the toolbox--
to allow Federal management to be tailored to specific fisheries in a 
way that is considerate of the unique nature of recreational fishing. 
For example, in some fisheries there is a large amount of voluntary 
catch-and-release by recreational fishers with high rates of survival 
in the fish that are released. In other fisheries, anglers desire to 
keep the fish they catch for personal consumption so there is little 
voluntary catch-and-release. In others, survival of released fish is 
poor making voluntary catch-and-release of questionable conservation 
value. The management approaches to these fisheries should be 
different. It is important to state that these approaches emphasize 
conservation and sustainability while allowing resource policy makers 
to provide more consistent and predictable access to fish stocks.
    Recreational fishing and commercial fishing are different endeavors 
yet Federal marine fishery management principles are rooted in managing 
commercial fishing where there is a known and identifiable universe of 
fishers and high quality and timely data on removals. By trying to fit 
recreational fishing into a commercial fisheries management model, 
Federal managers are forced to make decisions based on data sources 
plagued with uncertainty. For some fisheries, catch and effort data is 
nothing but a semi-educated guess. This uncertainty of recreational 
catch and effort data intended to show long-term and regional trends 
leads to extremely precautionary management decisions. To the 
recreational sector, it appears that Federal marine fishery management 
is more focused on restricting the access of the fishermen to fish 
rather than properly balancing the impacts of that access on fish 
populations.
    One of the most common examples of alternative management employed 
by state agencies, both in coastal and some inland fisheries, is 
harvest rate management. Using this approach, catch limits, season 
lengths and other regulations are set to control the quantity, size, 
and age of the fish harvested from a particular stock. Emphasis is 
placed on maximizing access and opportunity but doing so in a way that 
does not jeopardize the targeted fish stock or create incidental 
impacts on other species. The efficacy of harvest rate management is 
periodically evaluated using ongoing monitoring of fish abundance and 
stock status determinations using methods appropriate for the available 
data. Harvest rate management requirements are only changed when there 
is convincing evidence that such requirements are not preventing 
overfishing. For example, one of the Southeast's most popular inshore 
sportfish, spotted sea trout, has been successfully managed in Florida 
with bag and creel limits to maintain a Spawning Potential Ratio (SPR) 
of at least 35 percent since the 1990s. A similar situation exists for 
another iconic marine species, the red drum, which is successfully 
managed across its range with slot-size and creel limits and a SPR 
biological reference point.
    The challenge of fisheries management is to balance the needs of 
the fish with the wants of fishers. For recreational fishing where 
angler expectations are highly variable this is particularly difficult. 
In many fisheries, the Magnuson-Stevens Act does not achieve this 
balance and recreational anglers are deprived of opportunity without a 
commensurate conservation need or benefit. Lost opportunities translate 
to fewer state fishing license purchases and less spending for boats, 
engines, tackle, and gear resulting in fewer contributions to support 
Federal Aid in Sport Fish Restoration. Ultimately, this means fewer 
conservation dollars for the state agencies tasked with ensuring we 
have healthy and abundant fish populations.
    Alternative management approaches with appropriate accountability 
measures offer an opportunity to address this imbalance. The country is 
replete with effective tools in its natural resource management 
toolbox. However, Federal marine fishery managers do not consider many 
of them to be appropriate or effective for managing fisheries pursuant 
to the MSA. Yet, state resource managers have and continue to use them 
as a way to maximize recreational opportunities while achieving long-
term conservation goals. Collectively, this creates a stronger, more 
vibrant recreational fishing industry while giving anglers greater 
opportunities to access and enjoy our Nation's marine resources.
                                 ______
                                 
                                                     March 15, 2017
Members of the 115th Congress
Washington, DC

Congressman:

    The MSA Working Group is a coalition of organizations representing 
the saltwater recreational fishing and boating community. We are 
pleased to present to you draft amendments to the Magnuson-Stevens Act. 
We believe these amendments bring parity to recreational and commercial 
fishing which are different endeavors and should be managed 
differently.
    In trying to squeeze recreational fishing into a management model 
not designed for recreational fishing, Federal managers are being 
forced to do a lot of guessing. Therefore, we propose alternative 
management techniques that are rooted in management currently being 
used by state fisheries managers on inland and coastal fisheries, by 
management commissions and by Federal game managers. In many fisheries, 
the Magnuson-Stevens Act does not achieve a balance between 
conservation goals, angler satisfaction and the needs of the 
recreational fishing industry. Therefore, recreational anglers are 
deprived access and opportunity, and while our industry is a strong 
economic driver, it does not perform to its potential.
    Saltwater recreational fishing contributes $70 billion annually to 
the Nation's economy and supports 455,000 jobs in every corner of the 
country from boat dealerships, marinas and tackle shops to restaurants, 
motels and manufacturers. Atop their economic impact, America's anglers 
and boaters are the foremost supporters of conservation and resource 
management. In 2010 alone, anglers and boaters contributed $650 million 
in excise taxes for sportfish conservation and management, boating 
safety and infrastructure, and habitat restoration. An additional $657 
million was contributed by anglers through fishing license fees.
    We urge your support for this package of amendments. Please do not 
hesitate to reach out to the coalition as we work to modernize 
saltwater recreational fisheries management.
            Sincerely,

Mike Nussman, President              Rob Kramer, President
American Sportfishing Association    International Game Fish Association
 
Jeff Angers, President               Thom Dammrich, President
Center for Sportfishing Policy       National Marine Manufacturers
                                      Association
 
Patrick Murray, President            Jim Donofrio, President
Coastal Conservation Association     Recreational Fishing Alliance
 
Jeff Crane, President                Ellen Peel, President
Congressional Sportsmen's            The Billfish Foundation
 Foundation
 
Dr. Guy Harvey, President            Whit Fosburgh, President
Guy Harvey Ocean Foundation          Theodore Roosevelt Conservation
                                      Partnership
 

                                 ______
                                 
Modernizing Recreational Fisheries Management and Boating Safety Act of 
                        2017--Section by Section
TITLE I--CONSERVATION AND MANAGEMENT
Sec. 101. Allocation
    This section would establish clear, objective criteria upon which 
allocation decisions could be based, and require periodic review of 
allocations in mixed-used fisheries--limited to the South Atlantic and 
Gulf of Mexico Fishery Management Councils. For many mixed-use 
fisheries (i.e., those fished by both the commercial and recreational 
sectors), allocations of harvestable quota for each sector are based on 
decisions in fisheries management plans written decades ago. Because no 
formalized process exists to prompt the regional fishery management 
councils toward examining these allocations, and because allocation 
discussions have been historically contentious, fisheries managers lack 
the necessary incentives to reexamine allocations regardless of how 
outdated and/or inequitable they may be today.
Sec. 102. Alternative Management
    This section would clarify that NOAA Fisheries can implement 
alternative management approaches more suitable to the nature of 
recreational fishing while adhering to the conservation principles of 
the Magnuson-Stevens Act (MSA). Recreational and commercial fishing are 
fundamentally different activities that require different management 
approaches. State fishery managers use different management approaches 
for recreational and commercial sectors. NOAA Fisheries does not, 
however. NOAA Fisheries manages recreational fisheries the same way as 
commercial fisheries--by setting a poundage-based quota at or near 
maximum sustainable yield and attempting to enforce it in real time. 
While this may be an ideal management strategy for commercial fishing, 
where harvesting the maximum biomass is desired, it is not an effective 
management tool for many saltwater recreational fisheries.
Sec. 103. Limited Access Privilege Programs in Mixed-Use Fisheries
    This section would prevent new ``limited access privilege 
programs'' in the mixed-use fisheries in the Gulf and South Atlantic 
Regional Councils. Limited access privilege programs (LAPPs) are 
intended to reduce capacity and participation in a fishery. While this 
model has applicability in purely commercial fisheries, it has created 
significant user conflicts in fisheries pursued by both recreational 
and commercial fishermen. LAPPs remove flexibility to manage resources 
according to changing economic and demographic factors, and present an 
often-insurmountable obstacle to managing marine resources to their 
highest and best use for the public which ultimately owns those 
resources.
Sec. 104. Rebuilding Fishery Stock Timelines
    This section would allow for modest flexibility in setting 
rebuilding time frames by changing possible to practicable and offering 
a science-based alternative to arbitrary 10-year rebuilding timeframe. 
Proposed modifications would also afford statutory consistency with 
recent revisions to National Standard 1 Guidelines. When NOAA Fisheries 
sets the length of time to rebuild a depleted fishery, it also sets the 
pace at which a specific stock size must meet its rebuilding target. 
Yet, the speed at which a stock can rebuild is often unpredictable and 
influenced by factors outside of fishing. Even minor flexibility with 
rebuilding timeframes provides anglers with greater opportunities to 
access rebuilding fish stocks while still meeting conservation goals. 
Flexibility with rebuilding also helps minimize the negative impacts 
when rebuilding time frames or rebuilding targets are set using poor 
science.
Sec. 105. Annual Catch Limit
    These revisions would provide flexibility with the application of 
annual catch limits (ACL) to take into account ecological 
considerations, and social and economic impacts. In addition, 
flexibility with ACLs would be afforded when stock assessments are 
outdated or absent. The application of annual catch limits that are set 
in pounds of fish has a negative and unfair impact on the recreational 
sector and makes it extremely difficult to set reasonable regulations. 
MSA currently requires an ACL for every species regardless of whether 
there is good science or an adequate monitoring system in place to 
support the catch limit.
Sec. 106. Exempted Fishing Permits
    These revisions will establish specific criteria to evaluate permit 
applications and formalize an expanded review process that requires 
greater regional stakeholder input on the merits of each permit 
application. The exempted fishing permit process was originally 
intended to allow researchers and fishermen to test gear modifications 
and fishing practices outside of regulations in place to manage certain 
stocks of fish. EFPs can enact programs that run multiple years and 
have significant impacts to the management regime of an entire fishery, 
and yet the permits need only approval by a single entity--NOAA 
Fisheries--to be enacted. In recent years, the EFP process has been 
misused as a mechanism to simply circumvent Council process and/or 
public opposition to controversial measures that benefit a certain 
sector or even select individuals within a certain sector.
TITLE II--RECREATION FISHERY INFORMATION, RESEARCH, AND 
        DEVELOPMENT
Sec. 201. Cooperative Management
    This section would require the Secretary of Commerce, in 
consultation with the science and statistical committees of the 
regional councils, to submit a report to the relevant congressional 
committees on facilitating greater incorporation of data, analysis, 
stock assessments, and surveys from state agencies and nongovernmental 
sources such as fishermen, fishing communities and research 
institutions. Cooperative management will help improve the accuracy of 
fish stock information and data collection and analysis by 
incorporating data collected by anglers themselves into fisheries 
management decisions.
Sec. 202. Recreational Data Collection
    This section would transition existing Federal funds toward state 
programs to improve fisheries harvest data. The Federal program that 
estimates angler harvest--the Marine Recreational Information Program 
(MRIP)--is capable of providing baseline trends in fishing effort. But, 
for many offshore fisheries MRIP does not provide data at the level of 
accuracy or timeliness needed for in-season management. By contrast, 
many states, especially in the Gulf of Mexico, have developed 
complimentary angler harvest data collection systems to provide real-
time and better harvest data.
TITLE III--BOATING SAFETY AND DOCUMENTATION FOR RECREATIONAL VESSELS
Sec. 301. Installation and Use of Engine Cut-off Switches on 
        Recreational Vessels
    This section would require recreational vessel operators to use an 
engine cut-off device for boats under 26 feet in length, while the 
vessel is underway. Manufacturers, dealers, boaters, law enforcement 
and the U.S. Coast Guard (USCG) have supported such action but 
regulatory delays since 2011 have prevented action. The length and type 
of vessels subject to engine cut-off wear would address the majority of 
incidents where an operator is ejected from a boat while underway. Loss 
of control can result in a dangerous situation for the operator, 
passengers, and nearby boaters and law enforcement. There would be no 
additional cost for wear, as the provision is designed for vessels 
already installed with such a device and manufacturer compliance has 
already occurred for the past decade.
Sec. 302. Visual Distress Signals and Alternative Use
    This section would move forward current USCG efforts to examine 
alternative distress devices, such as LED lights, and prioritize a 
regulatory fix to allow other distress devices to qualify for carriage. 
Current regulations require carriage of a flare device for visual 
distress on a recreational vessel. Traditional flares pose an 
environmental risk and lack facilities for proper disposal. Traditional 
flares would not be replaced, but this section would expand the 
qualifications of other devices for carriage so long as they met USCG 
standards.
Sec. 303. Renewal Period for Documented Recreational Vessels
    The Coast Guard Authorization Act of 2015 directed the USCG to 
issue regulations allowing for a five-year renewal of recreational 
vessels within one year of enactment of the law. The USCG has yet to 
act on this one-year requirement. This provision would make the renewal 
time period self-executing.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                                                 
                                 ______
                                 
                              Seafood Harvesters of America
                                     Arlington, VA, August 22, 2017

Hon. Dan Sullivan,
Chairman, Senate Commerce Committee,
Washington, DC.

Chairman Sullivan,

    On behalf of the Seafood Harvesters of America and our Alaskan 
members, I write to express our support for your efforts to modernize 
and strengthen the Magnuson-Stevens Act (MSA), while maintaining the 
Act's core conservation provisions and accountability standards upon 
which the long-term viability of our fisheries depend.
    The Harvesters represent an array of commercial fishing 
organizations and fishermen across Alaska and the nation, including 
those who use pots to crab in the Bering Sea, those who seine for 
Copper River salmon and those who trawl for Pollock or use longlines to 
catch black cod in the Gulf of Alaska. While we may use different gear 
and target different species, we all have in common a desire and 
commitment to manage our fisheries sustainably. The Harvesters bring 
together fishermen from across the Nation to learn from each other's 
successes, as well as our failures, and collectively champion policies 
to ensure that we have well-managed fisheries. Our members are 
privileged to go to sea every day, bringing to market healthy, 
domestic, sustainable seafood.
    As you know, The United States has one of the most successful 
fishery management systems in the world, with almost 500 federally 
managed stocks producing almost 10 billion pounds of seafood valued at 
over $5 billion annually direct to fishermen. Our success in managing 
this renewable resource is based on the MSA's regional management 
approach, rooted in sound science. The short-term sacrifices that our 
industry made to adhere to annual catch limits have yielded greater 
long-term benefits of rebuilt stocks that we are enjoying today.
    Through the accountability standards and conservation mandates in 
the MSA, our fisheries have improved dramatically as the commercial 
fishing industry has become more responsible, transparent and 
efficient. In Alaska, we have reversed the culture of disregard and led 
the Nation in sustainable managed fisheries from the Bering Sea, to 
Bristol Bay and Prince William Sound, on down to the Dixon Entrance. We 
have found a better way to fish through limited access privilege 
programs that have ended the race to fish and enabled more flexible 
harvesting, allowing for more complete yields of target species, 
reducing bycatch and discards and avoiding catch of prohibited species. 
These programs have allowed us to be vested caretakers of the resource 
while at the same time offering financial stability and increased 
safety. Consequently, we support Assistant Administrator Chris Oliver's 
recent testimony before your committee that ``Limited Access Privilege 
Programs, while not appropriate for all fisheries, are an important 
tool in our collective tool box, and the current Act allows for 
development of such programs to be tailored to the specific needs of 
each fishery.''
    While Alaska has the best managed fisheries in the world, there is 
still room for improvement. We believe that the modernization and 
streamlining of fishery information systems is critical to provide more 
timely science for better management decisions. Unfortunately, existing 
systems are built using technology and practices that are outdated, 
slow, incomplete, expensive and often inaccurate. Relying on pen and 
paper to track billions of fish is obviously antiquated and results in 
management uncertainty and economic inefficiencies.
    If we are going to renewably maximize the bounty that the ocean can 
provide to our nation, we need additional and better monitoring, 
accountability, and enforcement throughout our fisheries. Many of our 
members are doing that by installing camera systems on their boats. 
When the nets are hauled back or lines drawn in, the cameras turn on 
and record the catch so that there is certainly about what is landed 
and what is discarded. We are now working to ensure that these real-
time data are utilized to make wise management decisions. We look 
forward to working with you to innovate and implement electronic 
monitoring and electronic reporting of real-time catch data to reduce 
uncertainty in our fisheries and thus maximize sustainable harvesting.
    The Seafood Harvesters' mission is to develop sustainable 
fisheries, using accountability as the sword and the shield. We are the 
fishermen who rose out of the ashes of overfishing and are using the 
hard lessons we learned to chart a path to prosperity and environmental 
health. We have an obligation to make wild-caught fish a viable, 
enduring, dependable source of food. Healthy fisheries are vital to the 
economic well-being of our coastal communities, now and into the 
future.
    We greatly appreciate your consideration of our concerns as you 
look to reauthorize and strengthen the Magnuson-Stevens Act. We hope 
you will work with us to improve the law through modernizing the data 
collections systems, innovating better ways to incorporate real-time 
data into stock assessment, while maintaining science based catch 
limits to prevent overfishing, rebuild vulnerable fish populations and 
protect the safety and long-term stability of our fishing communities.
    Thank you for your consideration, leadership and support for the 
commercial fishing industry.
            Sincerely,
                                          Kevin R. Wheeler,
                                                Executive Director.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                           Elizabeth Ogilvie
    Question 1. Exempted Fishing Permits are an important scientific 
tool for fisheries research. NOAA Fisheries issues Exempted Fishing 
Permits to individuals for the purpose of conducting research or other 
fishing activities using private vessels. How is the process for 
Exempted Fishing Permits currently being used? Given this process, are 
there opportunities for Exempted Fishing Permits to be abused or 
misused?
    Answer. The Exempted Fishing Permit program as originally conceived 
would allow scientific research to take place for the betterment of 
fishery management and conservation where the activity would otherwise 
be prohibited. (600.745 of title 50, Code of Federal Regulations (b) 
Exempted fishing--(1) General. A NMFS Regional Administrator or 
Director may authorize, for limited testing, public display, data 
collection, exploratory fishing, compensation fishing, conservation 
engineering, health and safety surveys, environmental cleanup, and/or 
hazard removal purposes, the target or incidental harvest of species 
managed under an FMP or fishery regulations that would otherwise be 
prohibited. Exempted fishing may not be conducted unless authorized by 
an EFP issued by a Regional Administrator or Director in accordance 
with the criteria and procedures specified in this section.)
    The program has informed better management at times. However, in 
recent years the permits have been abused by operators focused on self-
enrichment rather than any public or conservation benefit from their 
efforts. Below are a few troubling examples of how loopholes in the 
program have failed to protect America's public marine resources.

  <bullet> Headboat Collaborative Exempted Fishing Permit--2013
    Exempted Fishing Permit (RIN 0648-XC528) allowed a pre-selected 
        subset of less than a dozen Gulf headboat operators to be 
        gifted recreational quota to use for their individual harvest 
        of red snapper and grouper for two years. Touted as an 
        experiment to provide accurate and timely landings data, this 
        EFP paved the way for allowing separate allocations of common 
        property resources to the for-hire and private boat 
        recreational fishing sectors and the ultimate creation of a 
        catch shares program in the recreational sector.
    This EFP simply did not produce conservation gains or enhance 
        efficiency. Any ``academic study'' designed to quantify the 
        stated goals of this EFP were negated by the non-random 
        selection of the subject vessels. There was no evidence that 
        the decline in for-hire reef fish permits in the Gulf has 
        affected any of the operators who are applying for this EFP as 
        the decline cited in their application has affected primarily 
        the smaller charter vessels. There was also no history of 
        project management and oversight by the ``Headboat 
        Cooperative'' that would provide the agency with the standard 
        assurances that the conditions and requirements of the EFP 
        could, in fact, be achieved.
    The most that could be hoped for by this EFP is that it would show 
        a small number of vessels, when granted the right to fish when 
        it is illegal for everyone else to fish, will be more 
        profitable. That conclusion needs no test. Artificially 
        controlling supply in the face of pent-up demand will increase 
        prices, pure and simple.
    Despite overwhelming public sentiment in opposition, this EFP was 
        granted. Before it had fully run its two-year course and the 
        results evaluated, the Gulf Council had approved the creation 
        of a new charter-for-hire/headboat sector with its own 
        allocation of red snapper (Amendment 40)

  <bullet> South Atlantic Collaborative Exempted Fishing Permit 
        Application--Feb. 2017
    An exempted fishing permit (EFP) to initiate a commercial 
        privatization program for at least six species of fish in the 
        South Atlantic was filed by a newly created group called the 
        South Atlantic Commercial Fishing Collaborative, which was 
        comprised of exactly four individuals, including two sitting 
        South Atlantic Council members and one former member. The EFP 
        outlined a two-year pilot program to assign private ownership 
        privileges for those six species to up to 25 commercial 
        vessels, although those vessels were not identified in the 
        permit. The permit did not address how shares would be 
        assigned, how they would be traded or ownership limits. There 
        was no mention of resource rents or any sort of payment for the 
        right to harvest these fish for their personal financial 
        benefit, a topic that has come under increasing scrutiny.

    The permit was withdrawn from consideration after an outpouring of 
        public opposition and is likely to be re-submitted.

  <bullet> Exempted Fishing Permit to Reintroduce Longlines into South 
        Atlantic conservation zone--Aug. 2017
    More than two decades ago swordfish in the Western Atlantic were in 
        serious trouble. The average landed weight had dropped to 
        approximately 60 pounds, swordfish were overfished and 
        overfishing was occurring. The initial problem with the fishery 
        was that too many juvenile swordfish were dying due to 
        longlining off the coast of Florida and the Charleston Bump. As 
        a result, those nursery areas were identified and closed to the 
        United States pelagic longline (PLL) fleet in 2001. Ever since, 
        there have been ill-conceived attempts to reopen the closed 
        areas to commercial harvest and expose it to the types of 
        intense commercial fishing pressure that drove stocks into an 
        overfished condition in the first place.
    In August 2017, the Office of Highly Migratory Species approved an 
        EFP that will allow a fleet of six longliners owned by a single 
        company back into the nursery areas to ``evaluate the 
        effectiveness of existing area closures at meeting conservation 
        and management goals under current conditions using 
        standardized Pelagic Longline gear.''
    Reference was made in the EFP to protecting America's swordfish 
        quota at the International Commission for the Conservation of 
        Atlantic Tunas (ICCAT), a clear implication that if America 
        does not catch and kill every swordfish allotted to it then 
        this international management body will reassign that quota to 
        other nations. However, ICCAT itself touts the swordfish 
        recovery as one of its greatest conservation achievements. 
        There is no indication that ICCAT would punish the United 
        States for having achieved that victory. Although this argument 
        has been around for years, the United States has not lost a 
        single pound of swordfish quota.
    Despite overwhelming public opposition, the EFP was allowed to be 
        used as a tool of convenience for a single longline operator to 
        gain access to nearby pristine fishing grounds, jeopardizing a 
        proven billfish nursery area and the considerable economic 
        impact of a healthy billfish fishery on the region.

                                  <all>
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
